<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2018

                              ----------                              


                          TUESDAY, MAY 9, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:30 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (chairman) 
presiding.
    Present: Senators Graham, Moran, Boozman, Daines, Leahy, 
Durbin, Shaheen, Coons, Murphy and Van Hollen.

                   UNITED STATES DEMOCRACY ASSISTANCE

STATEMENTS OF:
        HON. MADELEINE ALBRIGHT, CHAIRMAN OF THE BOARD, THE NATIONAL 
            DEMOCRATIC INSTITUTE
        HON. STEPHEN HADLEY, CHAIRMAN OF THE BOARD, THE UNITED STATES 
            INSTITUTE OF PEACE
        HON. VIN WEBER, CO-VICE CHAIRMAN OF THE BOARD, THE NATIONAL 
            ENDOWMENT FOR DEMOCRACY
        HON. JAMES KOLBE, VICE CHAIRMAN OF THE BOARD, THE INTERNATIONAL 
            REPUBLICAN INSTITUTE
TESTIMONY FROM DEMOCRACY PROGRAM BENEFICIARIES

OUTSIDE WITNESS TESTIMONY SUBMITTED SUBSEQUENT TO THE 
            HEARING

              OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you all. The subcommittee will come 
to order. Today, our hearing is on United States Democracy 
Assistance. I would like to welcome our witnesses who deserve 
long, glowing introductions--but you're not going to get one 
because we got to get on one with the hearing.
    We've got Madeleine Albright, Chairman of the Board of the 
National Democratic Institute and former Secretary of State. 
Welcome, Ms. Albright.
    James Kolbe, Vice-Chairman of the Board of the 
International Republican Institute. Jim, welcome.
    Vin Weber, Co-Vice Chairman of the Board of the National 
Endowment for Democracy, all around good guy, Republican type.
    Stephen Hadley, Chairman of the Board of the United States 
Institute of Peace. You are going to be in business for a long 
time. A lot of peace to be had out there. Former National 
Security Advisor for President Bush 43.
    Thank you, all. Senator Leahy is on the way. The 
subcommittee provides about $2.3 billion for democracy 
programs. I do not know what that is in terms of the total 
budget but perhaps one-tenth of one percent. Not much. The 
money is well utilized and we're going to make a case why 
America should be investing in democracy. The best case I can 
make is I cannot remember a war between two democracies. So, if 
you can ever get to democratic stability and democratic 
institutions rise from the ashes of strong man rule or 
dictatorships which is very hard to do, you'll find somebody 
you can do business with who probably won't kill you.
    A little bit about this account. We have asked people who 
benefit from democracy programs to give us their views of the 
importance of these programs.
    ``I've always admired the United States for its fundamental 
values of democracy, freedom and rule of law and so its 
institutions and people have the ability to help encourage the 
promotion of these positive principles,'' said the Dalai Lama.
    ``The question is what sort of world do we want? I have 
personally seen the benefits of that strong, inclusive 
democracies can have and I do not want to see my country, my 
region, my world turned back. Without the leadership of the 
United States, there will be others that will fill the void, 
others that do not share the values of freedom of speech, 
freedom of association, freedom to choose.'' That is the former 
Foreign Minister of Mongolia whose name I cannot pronounce, but 
I agree with everything he said.
    The bottom line is I've got a treasure trove of validation 
from those who have been on the receiving end of democracy 
programs. North Korean human rights groups, ``without the 
material and institutional support of NED, the National 
Endowment for Democracy, the North Korean Human Rights 
Movements as we know it today would not have existed.''
    On and on and on. What I want the American people to know 
that your tax dollars are hard to come by, we're in debt but as 
a nation, we need to stay involved in the world. The world will 
be involved with us whether we like it or not. I'd like to 
choose the terms of our involvement. When it comes to 
terrorism, the goal is to kill the idea, just not the terrorist 
because you kill a terrorist, you'll get a new one. If you kill 
the idea, then we win and I think most people do not want to go 
down the road that the Islamic State of Iraq and the Levant, 
Al-Qaeda and the Taliban have charted for them. Those who are 
wishing to say no just need our help.
    I am a pretty hawkish guy, but soft power is every bit as 
important as hard power. How do you hold Mosul, Raqqa, et 
cetera, if you do not have a soft power component? We will fail 
and we will be right back at it again. The terrorist offer a 
glorious death. We need to offer a hopeful life and a hopeful 
life comes from being able to choose your leaders, resolve your 
differences in a court that's fair and impartial and be able to 
speak without fear.
    That is what democracy programs are all about. That is why 
we are having this hearing.
    Would you like to say something, Senator Durbin, until 
Senator Leahy gets here?
    Senator Durbin. Just briefly. The question that comes to my 
mind, Vladimir Putin is developing some pretty effective tools 
for undermining democracy. What tools are we developing to 
undermine authoritarianism?
    Senator Graham. Great question and if it is okay, we will 
just start with our witnesses. Ladies, first.
STATEMENT OF HON. MADELEINE ALBRIGHT, CHAIRMAN OF THE 
            BOARD, THE NATIONAL DEMOCRATIC INSTITUTE
    Ms. Albright. Thank you. Chairman Graham and when the 
Ranking Member Leahy gets here and distinguished members of the 
subcommittee, and thank you so much for holding this hearing on 
the importance of U.S. democracy assistance and for inviting me 
to testify as Chairman of the Board of the National Democratic 
Institute.
    And it's my pleasure to really appear alongside some good 
friends.
    Before I begin, I really do want to pay my deepest respect 
and appreciation for the vital role this subcommittee has 
played in sustaining and strengthening the non-military tools 
of American power. Experience has taught me that diplomacy, 
development, and democracy are as integral to our national 
security as defense, which Chairman Graham is really the answer 
to the taxpayers.
    In today's uncertain and dangerous world, we weaken these 
national security tools at our peril. Nevertheless, there are 
still some in Washington and elsewhere who believe that 
promoting democracy doesn't qualify as real foreign policy. 
They see little connection between fostering democratic 
practices and hardheaded pursuit of American interests.
    But our wisest leaders, Democrats and Republicans alike, 
have always understood that American foreign policy must be 
shaped not solely on the basis of what we are against, but also 
what we are for. And our interests dictate that we should be 
for a world in which democracy is defended and universal values 
upheld.
    Yesterday marked 72 years since the end of World War II in 
Europe. At the time I was 7 years old and a refugee living in 
London all through the Blitz and I was there with my family and 
I will never forget the elation that we all felt.
    In the decades that followed, we learned that democracy's 
more than just another form of government. It's also a powerful 
generator of international security, prosperity and peace and 
that is because while democracy may not provide a guarantee 
against aggression, it is the best political insurance 
available.
    Governments that are publically accountable rarely start 
wars while regimes that run roughshod over their own citizens 
are often indifferent to the rights of their neighbors.
    Moreover, in today's world, destabilizing conflicts that 
threaten U.S. interests erupt more frequently within societies 
than between them.
    And here again, democracies have a clear advantage because 
they embrace pluralism, encourage tolerance and enable citizens 
to pursue change in a lawful and peaceful way. It's no 
coincidence that the hotspots most likely to harbor terrorists 
and generate waves of refugees are in the areas of the world 
that are non-democratic. Meanwhile, democratic nations are more 
likely to support timely international action to fight 
terrorism, trafficking and disease.
    Democracy also has the best record of fostering the 
stability, openness and dynamism required for global economic 
growth, which is itself another important U.S. national 
security interest.
    I've been in many arguments about which comes first, 
economic or political development. The truth is they go 
together. Democracy has to deliver because people want to vote 
and eat.
    For all these reasons, the health of democracy is clearly 
vital to America's interest and my central message today is 
that promoting democracy is not just right; it is also 
necessary, smart and cost-effective. After all, foreign 
assistance is only about 1 percent of the total U.S. budget and 
democracy assistance represents just 4 percent of that.
    The question is how to go about promoting democracy. In any 
society, building democracy is never easy, never fully 
accomplished and it's something to be worked on, step by step, 
country by country, day by day. And that's precisely the 
philosophy that has guided the National Endowment for Democracy 
and our four core institutions--NDI, the International 
Republican Institute, the Center for International Private 
Enterprise, and the Solidarity Center.
    As you know, the NED and the institutes grew out a speech 
that President Reagan made to the British Parliament, in which 
he stated and I quote, ``Our military strength is a 
prerequisite to peace, but let it be clear we maintain this 
strength in the hope it will never be used, for the ultimate 
determinant in the struggle that's now going on in the world 
will not be bombs and rockets, but a test of wills and ideas, a 
trial of spiritual resolve, the values we hold, the beliefs we 
cherish, the ideals to which we are dedicated.'' And those 
words remain true today and the work of the NED and its 
institute remains vital to our national security.
    I've seen the work of these organizations up close. They 
have developed relationships at the highest levels of 
government across party lines and at the grass roots and their 
programs are serving important U.S. strategic interests as are 
the efforts of the U.S. Institute of Peace.
    My submitted testimony includes examples of NDI's positive 
effect. In Iraq, NDI opinion research is helping us understand 
what kind of governance Iraqi citizens want in a post-
liberation Mosul. In Syria, we are advising local citizens and 
groups and administrative councils in dozens of community and 
in Ukraine, NDI and its European partners have brought together 
all eight party factions in the Parliament to agree on 
procedures that will make it easier to build consensus around 
economic and political reform.
    As our experience in these countries demonstrates, there's 
nothing automatic or easy about democratic change but we should 
remember that the mission of U.S. democracy assistance is not 
to impose democracy. That is an oxymoron. Democracy is not a 
product or a service. It cannot be exported or imported. It 
must grow from within. However, the United States can help 
plant the seed with democracy assistance and that money is well 
spent.
    Thanks to the tremendous efforts of this subcommittee, the 
omnibus appropriations act enacted by Congress last week 
provides full funding for democracy assistance, but as welcome 
as this step is, I'm concerned about the future. The so-called 
``skinny'' budget proposal includes steep and arbitrary cuts to 
the State Department and international affairs' budget which 
would inflict irreparable harm on democracy assistance, as well 
as other vital diplomatic and development programs.
    At the same time, the cement appears to be hardening on a 
new global split between democratic and undemocratic forces. 
The United States must stand with small democrats and not give 
any encouragement to authoritarians and that means we must 
uphold both our principles and our interests as we pursue our 
foreign policy. America's leaders have always needed to weigh a 
variety of factors when deciding which foreign governments to 
support. It is sometimes necessary to make alliances of 
convenience with countries that do not share our values. But 
even when we make such arrangements, we should never lose sight 
of our long-term interests. Democracy and human rights must 
always be a pillar of our national security strategy and part 
of our bilateral agenda even with those countries where they're 
in short supply. Without this commitment, American foreign 
policy would lose its moral compass, it's most compelling claim 
to global respect and ultimately the support and understanding 
of the American people.
    Make no mistake, shedding our support for democracy would 
put in jeopardy our long-term economic, political and security 
interests. We must never forget that freedom is perhaps the 
clearest expression of national purpose ever adopted and it's 
America's purpose. Like other profound human aspirations, it 
can never be fully achieved; it is not a possession; it is a 
pursuit. And it is the star by which American foreign policy 
must continue to navigate in the years.
    Mr. Chairman and members of the subcommittee, your ongoing 
leadership is essential if America is going to continue to lead 
the roster of democracy champions.
    Thank you so very much for allowing us to testify.
    [The statement follows:]
            Prepared Statement of Hon. Madeleine K. Albright
    Chairman Graham, Ranking Member Leahy, distinguished members of the 
subcommittee: Thank you for holding today's hearing on U.S. democracy 
assistance and for inviting me to testify as Chairman of the Board of 
the National Democratic Institute.
    Before I begin, I want to express my deepest respect and 
appreciation for the vital role this subcommittee has played in 
sustaining and strengthening the non-military tools of American power. 
Experience has taught me that diplomacy, development, and democracy are 
as integral to our national security as defense. In today's uncertain 
and dangerous world, we weaken these national security tools at our 
peril.
    I am pleased today to be able to appear alongside three good 
friends.
    When I was in office, Jim Kolbe was a key partner on foreign 
assistance programs in Congress.
    A few years after I left government, I had the opportunity to work 
with Vin Weber on a Council on Foreign Relations Task Force on 
democracy in the Arab world.
    And more recently, Steve Hadley and I co-chaired the Atlantic 
Council's Middle East Strategy Task Force, which identified failures in 
governance as the root cause of the crisis in the region, and 
recommended that the international community focus more of its efforts 
on long-term institution building in the Middle East. The kind of 
support offered by democracy assistance programs and by independent 
organizations such as the U.S. Institute of Peace is a vital component 
of the strategy we proposed.

    With that in mind, my testimony today will focus on three areas:

  --First, the link between the growth of democracy abroad and our 
        security here at home;
  --Second, the strategic impact of U.S. democracy assistance programs;
  --Third, the role of democracy assistance in addressing the threats 
        and challenges facing America in the world.

    There are still some in Washington and elsewhere who believe that 
promoting democracy does not qualify as real foreign policy. They see 
little connection between fostering democratic practices and the hard-
headed pursuit of American interests.
    But our wisest leaders, Democrats and Republicans alike, have 
always understood that American foreign policy must be shaped not 
solely on the basis of what we are against, but also what we are for. 
And our interests dictate that we should be for a world in which 
democracy is defended and universal values upheld.
    The past 70 years provides ample proof that democracy is more than 
just another form of government; it is also a powerful generator of 
international security, prosperity, and peace.
    Yesterday, May 8, marked 72 years since the end of World War II in 
Europe. In the years that followed, democracy helped Germany and Japan 
become integrated into the world economy and evolve into key allies of 
the United States.
    Forty years later, the promise of democracy inspired Solidarity, 
the Velvet Revolution and other movements that lifted the Iron Curtain 
and ended Cold War security threats.
    The democratic gains that followed in the 1990s inspired the 
enlargement of NATO and opened the door to EU expansion. They allowed 
us to work with our neighbors in this hemisphere more closely than ever 
to broaden prosperity, address social ills, and expand the rule of law. 
They enabled countries in the Asia-Pacific region--including Indonesia, 
India and South Korea--to achieve new levels of prosperity and become 
economic and strategic partners for the United States. And in Africa, 
the steady growth of democracy has led to improvements in development, 
health, and security across the continent.
    When the Cold War ended, many felt democracy was in command and 
marching on the right side of history. But in the years since, that 
sense of euphoria has dissipated. The financial crisis, and growing 
gaps between rich and poor, have fueled anger and deepened doubts about 
the capacity of democracy to deliver on its promises. Recent progress 
in a few key countries and regions has been overshadowed by renewed 
authoritarianism in Russia, democratic backsliding in places such as 
Turkey, the rise of illiberal populism in Europe, state collapse in an 
authoritarian Venezuela, and the breakdown of order in parts of the 
Middle East and North Africa.
    While history's direction no longer seems so obvious, we know that 
America's security needs will be influenced greatly by whether freedom 
finds a foothold in nations where democratic forces are being 
repressed.
    That is because while democracy may not provide a guarantee against 
aggression, it is the best political insurance available. Governments 
that are publicly accountable rarely start wars; while regimes that run 
roughshod over their own citizens are often indifferent to the rights 
of their neighbors.
    Moreover, in today's world, destabilizing conflicts that threaten 
U.S. interests erupt more frequently within societies than between 
them. Here again, democracies have a clear advantage, because they 
embrace pluralism, encourage tolerance, and enable citizens to pursue 
change in a lawful and peaceful way.
    It is no coincidence that the hotspots most likely to harbor 
terrorists, generate waves and refugees, and produce illegal drugs are 
in areas of the world that are nondemocratic. Meanwhile, democratic 
nations are more likely to support timely international action to fight 
terrorism, trafficking, and disease.
    It is true that democratic transitions can produce disorder in the 
short term, but history tells us that over the long term the opposite 
is true. As the legacy of totalitarianism attests, it is the denial of 
freedom that points the way most often to civil conflict and war.
    At its best, democracy can produce the kind of stability that 
lasts, a stability built on the firm ground of mutual commitments and 
consent. This differs from the illusion of order that can be maintained 
only as long as dissent is silenced; the kind of order that may last 
for decades and yet still disappear overnight.
    Democracy also has the best record of fostering the stability, 
openness, and dynamism required for global economic growth, which is 
itself another important U.S. national security interest.
    I have been in many arguments about which comes first, economic or 
political development. But experience has taught us that democracy and 
development reinforce each other. Societies grow more quickly and 
strongly if people are free to express their ideas, market their labor, 
and pursue a better life.
    For all these reasons, the health of democracy is clearly vital to 
America's interests. And my central message today is that promoting 
democracy is not just right; it is also necessary, smart, and cost-
effective. After all, foreign assistance is only about 1 percent of the 
total U.S. budget; and democracy assistance represents just 4 percent 
of our foreign aid.
    The question is how to go about promoting democracy. Because in any 
society, building democracy is never easy and never fully accomplished; 
it is something to be worked toward, step by step, country by country, 
day by day.
    This is precisely the philosophy that has guided the National 
Endowment for Democracy and its four core institutes--NDI, the 
International Republican Institute, the Center for International 
Private Enterprise, and the Solidarity Center.
    As you know, NED and the party institutes grew out of President 
Reagan's speech to the British Parliament, in which he stated that 
``Our military strength is a prerequisite to peace, but let it be clear 
we maintain this strength in the hope it will never be used, for the 
ultimate determinant in the struggle that's now going on in the world 
will not be bombs and rockets, but a test of wills and ideas, a trial 
of spiritual resolve, the values we hold, the beliefs we cherish, the 
ideals to which we are dedicated.''
    Those words remain true today.
    I am proud to have served as NDI's founding Vice Chair, and after 
stepping away from NDI for 8 years during the Clinton administration, I 
became Chairman of the Board of the Institute in 2001--a position I 
have held ever since.
    My experience gives me a unique perspective on how NDI and the 
other core institutes of the NED have worked to help advance U.S. 
strategic interests around the world, along with the important efforts 
of USAID, the State Department's Bureau for Democracy, Human Rights and 
Labor, and the Middle East Partnership Initiative of the Near East 
Affairs Bureau. I have seen the work of these organizations up close. 
They have developed relationships at the highest levels of government, 
across party lines and at the grass roots.
    Having worked on these issues in an out of government, I can say 
that the pluralistic approach the United States has taken to democracy 
assistance has served it well. Funding by the NED has allowed the 
Endowment and its four core institutes to plan strategically, yet 
respond quickly and flexibly to emerging opportunities and sudden 
problems in rapidly shifting political environments. In addition, the 
NED has been able to operate effectively in closed societies where 
direct government engagement on democracy issues is more difficult.
    The truth is that while the U.S. Government--including the White 
House, State Department, Congress, and overseas embassies--must set the 
tone and provide needed resources for democracy assistance, much of the 
day-to-day democratic development can and should be carried out, with 
proper oversight, by nongovernmental organizations, which operate in 
the realm of people-to-people relations.
    Although conducted at a distance from the U.S. Government, these 
programs serve important U.S. strategic interests.
    We see this in Iraq, where NDI has been on the ground for more than 
a dozen years. In recent months, NDI public opinion research has been 
identifying what kind of governing structures local residents want in 
post-liberation Mosul and elsewhere in the country.
    This research is critical because experience has shown that 
military operations to root out terrorism will succeed over the long 
term only if they are followed by sustainable improvements in 
governance with institutions that enjoy the confidence of the public. 
The work that NDI is doing to understand the preferences and attitudes 
of Sunni, Shia, and minority populations, combined with our work in the 
field to empower local partners, can help enable those improvements in 
governance to take root.
    The same is true across the border in Syria, where more than thirty 
NDI governance advisers are working each day helping to advise local 
citizen groups and administrative councils in dozens of communities 
across northern Syria. Thousands of consultations and training sessions 
have been conducted, reaching more than 500 council members and 7,000 
civic activists. The growing relationships between citizens and these 
councils are, under challenging circumstances, improving living 
conditions and creating a culture of democratic governance.
    These civic groups and councils are also directly challenging 
extremist groups. As one regional observer put it, ``you may think 
Syrians are condemned to an unpleasant choice between Bashar Al-Asad 
and the jihadists, but the real choice being fought out by the Syrians 
is between violent authoritarianism on the one hand and grassroots 
democracy on the other.''
    In the Middle East and elsewhere, the mission of U.S. democracy 
assistance is not to impose democracy. That is an oxymoron. Democracy 
is not a product or a service. It cannot be exported or imported. It 
must grow from within.
    Still, there is no truth to the argument that democracy is not 
suited to certain regions. Democratic elements are present in every 
major culture. Similarly, no nation is unready for democracy, because 
no country is ready for dictatorship.
    Yet if democracy is going to take root, we have learned that it 
must be accompanied by policies that will improve the living standards 
for the many, not just the privileged few. In short, the institutions 
of democracy must deliver. People want to vote and eat.
    To that end, deepening democracy so that it can deliver tangible 
improvements to people's lives must become even more of a focus for 
U.S. democracy assistance.
    The stakes for democracy's success are high in Ukraine, where NDI 
and its European partners have brought together all eight party 
factions in the parliament to agree on procedures that will make it 
easier to build consensus around economic and political reforms. The 
dialogue has taken place in Belgium, France, and Ukraine, and the 
feedback we have received has been positive. NDI is also supporting 
local civil society groups and larger national organizations who are 
pushing for economic and political change, and advocating for more 
women in elected office.
    These efforts are producing results, as citizens without prior 
experience in activism are participating in decisionmaking in large 
numbers. Through NDI programs alone, more than 45,000 citizens have 
engaged directly in the national reform process, including a 
decentralization process that will ultimately give Ukrainians more 
opportunities to influence decisions that affect their lives. These are 
the kinds of bottom-up changes that, given time and continued support, 
can put down deep democratic roots.
    There is nothing automatic or easy about democratic change. But 
American freedom, prosperity and peace depend, in large measure, on 
whether democratic institutions succeed around the world. That depends, 
in turn, on America's willingness to continue working with our partners 
to promote democracy. And that depends on whether the administration 
and Congress provide the resources required for our most effective 
democracy-builders to do their jobs.
    Thanks to the tremendous efforts of this subcommittee, the omnibus 
appropriations act enacted by Congress last week provides full funding 
for democracy assistance and will enable NDI, the other NED-affiliated 
institutes and other groups to carry on vital work for the remainder of 
the fiscal year.
    Republicans and Democrats alike have expressed strong support for 
elevating democracy and human rights in our foreign policy, including 
in a bipartisan letter sent to President Trump last week.
    As welcome as these steps may be, there is much to be concerned 
about regarding the future of U.S. democracy assistance.
    The so-called ``skinny'' budget proposal includes steep and 
arbitrary cuts to the State Department and international affairs budget 
which would inflict irreparable harm on democracy assistance, as well 
as other vital diplomatic and development programs.
    At the same time, the cement appears to be hardening on a new 
global split between democratic and undemocratic forces. On one side is 
our Community of Democracies, on the other is a Community of Dictators. 
More than 25 years after the Cold War, we do not want Vladimir Putin--
rather than the likes of Havel, Walesa, or Mandela--to point the way to 
the future.
    We must not provide these undemocratic forces encouragement, and 
that means the United States must not make the mistake of casting aside 
issues of democracy and human rights when it conducts its foreign 
policy.
    I am nearly 80 years old, without stars in my eyes. I understand 
that no system of government, not even democracy, guarantees prosperity 
or peace. Our leaders must weigh a variety of factors when deciding 
which foreign governments to support. It is sometimes necessary to make 
alliances of convenience with countries that do not share our values.
    Even when we make such arrangements, we should never lose sight of 
our long-term interests in promoting and sustaining democratic 
governance, which is ultimately the best guarantor of peace, prosperity 
and stability. This means democracy and human rights must always be a 
pillar of our national security strategy and a part of our bilateral 
agenda, even with those countries where they are in short supply. And 
that agenda includes the types of programs we are discussing today.
    Moving forward, we must remember that the alternative to support 
for democracy is complicity in the rule of governments that lack the 
blessing of their own people. That policy would betray those who are 
most sympathetic to our values and reveal a preference for the sterile 
order of repression over the rich and self-correcting sustainability of 
a free society. Such a preference might be expected of leaders from 
Moscow or Beijing, but not America or the community of democratic 
nations.
    The truth is that our values and our interests are not in conflict 
with each other. Our principles and our interests coincide, and if we 
do not act accordingly, we will serve neither effectively. If America 
is lukewarm or transparently hypocritical in its support for democracy, 
we will do more damage to our long-term interests than any short-term 
gains secured by a cynical approach. The more democracy is challenged, 
the more its champions must insist on its validity as the best system 
of governments humans have devised.
    Mr. Chairman, members of the subcommittee: your leadership is 
essential if America is to continue to lead the roster of democracy's 
champions. And much depends upon whether we do. Because the defining 
struggle of the 21st century is not, as many predicted, a clash of 
religious civilizations; it is instead a competition between democratic 
and autocratic systems of government.
    Our adversaries are determined to exploit democracy's openness, as 
we have seen with Russia's attempts to interfere in democratic 
elections around the world. But those who wish to tear democracy down 
can succeed only if democracy's guardians are too complacent, too 
divided, too timid, or too stuck in the past to stop them.
    The mission for small ``d'' democrats like us therefore begins with 
continuing our support for countries such as Ukraine, Burma, and 
Tunisia that are in the midst of a democratic transition and in need of 
outside support; but it cannot stop there.
    Ultimately, our ability to promote democracy successfully depends 
on the credibility and appeal of our example. It is hard to persuade 
others to follow our lead when all they see is gridlock and 
partisanship. But in a free country, the solution to setbacks can be 
found--not by bowing to the false gods of nationalism and tyranny--but 
by building better, more flexible and responsive institutions.
    To lead successfully, we must adjust to the ubiquity of social 
media, the changing nature of the workplace, and the desire that people 
everywhere have for sources of constancy in their lives.
    We must place a priority on ways to stimulate economic growth while 
simultaneously narrowing the gaps between rich and poor, urban and 
rural, women and men, skilled and unskilled.
    We must work across borders to respond to transnational challenges, 
including terrorism, climate change, sectarian violence, and too many 
people chasing too few jobs.
    Above all, we must recognize that democracy's unique virtue is its 
ability--through reason and the kind of open debate that is the 
hallmark of the U.S. Congress--to find remedies for its own 
shortcomings.
    That job is within our power to do, and we had better get on with 
it before it is too late.
    Mr. Chairman, members of the subcommittee: make no mistake, 
building democracy at home and supporting democratic institutions 
abroad is the continuation of heroic work. Without this commitment, 
American foreign policy would lose its moral compass, its most 
compelling claim to global respect, and ultimately, the support and 
understanding of the American people. Shedding our support for 
democracy would put in jeopardy our long-term economic, political, and 
security interests.
    Freedom is perhaps the clearest expression of national purpose ever 
adopted, and it is America's purpose. Like other profound human 
aspirations, it can never fully be achieved. It is not a possession; it 
is a pursuit. And it is the star by which American foreign policy must 
continue to navigate in the years to come.
    I want once again to thank each of you for the efforts you make 
every day on behalf of our Nation and the principles we have cherished 
for more than two centuries.
    I appreciate deeply the opportunity to testify before you, and I 
look forward to your questions.

    Senator Graham. Thank you all for taking time out of your 
schedules to come. Senator Leahy, would you like to say 
anything?

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Mr. Chairman, I want to apologize for being 
late. I was at another meeting about foreign operations. 
Everyone of these witnesses is a friend of mine. Secretary 
Albright, Mr. Hadley and Congressman Vin Weber, and Congressman 
Jim Kolbe who held the position you presently hold, Mr. 
Chairman, in the House. Thank you all for being here.
    I don't want to sound partisan but I worry when our 
President calls Vladimir Putin a strong leader or calls Egypt's 
President el-Sisi a fantastic guy or congratulating Turkey's 
President Erdogan on his recent consolidation of power and 
inviting Philippine President Duterte to the White House, a man 
who has condoned and even claimed that he himself has committed 
murders in his country. We see members of religious groups, 
reporters, activists being locked up.
    We have to understand that many times in these societies, 
they look to us to help them speak out. What happens if we cut 
these programs as some have proposed? What does it mean for 
civil society organizations in Russia, Egypt, Venezuela, 
Cambodia, and so many other countries? But also, what does it 
say about the United States?
    We have so much to be proud of in this country and we have 
done so much, Republicans and Democrats working to support the 
best about this country. We're not going to create exact models 
of the United States around the world. No, but we can bring our 
principles of democracy and freedom, speech, religion, 
assembly, and encourage others. I think, as the most powerful, 
wealthiest nation on earth, we have a moral responsibility to 
do that. Let the people in those countries decide, but we can 
help them do it.
    Mr. Chairman, you and I have worked together for years on 
these programs and I'm sure we'll continue to. But, I also want 
to thank these four. You couldn't have four better voices 
testifying here today.
    Senator Graham. Thank you, Senator Leahy.
    Mr. Hadley.
STATEMENT OF HON. STEPHEN HADLEY, CHAIRMAN OF THE 
            BOARD, THE UNITED STATES INSTITUTE OF PEACE
    Mr. Hadley. Chairman Graham, Ranking Member Leahy, and 
distinguished members of the subcommittee, I'd like to say a 
word about the role of democratic values in America's foreign 
policy and what is required for democracy assistance to succeed 
in today's world.
    America has always been about its principles. Its history 
has been the record of its struggle to realize these principles 
at home and to advance them abroad. Freedom, democracy, human 
rights, and the rule of law are the very DNA of this Nation. 
Most every nation on earth was formed on the basis of a common 
language, an accepted culture, or a shared ethnic identity. 
America was not. It was formed on the basis of a set of 
principles that were enshrined in the founding documents, 
embraced by our citizens, and have attracted immigrants from 
all over the world. And because the founders of this Nation 
believed that life, liberty, and the pursuit of happiness were 
endowed by their Creator to all men and women, these principles 
applies not just to Americans but to men and women around the 
world.
    Political democracy and free markets were the core of the 
rules-based international order that America and Europe created 
in the aftermath of World War II. And every war that America 
has fought since that time has been fought in the name of 
advancing the cause of freedom, democracy, human rights, and 
the rule of law.
    America has never accepted the idea that it had to choose 
between its democratic principles and its interests. This is a 
false choice. Advancing freedom and democracy in the world also 
advances American interests. For a world that reflects these 
principles, is more likely to be a world in which America and 
Americans can thrive and prosper. And it is also more likely to 
be a world of peace and security. Nations operating on 
democratic principles are better able to manage internal 
conflict so that it does not become violent and tear apart 
families and communities, undercut economic progress and 
development, and spark regional and even international 
violence.
    This is why programs to advance social justice, security, 
and rule of law in fragile states, to foster inclusive 
societies, and to promote free and fair elections unaffected by 
electoral violence are so critical. The organizations 
represented by the witnesses before you today all engage in 
this important work. It is critical to developing and 
sustaining durable and peaceful democracies; and, it is 
critical to avoid the violent conflicts that too often have 
required U.S. military intervention, with all its attendant 
costs in lives and treasure.
    Let me give you just three quick examples from the work of 
the U.S. Institute of Peace, whose board of directors I chair.
    In Iraq, USIP has brokered peace accords among tribal 
leaders to sustain the precious gains of our military, 
intelligence officers, and diplomats. Ten years ago, U.S. Army 
Colonel Michael M. Kershaw asked USIP to preempt cycles of 
tribal revenge killings in the Mahmoudiya region, known as the 
Triangle of Death in Iraq. USIP orchestrated a reconciliation 
process that helped heal the sectarian wounds of conflict and 
facilitated a peace agreement that has lasted 10 years.
    USIP successfully repeated this process last year in 
Tikrit, where over 380,000 Iraqis have now been able to return 
to their homes; in Kirkuk, where 50 tribal and religious 
leaders recently signed a preliminary peace agreement; and, 
most recently, in Mosul, where USIP has begun similar work in 
neighboring communities. I could say a word about what we're 
doing in Tunisia, also in Nigeria.
    This is what USIP is engaged in every day and I want to 
thank the support of this subcommittee, in 2017, the fiscal 
year, where USIP will be able to increase its work in Tunisia, 
Iraq, and Nigeria. Your support will be even more essential in 
2018. The OMB's skinny budget has slated USIP for elimination, 
something I can't understand given the contribution it makes to 
reducing conflict, saving U.S. lives and U.S. taxpayers' money. 
So, the support of this subcommittee will be essential to 
ensure that USIP and the other organizations represented before 
you today can continue their critical work in support of 
America's national security and its men and women in uniform.
    Traditionally America has sought to advance its democratic 
principles through these kinds of programs and through 
partnerships with non-governmental organizations. As you know, 
a number of these programs are now under attack. Democracy 
seems to be on the defensive in the world today and freedom on 
the decline. Part of it is because democracies have failed to 
deliver as Madeleine mentioned but also it is because the 
authoritarian states are now mounting a concerted campaign to 
undermine democratic principles not only in their states at 
home but also abroad. There are other factors, which we can 
talk about.
    Question, what is to be done? We should actively support 
those international organizations like Community of Democracies 
and the Open Government Partnership that promote democratic 
norms and principles. Same for organizations like the 
Organization of American States and the African Union.
    We have to recognize that while advancing democratic values 
abroad, it is very much in America's interest, it is not 
America's only interest. We have others. We need to have an 
interagency structure for make tradeoffs.
    We should integrate democracy programming in a broader 
process for addressing and balancing the full range of our 
interests.
    We should certainly reform and make more effective the 
organizations and programs that promote democratic principles. 
But deep, arbitrary, and across-the-board cuts in their budgets 
risks throwing the baby out with the bath water.
    We need to support local civil society; we need to empower 
individual citizens and citizen groups with new communication 
and social media technologies.
    Finally, we need to promote democratic principles 
effectively abroad and we can only do that if we can show the 
world that the principles of freedom, democracy, human rights 
and rule of law are working effectively here at home.
    A positive American example may not cause entrenched 
authoritarian leaders to see the light but it will inspire 
their people and will give them hope. We need to show them that 
the American political and economic system works; we need to 
overcome our political gridlock; we need to show that our 
economic system can provide inclusive economic growth that is 
on a sustainable basis that benefits all Americans. If we fix 
the American system at home, it will help fix our brand abroad 
and counter the narrative of authoritarian states that 
democracy is dead and buried.
    Thank you very much for your time and attention.
    [The statement follows:]
              Prepared Statement of Hon. Stephen J. Hadley
    Chairman Graham, Ranking Member Leahy, and distinguished members of 
the subcommittee. It is an honor and a privilege to have the 
opportunity to appear before you today--and especially to do so with my 
friends and colleagues Madeleine Albright, Jim Kolbe, and Vin Weber.
    With the permission of the subcommittee, I would like to offer a 
few thoughts about the critical role of democratic values in America's 
foreign policy and what is required for democracy assistance to succeed 
in the world of today.
    America has always been about its principles. Its history has been 
the record of its struggle to realize these principles at home and to 
advance them abroad.
    Freedom, democracy, human rights, and the rule of law are the very 
DNA of this Nation. Most every nation on earth was formed on the basis 
of a common language, an accepted culture, or a shared ethnic identity.
    America was not. It was formed on the basis of a set of principles 
that were enshrined in its founding documents, embraced by its 
citizens, and that have attracted immigrants from all over the world. 
And because the founders of this Nation believed that ``life, liberty, 
and the pursuit of happiness'' were endowed by their Creator to ``all 
men [and women]'', these principles applied not just to Americans but 
to men and women around the world.
    Political democracy and free markets were at the core of the rules-
based international order that America and Europe created in the 
aftermath of World War II. And every war that America has fought since 
that time has been fought in the name of advancing the cause of 
freedom, democracy, human rights, and the rule of law.
    America has never accepted the idea that it had to choose between 
its democratic principles and its interests. This is a false choice. 
Advancing freedom and democracy in the world also advances American 
interests. For a world that reflects these principles, is more likely 
to be a world in which America--and Americans--can thrive and prosper.
    It is also more likely to be a world of peace and security. Nations 
operating on democratic principles are better able to manage internal 
conflict so that it does not become violent and tear apart families and 
communities, undercut economic progress and development, and spark 
regional and even international violence.
    This is why programs to advance justice, security, and rule of law 
in fragile states, to foster inclusive societies, and to promote free 
and fair elections unaffected by electoral violence are so critical.
    The organizations represented by the witnesses before you today all 
engage in this important work. It is critical to developing and 
sustaining durable and peaceful democracies. And it is critical to 
avoiding the violent conflicts that too often have required U.S. 
military intervention, with all its attendant costs in lives and 
treasure.
    Let me give you just three quick examples from the work of the U.S. 
Institute of Peace, whose board of directors I chair.

  --In Iraq, USIP has brokered peace accords among tribal leaders to 
        sustain the precious gains of our military, intelligence 
        officers, and diplomats.
    --Ten years ago, U.S. Army Colonel Michael M. Kershaw asked USIP to 
            preempt cycles of tribal revenge killings in the Mahmoudiya 
            region, known as the Triangle of Death. USIP orchestrated a 
            reconciliation process that helped heal the sectarian 
            wounds of conflict and facilitated a peace agreement that 
            has lasted 10 years.
    --USIP successfully repeated this process last year in Tikrit, 
            where over 380,000 Iraqis have now been able to return to 
            their homes; in Kirkuk, where 50 tribal and religious 
            leaders recently signed a preliminary peace agreement; and, 
            most recently, in Mosul, where USIP has begun similar work 
            in neighboring communities.
  --In Tunisia, USIP conducts mediated dialogues to broker agreements 
        among secular and Salafist student unions on university 
        campuses, which are otherwise recruiting grounds for future 
        extremists.
  --In Nigeria, USIP is working with local citizens and the governors 
        of the northern provinces to identify key reforms essential for 
        restoring stability and peace to areas torn apart by Boko 
        Haram, sectarian and tribal conflict, chronic poverty, and now 
        acute famine.

    Thanks to the active support of this subcommittee, in 2017 USIP 
will be able to increase its work in Tunisia, Iraq, and Nigeria. Your 
support will be even more essential in 2018, to ensure that USIP and 
the other organizations represented before you today can continue their 
critical work in support of America's national security and its men and 
women in uniform.
    Traditionally America has sought to advance its democratic 
principles through these kinds of programs and through partnerships 
with non-governmental organizations. Some of these programs and 
partnerships have now come under popular suspicion and governmental 
pressure even from some of America's traditional friends and allies. 
Democracy seems to be on the defensive, and freedom on the decline.
    Certainly part of the problem is that democratic governments, have 
in too many cases, failed to deliver. Plagued by corruption, cronyism, 
and lack of competence, they have not provided the level of services, 
prosperity, or security expected by their citizens.
    But we must recognize that a major factor has also been the 
emergence over the last decade of an active campaign by authoritarian 
governments to discredit democratic principles both in their own 
societies and abroad. They offer alternative models of governance based 
on nationalism, authoritarianism, and state capitalism as better able 
to provide stability, security, and well being for their people.
    There are other factors as well that have contributed to the 
current disillusionment with democracy. The failure of the Arab 
awakening in the Middle East and the descent of too many of those 
states into chaos, carnage, and civil war has played a role. Many 
citizens of Europe and the United States suffer from a crisis of 
confidence, uncertain whether democratic principles still work for 
them.
    America's response to these developments has been inadequate. We 
are currently losing the global struggle between democratic values and 
authoritarianism.
    What is to be done?
    We should actively support those international organizations like 
the Community of Democracies and the Open Government Partnership that 
promote democratic norms and principles.
    We should actively support those regional organizations like the 
Organization of American States and the African Union whose missions 
include promoting democratic institutions and principles among their 
members.
    We should recognize that while advancing democratic values abroad 
is very much in America's interest, it is not America's only interest. 
Fighting terrorism, countering proliferation, resisting aggression, 
protecting the homeland, and promoting economic growth and stability 
are also priorities. In specific situations, trade-offs will have to be 
made.
    So we should integrate democracy programming into a broader process 
for addressing and balancing the full range of U.S. interests in a 
specific country or region. Where a lack of democracy represents a 
threat to fundamental American interests, democracy programming should 
have increased priority.
    We should certainly reform and make more effective those 
organizations and programs that promote democratic principles. But 
deep, arbitrary, and across-the-board cuts in their budgets risks 
throwing the baby out with the bath water.
    We should support the growth of local civil society as the bottom-
up foundation for democratic societies. But we must not discredit these 
organizations in the eyes of their fellow citizens or subject their 
members to harassment, imprisonment, or worse.
    We should empower individual citizens and citizen groups with new 
communication and social media technologies and applications to expose 
corruption and to hold their governments to account.
    We should ensure that U.S. programs and activities cannot be 
criticized as partisan or favoring one political faction over another. 
They must be inclusive and available to all who support democratic 
principles and foreswear extremist violence.
    Promoting democratic principles is especially challenging when 
America's traditional friends and allies are the ones cracking down on 
U.S. programs and partnerships seeking to advance these principles.
    Selective public exhortation to adopt more democratic practices 
certainly has a role. But such public exhortation should also be 
coupled with public reassurance of American support and concrete steps 
to help address the legitimate security concerns of these countries. 
This may make more effective U.S. private encouragement to open up 
their political systems.
    Congress has an important role to play here. As a former NSC 
colleague recently suggested to me, for a U.S. ally facing a terrorist 
threat, conditioning security assistance on meeting difficult to 
achieve human rights benchmarks can be counterproductive. For the 
United States risks finding itself either having to cut off aid to the 
government, thereby running the risk of terrorist violence 
destabilizing the country, or of having to certify that the government 
is making more democratic progress than is actually the case.
    An alternative approach could be for Congress to incentivize 
positive behavior by identifying the steps it would like to see and 
then periodically holding public hearings to assess progress. This may 
better achieve the democratic progress on which peace and stability 
ultimately depend.
    Finally, to promote democratic principles effectively abroad, we 
must show the world that the principles of freedom, democracy, human 
rights, and rule of law are working effectively here at home.
    Much of the world associates democratic principles with America's 
political and economic success. If America is performing well for its 
people, those principles are vindicated. If America is not performing 
well for its people, those principles are called into question.
    A positive American example may not cause entrenched authoritarian 
leaders to see the light, but it will inspire their people and give 
them hope.
    What can we do?
    We can fix the American political and economic systems here at 
home. We can overcome partisan gridlock. We can show that our political 
system can reach bipartisan consensus and solve the problems facing the 
country--whether it is the tax system, the healthcare system, our 
deteriorating social and physical infrastructure, or exploding 
entitlement programs. We can show that our economic system can produce 
inclusive economic growth on a sustainable basis that benefits all 
Americans.
    Fixing the America system at home will help restore the American 
brand abroad and counter the narrative of the authoritarian states that 
democracy is dead and buried.
    Thank you for your time and attention.

    The views expressed in this testimony are those of the witness and 
not the U.S. Institute of Peace.

STATEMENT OF HON. VIN WEBER, CO-VICE CHAIRMAN OF THE 
            BOARD, THE NATIONAL ENDOWMENT FOR DEMOCRACY
    Mr. Weber. Thank you, Chairman Graham and Senator Leahy and 
I'd like to say a special greeting to an old colleague from the 
House, Senator Durbin. It's nice to have a Midwesterner up on 
the dais. It's a great pleasure to be able to be here today. 
I've been on the board of the National Endowment for Democracy 
for 16 of the last 17 years, including 8 years as chairman. Our 
chairman, Judy Shelton, is not able to be with us today so I'm 
substituting for her.
    On the 20th anniversary of the NED board, I had the honor 
of introducing President Bush and I sent word to the White 
House that a good Republican was going to be introducing the 
President and I was at his disposal. I'd say anything he wanted 
me to say and the word came back, ``The President says keep it 
short.'' So, I will follow that advice today as well, Mr. 
Chairman, as my colleagues have already said a good deal of 
what I would have to say.
    We are proud that the subcommittee has recognized that NED 
is uniquely positioned in their words to lead a strategic 
response to the grave threats facing democracy in today's 
world. With funds provided by the subcommittee for this 
purpose, NED has begun to implement the response to these 
threats, among them the subversion of the information space by 
Russia and other autocracies, the repression of civil society, 
the rise of violent extremist movements, the growing influence 
of kleptocratic regimes, and the failure, sadly, of democratic 
transitions in the Middle East and other regions.
    In its enumeration of NED's unparalleled institutional 
assets, the subcommittee has rightly noted NED's decades of 
experience in tackling the toughest political challenges, its 
core institutes, and its global grants program and activist 
networks. I want to emphasize this asset of the NED. Secretary 
Albright talked about the work we do through the four core 
institutes but it's worth re-emphasizing again. It's the vision 
that this subcommittee has supported and the vision of 
President Reagan's original speech, we work through core 
institutes affiliated with the Republican party, the Democratic 
party, the AFL/CIO and the U.S. Chamber of Commerce--business, 
labor, Republicans and Democrats. I think that's especially 
worth noting today as we go through a period in the political 
life of our country where everybody seems to be talking about 
disunity and partisan polarization, that on these issues of 
support for democracy and human rights around the world, they 
should serve as a great source of unity for our country.
    The American people should know that this subcommittee, 
this Congress are standing together regardless of partisanship 
behind the fundamental values that have made us so great as a 
country.
    While NED is of course subject to congressional oversight, 
its mission is not to advance a particular U.S. policy or an 
agenda made in Washington. It is to help build the institutions 
of a free society that will make it possible for people ``to 
choose their own way, develop their own culture, reconcile 
their own differences through peaceful means,'' as President 
Reagan said in his famed speech which has already been 
referenced, to the British Parliament.
    Since NED was founded more than three decades ago, aiding 
democracy has become we believe a bedrock principle of 
America's approach to the world supported by administrations of 
both political parties and consistently by the Congress and 
members of Congress of both political parties because it 
advances America's most important interests and also affirms 
our highest ideals.
    There are some who believe that we have to choose between 
defending our resources and affirming our values. As Steve said 
a minute ago, they pose a false and dangerous dichotomy; our 
interests and our values are mutually reinforcing, as is 
maintaining both our military strength and our moral vision.
    Mr. Chairman, I have a number of testimonials from people 
that we'll submit for the record. It's worth noting that in 
almost all cases these are people that are not only fighting a 
political fight but in many cases putting their lives on the 
line.
    If we cease supporting such brave people, our country will 
lose contact with its roots and values, and the result will be 
devastating for our national interests and our moral identity. 
So, with your help, let us carry on with this worthy and 
essential work.
    [The statement follows:]
                  Prepared Statement of Hon. Vin Weber
    I want to begin by thanking you, Senator Graham, and Ranking Member 
Leahy for holding this important hearing today. Speaking on behalf of 
the National Endowment for Democracy and its new board chair, Judy 
Shelton, I also want to thank the subcommittee for its unwavering 
support of NED and its mission. We're proud that the subcommittee has 
recognized that NED is ``uniquely positioned to lead a strategic 
response'' to the grave threats facing democracy in today's world. With 
funds provided by the subcommittee for this purpose, NED has begun to 
implement the response to these threats, among them the subversion of 
the information space by Russia and other autocracies, the repression 
of civil society, the rise of violent extremist movements, the growing 
influence of kleptocratic regimes, and the failure of democratic 
transitions in the Middle East and other regions.
    In its enumeration of NED's unparalleled institutional assets, the 
subcommittee has rightly noted NED's decades of experience in tackling 
the toughest political challenges, its core institutes, and its global 
grants program and activist networks.
    I want to call attention to an additional asset that accounts for 
NED's success, and that is its nongovernmental character. NED's 
independence has enabled it to respond quickly and effectively to 
rapidly changing problems. It also makes it possible for NED to connect 
directly to the brave people who are at the cutting edge of the 
democracy struggles in the world.
    While NED is of course subject to congressional oversight, its 
mission is not to advance a particular U.S. policy or an agenda made in 
Washington. It is to help build the institutions of a free society that 
will make it possible for people ``to choose their own way, to develop 
their own culture, to reconcile their own differences through peaceful 
means.''
    Those words, Mr. Chairman, were spoken by President Ronald Reagan's 
in his famed address to the British Parliament that launched the 
National Endowment for Democracy. June 8 will mark the 35th anniversary 
of that seminal speech, when President Reagan declared that ``We must 
be staunch in our conviction that freedom is not the sole prerogative 
of a lucky few, but the inalienable and universal right of all human 
beings.'' NED embodies that core American belief.
    Since NED was founded more than three decades ago, aiding democracy 
has become a bedrock foundational principle of America's approach to 
the world. Such work enjoys that standing because it advances America's 
most important interests and also affirms our highest ideals.
    There are some people who believe that we have to choose between 
defending our interests and affirming our values. They pose a false and 
dangerous dichotomy, since our interests and values are mutually 
reinforcing, as is maintaining both our military strength and our moral 
vision.
    President Reagan spoke to this issue in the Westminster Address 
with great eloquence and force. ``Our military strength,'' he said, 
``is a prerequisite to peace, but let it be clear we maintain this 
strength in the hope it will never be used. For the ultimate 
determinant in the struggle now going on for the world will not be 
bombs and rockets, but a test of wills and ideas, a trial of spiritual 
resolve: the values we hold, the beliefs we cherish, the ideals to 
which we are dedicated.''
    These words continue to resonate today, especially among the people 
on the front lines of the struggle for democracy who benefit from NED's 
support.

    Here's what a few of them have said in messages prompted by this 
hearing:

  --The leader of the Al-Tahreer Association for Development, a key 
        Iraqi NGO working to rebuild trust and governance in Mosul 
        after the horrors of ISIS, wrote that they could not have 
        carried out their successful projects without NED's ``financial 
        and emotional support.''
  --Leila Yunus, the human rights defender in Azerbaijan and a 
        recipient of the European Parliament's Sakharov Prize, has 
        urged Congress to ``not only sustain but expand the work of 
        NED'' as repression has increased and other foreign donors have 
        pulled out.
  --The Rev. Benjamin Yoon in South Korea has written that ``Without 
        the material and institutional support of NED, the North Korea 
        human rights movement as we know it today,'' of which he is 
        considered to be the founder, ``would not have existed.'' He 
        emphasizes that such support remains essential to ``bringing 
        justice to the North Korean victims.''
  --Khalil Parsa, the Afghan anti-corruption activist who survived an 
        assassination attempt last October and who will receive NED's 
        Democracy Award on June 7, has written that NED's assistance 
        ``is a lifeline for civil society groups that raise awareness 
        on good governance and on a daily basis fight the rampant 
        corruption that is a lethal threat to Afghanistan's security 
        and political stability.''
  --And the Dalai Lama has written that NED's ``work on the promotion 
        of freedom is vitally important given the current volatile 
        situation in many parts of the world and the threat these pose 
        to peace and freedom.''

    Mr. Chairman, if we cease supporting such brave people, our country 
will lose contact with its roots and values, and the result will be 
devastating for our national interests and moral identity. So with your 
help, let us carry on with this worthy and absolutely essential work.

STATEMENT OF HON. JAMES KOLBE, VICE CHAIRMAN OF THE 
            BOARD, THE INTERNATIONAL REPUBLICAN 
            INSTITUTE
    Mr. Kolbe. Thank you, Mr. Chairman. After listening to my 
colleagues on this panel, I'm inclined to note that it's not 
that everything that needs to be said hasn't been said. It's 
just not that everybody has said it yet. So, I'll plunge in and 
say a little bit more perhaps of the same sort of thing.
    Chairman Graham, Ranking Member Leahy, and Members of this 
subcommittee, thank you for holding this timely and important 
hearing today, and for this opportunity to testify. Mr. 
Chairman, your leadership and the work of this subcommittee has 
been crucial in advancing America's foreign policy priorities, 
particularly in keeping deeply ingrained values of democracy 
and freedom on the forefront of our foreign policy agenda.
    I'm privileged to appear here today with this distinguished 
panel as Vice-Chairman of the Board of the International 
Republican Institute, a nonprofit, nonpartisan, democracy 
assistance organization that is active in more than 80 
countries around the world. Of course, Mr. Chairman, the 
organizations represented here at this table today, are not the 
only ones working around the globe to keep the flames of 
freedom and democracy alive and I would be remiss if I did not 
mention at least one on whose board I am privileged to serve, 
Freedom House. Now, in its 76th year, it has provided 
assistance to more than 3,000 human rights' defenders, 
religious minorities and civil society groups in more than 100 
countries, often at great peril to their own staffs.
    The challenges we face here today are diverse and often 
quite daunting. In the decade following the collapse of the 
Soviet Union, the spread of democracy seemed almost inevitable. 
We saw dramatic gains on the democracy front not only in the 
former Eastern bloc, but across the world and came to believe 
that somehow this was inevitable--the inevitable course of 
events for all countries. It didn't turn out that way, however. 
For the past decade, there has been a steady and disturbing 
increase in backsliding by transitioning countries, and a 
consolidation of power by authoritarian regimes worldwide, a 
condition well documented in Freedom House's annual Freedom in 
the World report.
    The fact is undemocratic and authoritarian regimes almost 
always undermine peace and stability over time. Self-
interested, aggressive or reckless policies often promote mass 
migration and tragic conditions for refugees. In fact, when you 
consider those trouble spots in the world today, the root of 
the problem almost always lies with, or is exacerbated by, 
authoritarian governments. Recent years have also brought 
increased pressures on U.S. resources and budgets. American 
taxpayers have every right to demand a return on the investment 
of their tax dollars.
    Mr. Chairman, as a former appropriator and chairman of this 
same subcommittee in the House of Representatives, I sympathize 
with the tough choices you face in this subcommittee--balancing 
competing interests, setting funding priorities, and at the 
same time assuring that taxpayer dollars are wisely spent.
    The development sector needs to be able to demonstrate the 
value of taxpayer investment in these programs. While disaster 
relief is a crucial aspect of our international aid, we must 
also invest in programs that enable other governments to solve 
and prevent on their own, crises like famine, natural 
disasters, or acts of aggression. A governance-focused 
strategy, which supports the development of citizen-centered 
government and core institutions of democracy, is the 
embodiment of the adage that ``if you give a man a fish, he 
will eat for a day; but if you teach a man to fish, he will 
never go hungry.''
    History shows us a clear link between democratic government 
and stability. Democracies are more adaptable to change, more 
stable, and tend to be more prosperous. As President Reagan 
recognized during the Cold War, our ability to support the 
spread of truly citizen-centered government is one of the most 
powerful tools we possess to achieve American interests.
    For more than 30 years, IRI has been helping to lay the 
foundations for democratic governance, creating the conditions 
for governments to become more citizen-centered and thus more 
stable. Although IRI's global reach is significant, of course 
we're not able to work in every country that is in need of 
assistance, but our successful programs in each continent 
provide powerful examples of best practices to their neighbors 
and the wider region. IRI's program in Tunisia is helping 
strengthen the transparency and communications capacity of the 
government to increase citizen input and improve government 
response to citizens' concerns. In Mongolia, IRI partnered with 
local governments to combat corruption and consolidate 
democratic gains. And in Central America, IRI's programs 
enhanced citizen security by bridging the gap between citizens 
and their local and national governments.
    Mr. Chairman, members of the subcommittee, when President 
Reagan articulated his vision of democracy assistance in the 
same speech to the British Parliament at Westminster cited by 
Secretary Albright some 35 years ago, he argued that 
``democracy is not a fragile flower; but still it needs 
cultivating.'' As events in recent years have shown, much 
ground can be lost without determined ``cultivating.'' The 
threat to democracy is on the rise, and support for those who 
are seeking to protect and nurture its growth is needed now 
more than ever.
    At IRI we see some avenues to strengthen and improve our 
approach to this mission. Let me just cite three of them. One, 
incorporating democracy and governance as a central component 
of our assistance packages and tying foreign aid to progress on 
this criteria would be a step in the right direction. The 
Millennium Challenge Corporation has demonstrated the 
effectiveness of this type of governance-centered approach.
    Second, our approaches to funding the implementation of 
democracy and governance programs can be more consistent. All 
too often, elections are seen as the driving force of democracy 
and governance. In reality, it's what happens between elections 
that matters most, when campaigns end and governing begins.
    Lastly, I want to comment on the instrument we use to 
implement democracy and governance programs. Acquisition 
mechanisms are appropriate for procuring goods or services. 
However, unlike projects aimed at building physical 
infrastructure or the distribution of goods, acquisition 
mechanisms are inherently unsuited for projects aimed at 
building human capital, teaching skills, building best 
practices. A more tailored approach is required, and I urge you 
to provide oversight into how democracy and governance programs 
are being procured to ensure that taxpayer dollars are being 
spent in the most efficient and results-oriented manner.
    Let me conclude by quoting Secretary Mattis, a quote that 
has been often repeated. When asked whether the international 
development budget is helpful to national defense, he said, 
``If you don't fund the State Department, then I need to buy 
more ammunition ultimately. So, I think it's a cost benefit 
ratio.'' Investing in democratic governance isn't about patting 
ourselves on the back or feeling good; it's a clear matter of 
delivering results that best serve U.S. interests and maximize 
the return on taxpayer investment. It is my hope that this 
marriage of principle and pragmatism will endure in our foreign 
policy, and will be reflected in our approach to international 
development. Thank you, Mr. Chairman.
    [The statement follows:]
                  Prepared Statement of Hon. Jim Kolbe
                              introduction
    Chairman Graham, Ranking Member Leahy, members of the subcommittee, 
thank you for holding this timely and important hearing today, and 
thank you for the opportunity to testify. Mr. Chairman, it is no 
exaggeration and certainly not a gratuitous compliment to note that 
your leadership and the work of this subcommittee has been crucial to 
advancing America's foreign policy priorities, particularly in keeping 
the deeply ingrained values of democracy and freedom on the forefront 
of our foreign policy agenda.
    I'm here today as a member of the board of the International 
Republican Institute (IRI), a nonprofit, nonpartisan, democracy 
assistance organization that is active in more than 80 countries around 
the world. Along with the other organizations represented here today, 
we trace our roots back to President Reagan and his unshakeable belief 
that, ``Liberty is not the sole prerogative of a lucky few, but the 
inalienable right of all mankind.''
    I've been asked to address some of the challenges and opportunities 
facing the field of democracy assistance. While we all acknowledge 
there are significant challenges to our ability to support democracy 
worldwide, we at IRI see opportunities to invest in a governance-
centered approach to international development that fosters greater 
stability worldwide and yields a greater return for the investment of 
American taxpayers.
                               challenges
    Let me begin by addressing the challenges, which are diverse and, 
in some cases, quite daunting. In the decade following the collapse of 
the Soviet Union, the spread of democracy seemed almost inevitable. We 
saw dramatic gains on the democracy front not only in the former 
Eastern bloc, but across the world and believed this was somehow the 
inevitable upward trend for all countries. It didn't turn out to be 
that way, however. For the past decade there has been a steady and 
disturbing increase in backsliding by transitioning countries, and a 
consolidation of power by authoritarian regimes worldwide.
    The reasons for this development are complex, but the recent trend 
towards U.S. disengagement and ``leading from behind'' has been at 
best, unhelpful. At worst, it has encouraged the boldness with which 
despots like Vladimir Putin have cracked down on dissent at home and 
pursued aggressive and destabilizing policies abroad.
    The fact is, undemocratic and authoritarian regimes almost always 
undermine peace and stability over time. Self-interested, aggressive or 
reckless policies often provoke mass migration and tragic conditions 
for refugees. This has a destabilizing effect on regions and threatens 
economic stability. We are currently seeing the consequences of such 
actions unfold in the Middle East, where the Assad regime--aided and 
abetted by the Kremlin--has precipitated a global refugee crisis on a 
scale not seen since World War II. We see different challenges in Asia 
as the world grapples with the totalitarian regime in North Korea. In 
fact, when you consider the most troubled spots around the world, the 
root of the problem almost always lies with, or is exacerbated by, 
authoritarian government.
    Recent years have also brought increased pressure on U.S. resources 
and budgets. American taxpayers have every right to demand a return on 
investment of their tax dollars--and it's entirely understandable that 
some would question why their hard-earned money should be spent solving 
problems in other countries.
                             opportunities
    Mr. Chairman, as a former appropriator and chairman of this same 
subcommittee in the House of Representatives, I sympathize with the 
tough choices you face on this subcommittee--balancing competing 
interests, setting funding priorities, and at the same time assuring 
that taxpayer dollars are wisely spent. We live in a dynamic world that 
presents an evolving array of threats, challenges, and opportunities. 
In the current funding environment, these pressures are particularly 
intense, and I commend the balance you have been able to achieve on 
this subcommittee.
    The development sector needs to be able to demonstrate the value of 
taxpayer investment in their programs. While disaster relief is a 
crucial aspect of our international aid, we must also invest in 
programs that enable other governments to solve and prevent crises like 
famine, natural disaster, or acts of aggression on their own. A 
governance-focused strategy, which supports the development of citizen-
centered government and the core institutions of democracy, is the 
embodiment of the adage that ``if you give a man a fish, he will eat 
for a day; but if you teach a man to fish, he will never go hungry.''
    The previous administration took the approach of integrating 
democracy and governance programs into all development programs. While 
I applaud the support of a governance-focused strategy, I think a 
different approach is needed. Democracy assistance and governance 
programs require a specialized skillset--and more importantly--
commitment to mission, that organizations like NED, IRI and NDI have. 
More than these organizations being in the business of advancing 
democracy and democratic institutions, it's the reason for existence.
    History shows us a clear link between democratic government and 
stability. Democracies are more adaptable to change, more stable, and 
tend to be more prosperous. They make better allies and are more 
dependable trading partners. Because they tolerate diversity of opinion 
and allow for dissent, they are, generally speaking, less likely to 
produce terrorists, proliferate weapons of mass destruction, or engage 
in armed aggression.
    As President Reagan recognized during the Cold War, our ability to 
support the spread of truly citizen-centered governments is one of the 
most powerful tools we possess to advance American interests. It wasn't 
just guns and butter that defeated communism--the inability of the 
communist dictatorships to understand and respond to the needs of their 
people made those systems fundamentally unstable.
    It is because these fundamental beliefs and core values are part 
and parcel of who I am and what I believe, that I respectfully submit 
to the Secretary of State that promotion of democracy and freedom must 
remain central components of our foreign policy. They must be an 
integral part of our objectives and of our foreign assistance programs.
      iri: a governance-centered approach to democracy assistance
    For more than 30 years, IRI has been helping to lay the foundations 
for democratic governance, creating the conditions for governments to 
become more citizen-centered and thus more stable; to become more 
reliable international partners in trade and diplomacy; and ultimately, 
to reduce the need for costly U.S. interventions.
    Although IRI's global reach is significant, we of course are not 
able to work in every country that is in need of assistance--but our 
successful programs in each continent provide powerful examples of best 
practices to their neighbors and the wider region.
    IRI's program in Tunisia is helping strengthen the transparency and 
communications capacity of the government to increase citizen input and 
improve government responsiveness to citizens' concerns. Today, Tunisia 
is proving that, although difficult, democracy may just be possible in 
a historically troubled region. In Mongolia, IRI partnered with local 
governments to combat corruption and consolidate democratic gains. 
Today, Mongolia (which became a democracy just 25 years ago) is being 
held up as an exemplar of how to avoid backsliding into undemocratic 
practices. And in Central America, IRI's programs enhancing citizen 
security by bridging the gap between citizens and their local and 
national governments is helping to build safer and more resilient 
communities, and helping to mitigate uncontrolled migration to North 
America.
                               conclusion
    Mr. Chairman, members of the subcommittee--when President Reagan 
articulated his vision of democracy assistance in a speech to 
Westminster Palace 35 years ago, he argued that ``democracy is not a 
fragile flower; still it needs cultivating.'' As events in recent years 
have shown, much ground can be lost without determined ``cultivating.'' 
The threat to democracy is on the rise around the world, and support 
for those who are seeking to protect and advance it is needed now more 
than ever. If the United States retreats from fighting for these 
objectives, the world will become even more unstable.

    At IRI we see some avenues to strengthen and improve our approach 
to this mission:

  --Incorporating democracy and governance as a central component of 
        our assistance packages and tying foreign aid to progress on 
        those criteria would be a step in the right direction. The 
        Millennium Challenge Corporation (MCC) has demonstrated the 
        effectiveness of this type of governance-centered approach in 
        maximizing the impact of international development investment. 
        MCC includes a ``hard hurdle'' of basic political and civil 
        rights into the front end when they evaluate potential compact 
        countries. Through the life of a development compact, democracy 
        and governance remain as a mandatory measurement for 
        continuation of the compact. This approach acknowledges and 
        builds into the process--in a formal and transparent way--the 
        importance of governance to the success and sustainability of 
        development aid.
  --Our approaches to funding the implementation of democracy and 
        governance programs can be more consistent. All-too-often, 
        elections are seen as the driving force of democracy and 
        governance work--but in reality, it's what happens between 
        elections that matters most. That's when campaigns end and the 
        hard work of governing begins.
  --Lastly, I want to comment on the instrument we choose to implement 
        democracy and governance programs. There are instances when an 
        acquisition mechanism is appropriate for these programs--for 
        example, procuring goods or services for government-to-
        government support. However, unlike projects aimed at building 
        physical infrastructure or the distribution of goods, 
        acquisition mechanisms are inherently unsuited for projects 
        aimed at building human capital--teaching skills and building 
        best practices. Human development and human systems are complex 
        and you need the flexibility and tailored approach of an 
        assistance mechanism to have a sustainable impact. I urge you 
        to provide oversight into how democracy and governance programs 
        are being procured to ensure that tax payer dollars are being 
        spent in the most efficient and results-oriented way.

    America's most effective foreign policy is one that taps into all 
our strengths. When General Mattis was asked whether the international 
development budget is helpful to national defense, he said ``If you 
don't fund the State Department fully, then I need to buy more 
ammunition ultimately. So I think it's a cost benefit ratio.'' 
Investing in democratic governance isn't about patting ourselves on the 
back or feeling good--it's a clear matter of delivering results that 
best serve U.S. interests and maximize the return on taxpayer 
investment. It is my hope that this marriage of principle and 
pragmatism will endure in our foreign policy going forward, and that 
this will be reflected in our approach to international development.

              INCREASING THREATS TO U.S. NATIONAL SECURITY

    Senator Graham. Thank you, all. We will do 5-minute rounds 
of questions and answers if that is okay with everybody. It 
seems to me that military budgets, foreign policy, and 
developmental-aid budgets should be based on the threats, not 
just made up numbers. Mr. Hadley, you were the National 
Security Advisor for President Bush 43. What is the threat 
matrix like right now for America? Is it growing or lessening?
    Mr. Hadley. Well, if you had a threat matrix or a geo-
political volatility index, I would say that it's pretty much 
as high as it's been in maybe my lifetime.
    Senator Graham. What about you, Secretary Albright? Do you 
agree with that?
    Ms. Albright. I do agree. I think that things are out of 
kilter in a lot of places and we are facing threats and I do 
think that they need to be met by all the tools in the toolbox, 
not just the military but also diplomacy.
    Senator Graham. Do our two Congressmen, former Congressmen, 
do you agree with that assessment?
    Mr. Weber. I certainly agree with that assessment very 
strongly. I think that the threats----
    Senator Graham. Yes, will do.
    Mr. Weber. Yes, will do. Yes, is what you get, sir.
    Senator Graham. Okay.
    Mr. Kolbe. Yes.

                     U.S. ASSISTANCE AND SOFT POWER

    Senator Graham. Okay, good. You are a quick learner down 
there. So, do you agree with me that in light of the threats of 
which I agree with, reducing the State Department budget by 29 
percent would do a lot of damage to soft power?
    Mr. Hadley. Yes.
    Ms. Albright. Yes.
    Senator Graham. Do you agree with me that soft power is 
essential in winning the war against radical Islam and many 
other threats we face?
    Ms. Albright. Yes.
    Mr. Kolbe. Absolutely.
    Mr. Hadley. Yes.
    Senator Graham. If we tried to cut the military budget by 
29 percent, people would go crazy. Do you agree with that?
    Mr. Hadley. They would and should.
    Senator Graham. My point is if you believe the military is 
essential to defending the home land, the question you have to 
answer: what about the other side of the equation? I believe 
that soft power based on my visits to the Mideast with 42 or 
43, I can't remember, I've seen wars get better; I've seen them 
get worse. I've seen the benefits of soft power. I believe that 
the proposed 2018 budget basically destroys soft power as we 
know it and I hope we're wise enough to push back. Now having 
said that, is it fair to say that the State Department and any 
other organization can be run more efficiently? Do you see 
chances to reform the way we do business in 2018?

                   REFORMS AT THE DEPARTMENT OF STATE

    Ms. Albright. I do think that always it is useful to review 
and see what is efficient and what isn't. But I have to say I 
am worried about the fact that it takes an awful lot of time to 
reorganize and takes away time from what diplomats should be 
doing aside from the fact that it would be nice to have some 
diplomats named so they can go and be in these countries and 
work on soft power and represent our country.
    Senator Graham. Congressman Kolbe, you mentioned that 
procurement and acquisition is a way to reform, to save money.
    Mr. Kolbe. Yes, I think that there is a--significant gains 
can be made in doing some reforms in the acquisition. I might 
add also to your last question that while reorganization is 
important, I would not favor putting USAID to become simply a 
bureau of the State Department. I think then it becomes a 
political arm instead of the arm that it is today of our 
development assistance and democracy assistance.
    Senator Graham. So I agree with the idea that if you want 
to reorganize or reform the State Department, count me in. 
Twenty-nine percent is not reorganizing and it is not 
reforming; it's gutting. Now, let us talk about the other 
aspect of what the State Department's all about which is 
protecting those who are engaged in representing our country in 
very dangerous places. Secretary Albright, what is your concern 
in terms of our security footprint for our diplomats if we 
reduce the State Department by 29 percent?

                         SECURITY FOR DIPLOMATS

    Ms. Albright. I think it is of great concern because we do 
know that being a representative of our country and an 
ambassador in the embassies, it's a dangerous job. I think 
people feel that it's some fancy job where people just go to 
receptions. The truth is and Secretary Tillerson recently stood 
in front of the Wall and the State Department commemorating 
those ambassadors who had died in the course of serving our 
country. And, this is something that I feel very strongly 
personally because everybody who knows me knows I loved being 
Secretary of State, except on August 7, 1998, when our 
embassies in Kenya and Tanzania were blown up and there was a 
commission that looked at what had happened there and as a 
result of that, we had to increase security in our embassies in 
a way that protected not only the ambassadors in the embassies 
but creates an issue about how much goes for security and how 
much goes for programs. So, you can't rob Peter to pay Paul and 
then rob Paul also. And that is what worries me about a budget 
that doesn't have both money for programs and for security.

                   U.S. GLOBAL PRESENCE AND INFLUENCE

    Senator Graham. Final question, Mr. Hadley. If we enacted a 
29 percent cut to the State Department, the cost of security 
and other concerns, our footprint in the world would be 
dramatically smaller at a time when it should be larger. Do you 
agree with that general proposition?
    Mr. Hadley. I do and I also am concerned that once you cut 
it back, I don't think it's easy to restore. If I could just 
make one other point. If you look at our experience in the war 
on terror in Iraq and Afghanistan, the problem has never been 
killing the bad guys or clearing the territory of terrorists. 
It has been after we cleared it, working to stabilize those 
areas so that the terrorists do not come back and that of 
course requires the soft power of diplomacy, development and 
other things. That's where we have failed. If that's where we 
have failed, that's the time where we need to relook and maybe 
even expand. We've got to do that in a more sensible, smart and 
successful way.
    Senator Graham. Thank you. Senator Leahy.

                    IMPORTANCE OF DEMOCRACY PROGRAMS

    Senator Leahy. Thank you very much, Mr. Chairman. Secretary 
Albright, you and I have known each other for a long time from 
your days in the White House when I was a new Senator here and 
on through to your time as Secretary of State. And I think I 
can state your position fairly by saying that defending freedom 
of expression and democrat institutions is a long-term 
investment, not a short-term investment. Is that correct?
    Ms. Albright. That's absolutely.
    Senator Leahy. I think of a number of times when you take a 
couple of steps forward you may go back one and a half. Can you 
give me some examples, perhaps when you were running the 
department, where our democracy programs made a tangible 
difference, when aid to a foreign government or to civil 
society paid off in some significant way?
    Ms. Albright. There were a number of places where there was 
a huge difference that was made by democracy programs. In the 
Balkans for instance, after we had been there militarily in 
terms of trying to help them figure out how to resolve their 
differences and work together and then establish and work to 
establish a rule of law. That also takes a very long time as 
was said.
    I also think that there were programs and one that I think 
is very important and has come to fruition recently is Plan 
Columbia, which was something that had a variety of aspects to 
it, was a bi-partisan--supported in a bi-partisan way in 
Washington and then worked very hard in order to establish an 
economic program and a political program. And I think--and it's 
an example frankly of something that takes a while to take root 
and that is a very important program. So, I do think there are 
others and in the Middle East also, in Lebanon and a variety of 
places. I think the hard part frankly is that things do 
backwards at times and therefore, it is important for us to be 
present and to know the people that we work with and to 
establish the kind of trust and confidence with the local 
partners that we have and it is--it takes a while. And I think 
that we should admit that which is why cutting all of a sudden 
is a breaking of trust and will make it difficult, as Steve 
said, to put back together.
    Senator Leahy. You mentioned Plan Columbia. A few weeks 
ago, we were talking with victims of the FARC and victims of 
the Colombian military. We saw the two steps forward, one, and 
three-quarter steps back at times. But I remember what 
President Santos said to the bi-partisan delegation I had taken 
there, which was to not give up hope. The arc has been forward, 
and all were concerned that the United States might say, 
``Okay, we've been there done that, let's go on to something 
else.'' I think Mr. Hadley you've seen that. We discussed 
similar things when you were with the Bush administration. 
Maybe I should ask this of all three of you: what would it do 
to your organizations if we were to cut 30 to 50 percent from 
democracy programs, and secondly, has anybody from the new 
administration sat down with any of the four of you to discuss 
what you would do with more or less funding?

                  IMPACT OF CUTS TO DEMOCRACY PROGRAMS

    Mr. Hadley. I have not been contacted on that. I think one 
of the problems is that it's my sense from the outside is the 
way it's being done is kind of top down from OMB. And I think 
the sensible way to do it, take the State Department for 
example, Secretary Tillerson nominated by the President, 
confirmed by the Senate, he's the person you look to run the 
Department of State. I would think he should be given some time 
to get to know his department, understand his department, make 
some recommendations about how to strength which will probably 
involve some cuts but ought to also involve some plus ups. Let 
him bring that to the Congress of the United States and have a 
conversation about how to make sure that these non-military 
aspects are used as efficiently and effectively as we can 
because the security in these areas ultimately is going to 
depend on the success of those kinds of programs.
    Senator Leahy. Do the rest of you agree with that?
    Ms. Albright. I do think that it's important to understand 
what is really happening and I--you asked both of you whether 
this was, you did Chairman Graham, in terms of how dangerous 
the world is. I think time is passing here and everybody says 
it's early for making some decisions and some strategy for what 
the administration is doing. Soon, it will be too late and so I 
think it's very important in fact to have these kinds of 
discussions because unless you have some idea about what is 
going on in terms of the department and what various people do, 
I'm kind of worried about time passing. And so, I would be 
delighted to be contacted by somebody.
    Senator Leahy. Thank you. Thank you, Mr. Chairman and I do 
recall going to the Balkans with Secretary Albright and 
President Clinton during that time.
    Senator Graham. Okay. Thank you. Senator Moran.

                         EXAMPLES OF SOFT POWER

    Senator Moran. Thank you, Mr. Chairman. Thank you and the 
ranking member for having this hearing and thanks to our 
distinguished panelists for joining us. I've said on the Senate 
floor and in an op-ed piece to Kansans back home that soft 
power, would use a different word than that in speaking about 
this, is necessary to avoid additional military actions or to 
reduce the need for military actions around the globe. Are 
there specific examples that I can point to, that you could 
point to me that I can then indicate to those I'm speaking 
about where our diplomacy, our assistance, food aid and other 
things have made a difference such that you believe we 
prevented the need for military power to be utilized?
    Mr. Hadley. Senator, the example I used about Mahmoudiyah 
which was now 10 years old, a peace agreement arranged under 
the auspices of the USIP that has held for 10 years. The effect 
of that was dramatic in terms of the casualties being suffered 
by the Tenth Mountain Division. They fell by a factor of, you 
know, five or six times, and also allowed those forces to be 
withdrawn so that the peace was kept with a smaller number of 
people. So, that's a savings of lives, a savings of resources; 
and the cost of that operation I think, correct me if I'm 
wrong, about $1 million dollars. And that's kind of what the 
military spends about $11.5 million a day in Iraq during that 
timeframe. So, it's good value. That's the point. I think 
it's--we make a mistake calling it soft power. There's nothing 
soft about it. You know what our diplomats are doing, what our 
USIP people and our facilitators, they're risking their lives.
    Senator Moran. Right.
    Mr. Hadley. These are in conflicts zones. There's nothing 
soft about that. Maybe we ought to talk about the military and 
non-military but I think soft is not an adequate description of 
the risks they run. Thank you.

                          FAMINE AND FOOD AID

    Senator Moran. Let me focus a minute on food aid. There are 
famines around the globe. I think there's a desire on the part 
of many Americans to respond. Part of the challenge we face are 
the civil authorities or military authorities in the countries 
where there are famines not allowing non-governmental 
organizations into their country, not allowing assistance. What 
is it that we do, why do countries behave in a way in which 
they deny us the ability to save lives and how do we respond to 
get a different result?
    Ms. Albright. I think that this is where diplomacy comes in 
actually is to have ambassadors in those countries that are 
able to explain that we're not going in there to occupy and 
that is part of it. But I also think that we need to understand 
that the famines are partially being created by desertification 
and climate change and also by governments that want to starve 
their people. I think that's part of the issue and therefore, 
it's important to have contact with nongovernmental 
organizations in those countries and try to show that starving 
people then create the mayhem that then leads to worse things. 
I also do think that Americans are the most generous people in 
the world. Our only problem is that we have a short attention 
span and so I think that what needs to happen is that we need 
to understand that these are problems that are out there for a 
very long time. I do think, however, in those four particular 
countries, we have the most amazing operation in AFRICOM which 
is a command that in fact is a way of dealing and it's exactly 
what Steve was saying in terms of cooperating of the civil and 
the military together in order to make a difference in a 
particular country.
    Senator Moran. Congressman.
    Mr. Weber. Senator Moran, I would just, it's pointed out to 
me, Amartya Sen, the Nobel laureate, has said that ``there's 
never been a famine in a democratic country with a free 
media.''
    Senator Moran. I appreciate your saying that. I point that 
out that our ability to--I don't know--I guess that's the point 
that needs to be made if I can say it in my own words although 
not as articulate as who you quoted. The ability to have a 
democracy when people are starving doesn't exist. Is that a 
fair summation of that?
    Mr. Weber. It's much more difficult.
    Senator Moran. Much more difficult. I want to compliment 
Chairman Graham and the ranking member and this subcommittee. 
Nearly a billion dollars in food aid, famine assistance was 
included in the fiscal year appropriation bill. That's a great 
development. Our subcommittee on agriculture funded Dole 
McGovern Food Program, Food and Education program. Our 
appropriations process for fiscal year 2017 I think resulted in 
significant opportunities for help for people around the globe 
and enhances the chances that democracy will survive or are 
created and reduce the chances that our military's actions are 
necessary. So, Chairman and members of the subcommittee, thank 
you for your efforts in regard to trying to feed people around 
the world.
    Senator Graham. Well, let it be known to the people of 
Kansas if Senator Moran had his way, all the farmers in Kansas 
would feed everybody in the world.
    Senator Moran. Well said.
    Senator Graham. Senator Coons.
    Senator Coons. Thank you, Chairman Graham and Ranking 
Member Leahy and thank you to all four of our wonderful 
witnesses who've dedicated decades of your lives to the service 
of democracy in the United States. The four institutions 
represented here, National Endowment for Democracy, NDI, IRI 
and U.S. Institute for Peace are all significant resources in 
our work to advance our values in democracy around the world 
and I look forward to standing with you in support of them in 
this coming appropriations process. I think the Senate and this 
subcommittee in particular has to grapple with the trends that 
are transforming our world and describe how the United States 
should engage to defend our interests, support our allies, and 
advance our values. This should hopefully be a bi-partisan and 
constructive conversation and one where we can help contribute 
to shaping the agenda of the new administration. And I intend 
to relentlessly support programs such as yours that advance the 
values of democracy, human rights, rule of law as well as our 
vital interests. It was said I think most concisely by you, 
former Congressman Weber, there are some people who believe we 
have to choose between defending our interests and affirming 
our values. They pose a false and dangerous dichotomy since our 
interests and values are mutually reinforcing as is maintaining 
our military strength and our moral vision. All of you said 
some variation of that and I just want to thank you for your 
leadership in doing so.
    Let me focus on one specific program that's a window I 
think into the larger question we're all facing. The Young 
African Leaders Initiative is just one example of many young 
leaders' programs or people-to-people programs or human 
resources programs. This one was created in 2014 to invest in 
the next generation of African leaders and I've witnessed 
firsthand how 3,000 Africans that have been reached through 
YALI have formed an active network across the continent that's 
advancing good governance, human rights and entrepreneurship 
while creating a network of grass roots allies in strategically 
important countries. How are leadership exchange programs like 
YALI a cost-effective measure to promote democracy and 
governance? Congressman Kolbe, you I think specifically 
referenced in your testimony human resources as something hard 
to procure effectively. Why is it a poor choice perhaps for 
President Trump's proposed budget to eliminate a lot of the 
work of the Bureau of Education and Cultural Affairs that would 
affect a wide range of sort of youth and partnership programs? 
Mr. Chairman, I'll submit for the record three different 
letters of support for YALI. I'd welcome comments from you, 
Congressman Kolbe, or any other members of the subcommittee on 
why these people-to-people programs are particularly effective 
and why this one in particular might be worth defending. 
Congressman.
    [The letters follow:]
                                               Monday, May 8, 2017.
Hon. Chris Coons,
U.S. Senate,
127A Russell Senate Office Building,
Washington, DC 20510.

Dear Senator Coons,

    We urge you to fully fund the Young African Leaders Initiative 
(YALI) and its flagship program, the Mandela Washington Fellowship for 
Young African Leaders. The current draft of the President's fiscal year 
2018 budget proposes significant cuts to the U.S. Department of State 
and its Bureau of Educational and Cultural Affairs (ECA). If enacted, 
these cuts could devastate YALI, which directly benefits American 
colleges and institutions who host these young leaders each year.
    For American businesses to grow, it's critical that we increase 
exports, and Africa--with its largely pro-American population--
represents one of the most promising emerging markets. For example, in 
just the last 10 years, Nigeria surged from the world's 52nd largest 
economy to the 20th, ahead of Australia. We need to strengthen economic 
ties between the U.S. and Africa so that Americans can take advantage 
of this opportunity. Programs like the Mandela Washington Fellowship, 
part of the Young African Leaders Initiative, bring future African 
business, civic and government leaders to the U.S. to engage and build 
the kind of relationships, business practices, and democratic 
governance we need for U.S. businesses to enter these emerging markets 
successfully and create more jobs here at home.
    Our companies have benefited tremendously from YALI in a variety of 
ways, including hosting Fellows who provide valuable insights on taking 
advantage of business opportunities in Africa, and sending our own 
staff to the continent to launch new enterprises. Over 3,000 YALI 
Fellows are currently on the continent--many inhabiting influential 
political and economic positions. These sympathetic government and 
business leaders represent a growing network of future trading 
partners. From our personal experience, this Fellowship is truly a two-
way exchange with tremendous benefits for the United States.
    We hope that we can count on your support in ensuring the 
Fellowship's continued success. A strong, prosperous, democratic Africa 
aligned with the U.S. will ensure our national strategic interests for 
decades to come. Investing in people who will help drive this change, 
while boosting exports and creating jobs here in the U.S., is an 
effective approach that speaks to American values and interests.

            Sincerely,

Deloitte
AGCO Corporation
Black & Veatch
Africa Venture Partners
Corporate Council on Africa
Creative Associates
Oracle Corporation
DAI
DLR Group
Integrated Solar Technologies
International Green Structures
Visa Inc.
Symbion Power
Premise Data Corporation
Shea Yeleen
Sheladia Associates
      
                                 ______
                                 
                                               Monday, May 8, 2017.
Hon. Chris Coons,
U.S. Senate,
127A Russell Senate Office Building,
Washington, DC 20510.

Dear Senator Coons,

    Over the course of the last three administrations, the U.S. 
Congress has advanced U.S. interests in Africa through transformative 
programs. The African Growth and Opportunity Act helped to move the 
U.S. relationship with the continent from that of donor-recipient to 
one of mutual benefit and gain. The President's Emergency Program for 
AIDS Relief (PEPFAR) not only helped to stabilize key parts of Africa 
but made it possible to think about an AIDS free generation. Congress 
has invested in other important programs such as Feed the Future, 
Electrify Africa and the President's anti-malaria initiative.
    The Young Africa Leaders Initiative (YALI) and its flagship 
program, the Mandela Washington Fellowship for Young African Leaders, 
is an important addition to these bipartisan programs that will help to 
transform Africa's future and deserves your support. YALI excels at 
attracting Africa's best and brightest young men and women for 
leadership development at American universities in civic leadership, 
public management and entrepreneurship and business. YALI is a cost-
effective investment in economic development, the deepening of 
democracy and strengthening civil society.
    Over 3,000 Mandela Washington Fellows and more than 450,000 YALI 
network members are now on the African continent. Many already are in 
positions of influence--and this number will only increase as these 
dynamic young leaders continue to advance in their careers. These 
leaders represent a growing network of allies, who will shape Africa's 
future--and strong ties to these young leaders is all the more crucial 
as China and others dramatically increase their cultural and 
educational exchanges across Africa. The fact that 64,000 Africans, 
from every country in sub-Saharan Africa have applied for 1,000 Mandela 
Washington Fellowships this year alone is a clear signal of YALI's 
impact and relevance.
    The current draft of the President's fiscal year 2018 budget 
proposes major cuts to USAID and the U.S. Department of State's Bureau 
of Educational and Cultural Affairs--the two parts of our government 
responsible for the program. If enacted, these cuts could devastate 
YALI and undermine the increasingly significant role that the program 
plays in advancing American national security interests in Africa.
    We urge you to support the continuation of the YALI and the Mandela 
Washington Fellowship for Young African Leaders. A strong, prosperous, 
democratic Africa aligned with the United States and led by a dynamic 
network of emerging leaders who share our values is in our strategic 
national interests, now and for decades to come.

            Sincerely,

The Honorable Thomas Pickering, former Under Secretary of State and 
    former Ambassador of the United States to Israel, the United 
    Nations, the Soviet Union, Nigeria and El Salvador

The Honorable Robert Mallett, former Deputy Secretary and Acting 
    Secretary of Commerce, and President & CEO, Africare

General Kip Ward, former Commander, United States Africa Command 
    (AFRICOM)

The Honorable Johnnie Carson, former Assistant Secretary of State for 
    African Affairs and former Ambassador of the United States to 
    Uganda, Zimbabwe and Kenya

The Honorable Hank Cohen, Former Assistant Secretary of State for 
    African Affairs, Senior Director for Africa at the National 
    Security Council and Ambassador of the United States to Senegal

The Honorable George Moose, former Assistant Secretary of State for 
    African Affairs, former Ambassador of the United States to Senegal, 
    Benin, and the United Nations in Geneva

The Honorable Dr. Chet Crocker, former Assistant Secretary of State for 
    African Affairs

The Honorable Earl Gast, Former Assistant Administrator for Africa, 
    U.S. Agency for International Development

The Honorable Vivian Lowery Derryck, former Assistant Administrator for 
    Africa, U.S. Agency for International Development

The Honorable Mark Bellamy, former Principal Deputy Assistant Secretary 
    of State for Africa, former Ambassador of the United States to 
    Kenya and former Director, Africa Center for Strategic Studies

The Honorable Michelle Gavin, former Senior Director for Africa, 
    National Security Council and former Ambassador of the United 
    States to Botswana

The Honorable Don Gips, former Ambassador of the United States to South 
    Africa

The Honorable Phil Carter, former Ambassador of the United States to 
    Cote d'Ivoire

Mr. Grant Harris, former Senior Director for Africa, National Security 
    Council

Dr. Witney Schneidman, former Deputy Assistant Secretary of State for 
    African Affairs

Mr. John Prendergast, former Director for Africa, National Security 
    Council
                                 ______
                                 
                                               Monday, May 8, 2017.
Hon. Chris Coons,
U.S. Senate,
127A Russell Senate Office Building,
Washington, DC 20510.

Dear Senator Coons,

    We urge you to fully fund the Young African Leaders Initiative 
(YALI) and its flagship program, the Mandela Washington Fellowship for 
Young African Leaders. The current draft of the President's fiscal year 
2018 budget proposes major cuts to USAID and the U.S. Department of 
State's Bureau of Educational and Cultural Affairs. If enacted, these 
cuts could devastate YALI, which directly benefits American colleges 
and institutions who host these young leaders each year, including the 
University of Delaware in your State.
    The Young African Leaders Initiative invests in the next generation 
of leaders across the Continent. By providing training in leadership, 
management, and entrepreneurship that can help future leaders elevate 
their own communities and countries, the U.S. helps these communities 
help themselves while building long-term relationships that benefit the 
United States. It is critical to America's safety and economic strength 
to engage with young leaders from around the world, who are poised to 
take over influential roles in government, civil society, and business.
    Over 3,000 Mandela Washington Fellows and 450,000 YALI network 
members are now on the African Continent. Many already are in positions 
of influence, representing a growing web of allies, who will shape the 
future of Africa--and want to work with the United States instead of 
other geopolitical competitors seeking to exert influence.
    The Fellowship also gives our faculty, students, and local 
community members the opportunity to better understand people from 
different countries and cultures across Africa, home to some of the 
world's fastest growing economies. In a world where academic research 
and professional engagement increasingly occurs across borders, that's 
not just a feel-good experience--it's an essential 21st century 
business skill.
    Finally, the Fellowship brings direct economic benefits to our 
communities. Each participating institution receives $150,000 in 
Federal funds, which they match with an additional $100,000. This money 
is then invested back into the local community through expenditures on 
lodging, meals, and services, which support local jobs.
    From our personal experience, this Fellowship is truly a two-way 
exchange with tremendous benefits for the United States. We hope that 
we can count on your support in ensuring the Fellowship's continued 
success. A strong, prosperous, democratic Africa that is aligned with 
the U.S. will ensure our national strategic interests for decades to 
come.

            Sincerely,

Appalachian State University (North Carolina)
Bridgewater State University (Massachusetts)
Dartmouth College (New Hampshire)
Drake University (Iowa)
Drexel University (Pennsylvania)
Duquesne University (Pennsylvania)
Florida International University (Florida)
Georgia State University (Georgia)
Indiana University (Indiana)
Kansas State University (Kansas)
Lehigh University (Pennsylvania)
Rutgers, The State University of New Jersey (New Jersey)
Skyline College (California)
Texas Tech University (Texas)
The Presidential Precinct (Virginia)
University of California, Davis (California)
University of Delaware (Delaware)
University of Iowa (Iowa)
University of Maine (Maine)
University of Minnesota (Minnesota)
University of Notre Dame (Indiana)
University of San Diego (California)
Wagner College (New York)

                           EXCHANGE PROGRAMS

    Mr. Kolbe. Mr. Chairman and Senator Coons, I think you're 
absolutely right. I think these programs are effective. At IRI, 
we have a very effective, for example, Women's Democracy 
Network, which is worldwide where we bring together women 
leaders from around the world to share ideas and concerns and 
we hope to help them in their own countries to build networks, 
grass roots networks. So, I think these kinds of programs are 
very important and the one you cite in Africa is just one 
example of many that these different organizations represented 
at this table have been supporting over the years.
    Ms. Albright. I think the people-to-people programs are 
essential and they create a network of understanding and 
education by really dealing with each other. I also think that 
the young leaders, very important in terms of the youth, are 
one of the--people call it the youth bulge. I prefer to call it 
the youth surge, is really going to make a difference in 
countries if in fact we have the capabilities of talking to 
them, working through the cultural exchange programs and then 
developing a network that is supporting.
    I also hope, not to kind of cross too many lines, that 
there are enough--that we allow students to come to the United 
States. I'm a professor. It makes a big difference to be able 
to have foreign students in classes. It benefits the American 
students and so I think that's part of what we need to be doing 
in terms of networking and exchanging and developing new 
leaders that know each other. NDI also has a women's program.
    Senator Coons. This particular program partners with 20 
different American universities to bring young leaders to the 
United States for a period of months, but there are many others 
within this larger bucket. I just picked this particular one to 
talk about. Mr. Hadley.
    Mr. Hadley. You know one of the things about this is a lot 
of these fragile states are places with very youthful 
populations and they can be a terrific resource. There's a 
program that I heard about when I was in Kaval, Afghanistan, to 
take a conflict resolution course and put it into a university 
to teach young people. You know a lot of conflict comes because 
of unresolved local disputes about land, water and all the 
rest. So, you teach these kids conflict resolution skills. They 
actually go home into their communities and they start 
resolving conflicts and cutting across tribal and sectarian 
lines. It's now going to be put in other universities 
throughout Afghanistan. This is what we call sort of bottom up 
peace building. It's a huge opportunity and especially in these 
youthful countries, it's an enormous resource. And of course, 
by doing that, they learn the principles of democracy, freedom, 
rule of law and all the rest. So, it's a terrific opportunity 
for us.
    Senator Coons. Thank you. As has been mentioned, elections 
are not the only thing we need to support in order to support 
democracy. I think these are the sorts of programs that help 
build the fiber of non-governmental organizations, civic 
organizations and contribute to the sustainment of democracy. 
Thank you, Mr. Chairman, for this important hearing.
    Senator Durbin [presiding]. Thank you very much. I 
certainly support diplomacy, soft power, as a viable 
alternative to military, something that we should expand and 
explore. But, I'd like to address the issue of the toolbox, 
Secretary Albright, that you mentioned, because I do believe 
the toolbox is changing when it comes to achieving goals short 
of military action. There's no subtlety in Vladimir Putin's 
goal to undermine the democracy of the United States and other 
Western leaders. It's been certified by our own intelligence 
agencies that they made an attempt to do that in this last 
election for President of the United States. There's some 
evidence that they tried it in France and will try it in other 
places. The tools that Putin is using are not diplomacy or soft 
power as we defined it. What he's using are fake news, cyber-
attacks, shady business dealings, dark campaign money and up-
to-date social media. And he's using them with some impact, 
certainly in our country and other places. The question I have 
is when it comes to our side promoting democracy, preserving 
democracy, are our tools changing? Are they reflecting this 
century and what is needed now in a positive and legal context 
to deal with Putin and his tools?

               DEMOCRACY PROMOTION TOOLS AND SOCIAL MEDIA

    Mr. Hadley. No. We've got to get back into this business in 
a 21st century way. You know, we thought at the end of the Cold 
War that, you know, freedom, democracy and free markets had 
swept the table and was the only alternative really out there. 
And what we've learned in the last 10 years is that the 
authoritarians have struck back with a comprehensive and new 
set of tools and we sort of went out of that business and we 
need to get back into that business. It's one of the things I 
think this subcommittee can take the real lead on in pushing 
the administration to start defining what is the toolset we 
need. If I could make one other comment, Senator you mentioned 
soft power as alternative to the military. It is true certainly 
in conflict avoidance but it is also a partner of the military 
in zones of conflict and I would like, Mr. Chairman, if 
possible, if we could insert in the record ``Will the 
COINdinistas Rise Again?'', which is really a wonderful telling 
of the cooperation between our military and these non-military 
assets in Afghanistan and Iraq and it is the case why we need 
to invest----
    [The information follows:]<greek-l>
                         National Interest deg.
  Submitted by Hon. Steven Hadley, Chairman of the Board, The United 
                       States Institute of Peace

[Published on The National Interest (http://nationalinterest.org), May 
                                3, 2017]

                   Will the COINdinistas Rise Again?

   purging the counterinsurgency lessons of the iraq war for fear of 
striking a political nerve would be a mistake--and h. r. mcmaster knows 
                                 better

                            (By Zach Abels)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          U.S. Army soldiers in Mosul, Iraq. Flickr/U.S. Army

    IN LATE 1986, a 34-year-old declared doctrinal war on the U.S. 
Army. With the stroke of a pen, one anonymous major set in motion a 
bureaucratic insurrection that, decades later, would subsume a cabal of 
battle-hardened revolutionaries and reshape American warfare. It was 
the opening salvo, the beginning of a story that ends with a maverick 
warrior-scholar running Donald Trump's ramshackle National Security 
Council.
    That winter, Parameters featured an article under the byline Gen. 
John R. Galvin. But Galvin was not the true author; he had delegated 
the writing to his assistant, an imperious major putting the finishing 
touches on his Princeton PhD. David H. Petraeus relished the task.
    Warfare is ``no longer fought simply by the military,'' he wrote. 
``It now encompasses entire populations . . . and its outcome depends 
more and more on their collective will, what Clausewitz termed `the 
popular passions.' '' Petraeus pilloried the Army for its parochial 
obsession with firepower and conventional combat. He was warning of 
chinks in the armor. Unlike the brass, he did not see insurgency, 
terrorism and guerrilla warfare--``small wars''--as aberrations. 
Scholarship and a penchant for disruption fueled his diatribe. Petraeus 
dismissed the efficacy of merely killing rebels and touted the 
strategic logic of addressing ``contentious, long-ignored, but popular 
issues tied to key facets of national life.'' At bottom, war is a human 
endeavor.
    His self-described ``ramble'' called into question the Army's 
capacity to adapt. Military leaders ``don't look up very often,'' he 
observed, so distracted are they by the day-to-day slog. Petraeus 
worried that the dearth of critical thinking would exact a heavy toll. 
``Let us get our young leaders away from the grindstone now and then, 
and encourage them to reflect on developments outside the fortress-
cloister,'' he concluded. ``Only then will they develop into leaders 
capable of adapting to the changed environment of warfare and able to 
fashion a new paradigm that addresses all the dimensions of the 
conflicts that may lie ahead.''
    Today, his critique rings prophetic. America's post-9/11 invasions 
of Afghanistan and Iraq restored ``insurgency'' to national-security 
parlance. The ensuing conflicts were messy and slow. They laid bare the 
limits of the military instrument and the bankruptcy of conventional 
doctrine. Vicious, resilient insurgencies unleashed by the Taliban, 
Iran-backed Shia militias, Al Qaeda in Iraq and, later, the Islamic 
State have imprinted haunting images on the American psyche.
    Trump rode those very waves of fear and angst into the White House. 
The public's hunger for closure pales in comparison with its thirst for 
blood. Over and over again, Trump bewitched voters with promises of 
consigning ISIS to the fires of hell, without repeating the mistakes of 
the Iraq War. But evicting insurgents from their strongholds will not 
suffice. The president cares deeply about optics; he can't afford for 
the next ISIS to take root on his watch. Remember when candidate Trump 
accused Barack Obama and Hillary Clinton of cofounding ISIS? The attack 
ads would write themselves. Only an enduring victory will do.

    IF ANYONE can help the president realize that objective, it's his 
national security advisor, Lt. Gen. H. R. McMaster. McMaster first came 
to prominence in 1997, when he turned his PhD dissertation into a book. 
In Dereliction of Duty, he excoriates the joint chiefs of the Vietnam 
War era for not expressing dissent with enough conviction. McMaster 
always aspired to speak truth to power. The Iraq War turned principle 
into deed.
    It was during the Iraq War that the chain reaction triggered by 
Petraeus's ghostwriting reached a climax. Along with James N. Mattis--
now Trump's defense secretary--a cast of erudite field officers and a 
clutch of civilian intellectuals, McMaster and Petraeus reengineered 
the way the United States thinks about warfare. They revolutionized a 
U.S. military culturally predisposed to the status quo. They changed 
the Government's most obstinate bureaucracy from within. They proved 
that America's storied warfighters, peerless though they are in 
dispatching conventional foes, are alone no match for the insurgencies 
that have metastasized throughout the Middle East. McMaster, Petraeus 
and their fellow rabble-rousers were dubbed ``COINdinistas,'' a tribute 
to the figurative insurgency they launched in order to teach the U.S. 
Government how to fight literal insurgencies.
    The Iraq War was their crucible. It crystallized for them that 
defeating insurgents rests on a symbiosis between soldier and civilian, 
between killing and rebuilding. In February, 121 retired flag officers, 
Petraeus among them, reaffirmed that precise belief in a letter to 
Congress. They averred their ``strong conviction that elevating and 
strengthening diplomacy and development alongside defense are critical 
to keeping America safe.'' They turned Mattis's own words against him. 
As the head of Central Command, he once said, ``If you don't fully fund 
the State Department, then I need to buy more ammunition.'' 
Historically, that's a bipartisan sentiment, verging on gospel.
    So when the White House announced in mid-March that it aimed to 
enfeeble the State Department and USAID, and extinguish the United 
States Institute of Peace, it's no surprise that national-security 
pundits across the political spectrum struggled to suppress the 
invective bubbling beneath the surface. Some tempered their rage to 
inveigh against the president's ``skinny budget.'' Many are summoning 
the ethos of liberal internationalism. The more compelling rejoinders, 
though, are speaking to the countless ways in which Trump's budget 
would damage America's cold, hard material interests. Because it would. 
It would jeopardize what every elected official claims to treasure 
without reservation: America's shimmering coffers and legendary 
warfighters. The sheer symbolism of Trump's proposal, regardless of its 
plausibility on Capitol Hill, speaks volumes. Its shockwaves will 
reverberate and linger.
    The White House's budget outline marks the apex of a string of 
contradictions. The President's relationship with the military is 
perplexing. Retired four-stars head his Homeland Security and Defense 
Departments, and an active-duty three-star sits atop his NSC. Trump 
likes being seen in the company of generals, though some suspect he's 
using them as props. His ostensible deference didn't stop him from 
publicly blaming them for the botched Yemen raid and subsequent death 
of a Navy SEAL. In the greater Middle East, Trump has empowered his 
commanders, but hasn't provided a semblance of strategic vision--what's 
the endgame?
    The administration's disconnect between military action and 
political outcome is palpable. Officers in the field have been 
authorized to call in air strikes without permission from more senior 
officials. On April 13, Gen. John W. Nicholson Jr. dropped the ``mother 
of all bombs'' on an ISIS tunnel complex in remote eastern Afghanistan. 
It was the most powerful non-nuclear weapon ever used in combat and, 
reportedly, employed without White House signoff. But it's not just 
Trump who's guilty of confusing tantalizing explosions with sound 
foreign policy. Cable news worked itself into a frenzy, obscuring the 
difference between tactics and strategy, one awestruck chyron after 
another. Few paused to ask: what's stopping another 100 ISIS fighters 
from replacing those killed?
    ``We have to start winning wars again,'' the President exhorted on 
February 27. Days later, he pledged to ``give our military the tools 
you need to prevent war and, if required, to fight war and only do one 
thing. You know what that is? Win. Win! We're gonna start winning 
again.'' The irony is tragic and comedic, in equal measure. A few weeks 
later, Trump proposed a budget that would deprive the military of the 
exact tools he promised them. He seeks to cripple the civilian agencies 
that consolidate combat success into political victory. Military power 
divorced from diplomacy cannot win conventional wars. In small wars, 
raw firepower is even less decisive.
    If Trump were to succeed in budgetarily castrating the civilian 
agents of U.S. foreign policy, he would harm national security. In 
Iraq, where the administration has escalated the fight against ISIS, he 
would render the efforts of servicemen and women less consequential, 
their triumphs fleeting. Mosul will fall. What happens the day after? 
Sunni and Shia, Arab and Kurd, are unlikely to find peace overnight. 
Killing bad guys does not a foreign policy make. Without a concerted 
strategy of security, diplomacy and development, popular passions will 
once again engulf Iraq. Deja vu of the worst kind--the kind that sucks 
American soldiers and dollars right back in.
    No White House official is more keenly attuned to this dystopian 
fate than McMaster. No national-security professional exerts more 
influence in the new administration. ``H. R. knows firsthand the value 
of diplomacy in bringing conflict to a conclusion favorable to the 
United States, at the minimum possible cost in lives and dollars,'' 
retired Lt. Col. John Nagl told me. ``H. R. knows that in his bones.'' 
Nagl is no ordinary combat veteran. A COINdinista of the highest 
repute, he possesses unique insight into McMaster and is unencumbered 
by chain of command. ``It must gnaw at his innards,'' Nagl said of his 
friend, ``that the administration he is serving is attempting to do 
this kind of damage to institutions that are so important to the 
security of our great Nation.'' He was uninterested in mincing words: 
``These ideas are asinine.''
    And that's the most confounding paradox of them all: that H. R. 
McMaster could possibly acquiesce to something so flagrantly 
antithetical to the American way of war he fought so hard to transform. 
He knows that ``small wars'' is a misnomer. When a president fantasizes 
about short, winnable wars with military-only solutions, young men and 
women pay for that mistake with their lives, and taxpayers with their 
wallets. It beggars belief that the strategist of a generation could be 
complicit in a national-security policy unmoored from common sense.

    TWELVE YEARS after decimating an entire Republican Guard tank 
formation without loss, Herbert Raymond McMaster returned to Iraq. It 
didn't take him long to discover that the pitched battles he and John 
Nagl waged against Saddam Hussein in 1991 had gone the way of the 
musket. This was a different sort of war.
    As the director of Central Command's advisory group in 2003, 
McMaster visited every brigade in Iraq. When he came across the 101st 
Airborne Division in Mosul, he was pleasantly surprised to find Maj. 
Gen. Petraeus experimenting with counterinsurgency. The two hadn't 
spoken in a while. Six years earlier, Fred Kaplan recounts in The 
Insurgents, McMaster's intellectual honesty caught Petraeus's eye. Both 
officers had written their PhD dissertations on the Vietnam War. 
Petraeus chose not to publish his for fear of insulting the commanders 
who held sway over his career; McMaster did not share that compunction. 
Dereliction of Duty bears the subtitle ``Lyndon Johnson, Robert 
McNamara, the Joint Chiefs of Staff, and the Lies That Led to 
Vietnam.'' Not exactly subtle. Petraeus was an aide to the chairman of 
the joint chiefs at the time. He called McMaster and instructed him to 
reach out directly should he ever come under fire for what he'd 
written. The need never arose, but after reconnecting in Mosul, they 
stayed in touch. McMaster would experience his own watershed soon 
enough.
    It was the spring of 2005, and Tal Afar was in shambles. Colonel 
McMaster arrived at the helm of the Third Armored Cavalry Regiment to 
find the city, 35 miles from the Syrian border, beset with sectarian 
violence. Iraqi and foreign-fighter jihadists, along with elements of 
the local Sunni population, ran riot. Al Qaeda in Iraq, ISIS's 
forebear, targeted the minority Shia with heinous violence, the kind of 
theatrical brutality all too familiar today. A Shia police force fanned 
the flames with indiscriminate reprisal killings. In Insurgency and 
Counter-Insurgency in Iraq, Ahmed S. Hashim recalls that ``Tal Afar 
looked like one of those forlorn humanoid settlements on a distant and 
barren planet in the outer reaches of the solar system.'' On multiple 
occasions, the U.S. military ousted the insurgents. But each time they 
came back. The city became an insurgent sanctuary, a convenient support 
base for launching attacks on Mosul, which markedly deteriorated after 
Petraeus's departure.
    In the April 10, 2006 issue of the New Yorker, George Packer 
painted a vivid picture of McMaster's pioneering operations in Tal 
Afar. On his own initiative, McMaster employed classic 
counterinsurgency tactics in a bid to ``clear, hold, build.'' (Among 
the books McMaster assigned his regiment before deploying was Learning 
to Eat Soup with a Knife, by John Nagl. Combatting insurgency is 
``messy and slow, like eating soup with a knife,'' T. E. Lawrence wrote 
in Seven Pillars of Wisdom.) Clearing and holding went well enough. He 
collaborated with the 82nd Airborne and special-operations units to 
dispossess the jihadists of their strongholds. He ordered his soldiers 
to establish neighborhood outposts and to dismount their armored 
vehicles while on patrol (shifting the emphasis from protecting 
themselves to protecting civilians); to curtail gratuitous night raids 
(which embitter and alienate); to use minimum necessary force when 
possible (to avoid collateral damage); and to treat the locals with a 
dose of dignity and compassion. ``Every time you treat an Iraqi 
disrespectfully, you are working for the enemy,'' he instructed. Trust 
yields intelligence, and intelligence saves lives. James Mattis, 
McMaster's current counterpart at the Pentagon, adopted a similar 
philosophy as commander of the First Marine Division in Anbar Province 
during the early years of the war. Tom Ricks documented Mattis's 
``first, do no harm'' approach in Fiasco, a 2007 Pulitzer finalist.
    Building was another challenge entirely. McMaster worked to restore 
basic services, stood up a local security force and encouraged 
municipal workers to return by paying their wages. He rather shrewdly 
funneled reconstruction funds through tribal sheikhs. Appearances 
matter; people were more likely to welcome the return of order and 
infrastructure if they could plausibly deny affiliation with the 
American occupiers. Sowing trust among the locals proved most daunting. 
``When we came to Iraq, we didn't understand the complexity--what it 
meant for a society to live under a brutal dictatorship, with ethnic 
and sectarian divisions,'' McMaster told Packer. The Jordanian 
terrorist Abu Musab al-Zarqawi understood the complexity. Under his 
leadership, Al Qaeda in Iraq had brought Tal Afar to the brink of civil 
war. Zarqawi's brand of terror was calculated and effective. McMaster 
knew that if he couldn't find a way to end the cycle of revenge 
killings, his regiment's progress would evaporate. Taking death squads 
off the street was but a Band-Aid.
    And then the rubber met the road. As Packer observed, ``Shiite 
sheikhs accused the Sunnis of tolerating the presence of terrorists, 
and Sunni sheikhs accused the Shia of making unwarranted 
generalizations about them.'' McMaster tasked an exceptionally 
competent squadron commander with reversing Zarqawi's damage, through 
diplomacy at the community level. Lt. Col. Chris Hickey had to become 
an expert in tribal politics overnight--in his words, ``to switch the 
argument from Sunni versus Shia, which was what the terrorists were 
trying to make the argument, to Iraqi versus takfirin.''
    This mismatch is representative of so many failures throughout the 
occupation. A soldier was forced to play a role better suited to an 
anthropologist. In The Mission, Dana Priest illustrates how, by the 
turn of the century, the United States had become over-reliant on its 
military to carry out a broadening set of objectives, at the cost of 
the State Department and its ``shriveling'' resources. In 2006, Praeger 
reissued David Galula's 1964 book Counterinsurgency Warfare, with a new 
foreword by John Nagl. The French counterinsurgent argues that the 
responsibilities of the soldier, the policeman and the civil servant 
are drawn into a state of mutual dependence by COIN's inherently 
political character.
    The position McMaster put Hickey in wasn't uncommon. Before he was 
a COINdinista, Peter Mansoor led the First Brigade, First Armored 
Division. ``I was a brigade commander on the ground in 2003--4 and 
almost never saw a representative of the Coalition Provisional 
Authority. We desperately needed civilian expertise to help us with 
reconstruction and to reform the local governments,'' the retired 
colonel told me. ``There are certain aspects of counterinsurgency that 
really only civilians can provide.''
    Nagl had a similar experience. ``I became a Sunni-Shia religious, 
cultural and political expert--`expert' in quote marks!--on the fly 
because there was nobody else to do it,'' he lamented. ``When I was on 
the ground in Iraq trying to untangle tribal politics, I was despondent 
that I didn't have help from the State Department, USAID or anybody. 
And I became convinced that investment in diplomats would literally 
have saved my soldiers' lives.''
    Even more comprehensively than Petraeus in Mosul, McMaster 
supplanted chaos with stability in Tal Afar. His accomplishments were 
hailed as a wild success. And rightfully so. His was the first 
systematic counterinsurgency operation of the Iraq War--conducted, as 
Kaplan points out, ``with total independence from headquarters''--at a 
time when the mere utterance of the ``i-word'' invited opprobrium. But 
Tal Afar was one city, and McMaster one man. The insurgents cleared 
from one town would simply move to another, creating a ``balloon-
squeezing phenomenon'' that prevented security from improving country-
wide. It's what Galula called an ``accidental mosaic.'' Furthermore, 
the very nature of military deployments precludes the kind of 
continuity that might have seen McMaster achieve more in Tal Afar. He 
got his orders and moved on. On February 22, 2006, Al Qaeda in Iraq 
blew up the Al-Askari Shia shrine in Samarra. The jihadists got the 
civil war they wanted.
    Back in Washington, the war of ideas Petraeus sparked in 1986 was 
coming to a head. After years of surreptitious politicking, chain-of- 
command bending and painstaking intellectual salesmanship, Petraeus and 
McMaster were finally making inroads. In September 2006, Petreaus 
installed McMaster and Mansoor into a secret advisory group the joint 
chiefs had assembled to rethink Iraq. The ``council of colonels'' was 
afforded the opportunity to dispense with ceremony and tell the most 
senior officers in America's military the hard truths they couldn't 
countenance: Iraq was roiled in an insurgency. Clean victory and hasty 
withdrawal were pipedreams. Killing the enemy would not be enough. Only 
an injection of new commanders, resources and doctrine could salvage 
the crisis. Meanwhile, a network of influential experts, scrupulously 
cultivated by Petraeus, was working to convince President Bush to sign 
off.
    They were on the cusp. Petraeus and his cadre of doctrinal 
disobedients put pen to paper. On December 15, 2006, they published FM 
3-24, the COINdinistas' true statement of purpose. The paradigm-
shifting counterinsurgency field manual, which cites McMaster's 
exploits in Tal Afar and Mattis's in Anbar Province, turned the 
American way of war upside down. It codified hearts-and-minds COIN. 
Corporals and lieutenants would have to unlearn much of what the 
military had taught them. An insurgency's center of gravity is the 
civilian population. The public is the prize; win them over and the 
insurgents lose support. FM 3-24 made its authors look more like agents 
of change than petulant insubordinates. They had broken free of the 
fortress-cloister.
    Bush finally acceded: America wasn't going to kill its way out of 
this morass. A month after the field manual's release, the president 
pinned a fourth star to Petraeus's shoulder, gave him charge of all 
U.S. forces in Iraq and green-lit the surge. Petraeus named Mansoor his 
executive officer and tapped McMaster to lead his strategic-assessment 
team. The COINdinistas were insurgents no longer.

    THE SURGE'S abiding relevance lies not in the operational realm but 
in the conceptual. It drew military and nonmilitary personnel into a 
state of mutual dependence, made protecting Iraqi civilians a central 
mandate and confronted the conflict's political accelerants. Killing 
insurgents was subordinated to a new directive: making sure their ilk 
couldn't return.
    ``We had a lot of military power on the ground to fight the 
insurgency,'' Mansoor told me. ``What we lacked was a robust, 
complimentary civilian effort to solidify the gains that the soldiers 
and marines were making on the streets of Iraqi cities and towns.'' So 
General Petraeus and Ryan Crocker, the new ambassador in Baghdad, 
embedded provincial reconstruction teams (PRT) in combat units, filling 
their ranks with staff from USAID and the Departments of State, 
Agriculture and Justice. PRTs deployed to the front lines to tackle the 
socioeconomic drivers of the conflict. Soldiers and civilians put 
themselves at risk to secure and rebuild communities.
    The surge gave warring factions breathing space, a narrow window 
for political accommodation. Stop shooting, start talking. But security 
provision alone couldn't bring them to the table. In The 
Counterinsurgent's Constitution, Ganesh Sitaraman argues that in small 
wars, the counterinsurgent must initiate reconstruction in the midst of 
the conflict. ``Counterinsurgency embraces a bottom-up approach,'' he 
writes, ``that grows organically from the local conditions and context: 
the population's capacities and needs, their traditions and 
preferences. Organic reconstruction reframes warfighting as village-
building.'' Sitaraman sees reconciliation programs as ``weapons of war, 
instruments of lawfare that can be designed to reduce or even eliminate 
the insurgency.'' At the height of the surge, an Army combat brigade 
and a civilian organization that Donald Trump now wants to defund put 
that theory to the test. Together, they weaponized reconciliation in 
the ``Triangle of Death.''
    Mahmudiya District, Baghdad's ethnically mixed southern doorstep, 
earned its bleak moniker during the early years of the war. 
Assassinations, public beheadings, improvised explosive devices and 
armed banditry punctuated virulent sectarian warfare. ``Not one man in 
a hundred will stand up to a real killer,'' James Mattis once remarked 
to the author Bing West. ``It's ruthlessness that cows people.''
    Col. Michael M. Kershaw was told a year ahead of time, far longer 
than usual, that his brigade would deploy to Mahmudiya. Early on in his 
preparation, he realized that ``this was fundamentally a problem of 
counterinsurgency.'' But it was not, contrary to the assumption I 
voiced to him during our interview, McMaster's operations in Tal Afar 
that brought him to this conclusion. He wasn't terribly chagrined at my 
mistake.
    Kershaw and McMaster, it turns out, go way back. They were in the 
same West Point class, where they played rugby together and shared a 
course on revolutionary warfare. They were both company commanders in 
Iraq during the Gulf War. When Kershaw attempted to dabble in 
counterinsurgency in Afghanistan in 2003, McMaster noticed. Kershaw was 
leading the First Ranger Battalion in Kunar Province and discovered 
``the futility of trying to pick these guys off.'' McMaster flew in and 
received a briefing from Kershaw's second-in-command. When McMaster 
took COIN a few steps further in Tal Afar 2 years later, Kershaw was 
tracking his progress.
    Kershaw and the Second Brigade of the Tenth Mountain Division 
arrived in Mahmudiya in August 2006. From the beginning, he said, he 
was determined to ``harness something that would outlast our tour of 
duty.'' The Triangle of Death's new counterinsurgents manned 
neighborhood outposts, with an eye toward restoring community security. 
Special operators killed and captured Al Qaeda and its foreign 
fighters. Kershaw's deputy, Lt. Col. John Laganelli, told me he worked 
to bring agricultural and economic-development capabilities into the 
region, ``to create some form of normalcy for the people.'' Meanwhile, 
the ``Awakening'' had moved from Anbar Province and was sweeping across 
Mahmudiya. Local Sunnis began betraying Al Qaeda, electing to supply 
the U.S. military with intelligence in exchange for pay and promises of 
safety.
    In Kershaw's telling, plenty of tribal leaders wanted to talk, but 
the Second Brigade was struggling to consolidate the ink dots of 
``awakened'' locals into a big-picture compromise. There were too many 
moving pieces, too little trust: ``We were trying to navigate an 
archipelago of societal islands. The campaign was like an island-
hopping exercise.'' And Kershaw was, by all accounts, the Army's 
resident authority on south Baghdad. ``I was the Mahmudiya expert,'' he 
said matter-of-factly. ``But man, I went to public school in east 
Texas. I could only scrape the surface. The language barrier. The 
culture barrier.'' Someone in Kershaw's orbit coined the term 
``sheikhapalooza'' to denote the unproductive theatrics that 
characterized the military's sit-downs with tribal leaders.
    By the summer of 2007, the Second Brigade had expelled Al Qaeda and 
bloodied the remaining insurgent groups. A promising, yet tenuous, calm 
took hold. Fearing regression, Kershaw's embedded PRT connected him 
with the United States Institute of Peace, a congressionally funded 
peacebuilding outfit--which the colonel ``knew nothing about,'' he's 
still embarrassed to say. When he met with USIP staff in the Green 
Zone, ``a lightbulb went off,'' he told me. ``Their set of capabilities 
was something we could not get elsewhere. They had Iraqis who could 
actually run the negotiations between the sheikhs. They could seat 
Iraqis with Iraqis.''
    USIP's objective, in its view, was to preempt revenge. Orchestrate 
a reconciliation process capable of suturing the ethnosectarian wounds 
the jihadists had wrought. Kershaw saw USIP in a utilitarian light: 
just as he turned to special-operations units to kill and capture 
irreconcilables, he turned to USIP to reconcile the rest. ``Those were 
desperate times. We were looking for anyone with value added.'' 
Desperate they were. There were almost 2,200 IED incidents during the 
Second Brigade's 15-month tour. Fifty-four soldiers were killed in 
action. Kershaw was eager to maximize the returns on his soldiers' 
costly investment. He didn't need FM 3-24 or media-savvy Petraeus to 
teach him about civil-military innovation. But the new field manual and 
Petraeus's public championing of counterinsurgency, Kershaw told me, 
did give his brigade the cover it needed to engage deeply with the 
people of his sector and keep Al Qaeda on the ropes. (McMaster actually 
came down to Mahmudiya during Kershaw's deployment to visit his old 
friend and exchange ideas.)
    USIP tapped into its reservoir of Iraqi intermediaries, whom the 
institute had for years been working with and training in conflict 
management. They worked closely with the Second Brigade to map out 
Mahmudiya's intricate fault lines and volatile power centers. Which 
individuals and which clans were best positioned to convince their 
tribes to negotiate with bitter enemies? Kershaw's soldiers went to 
great lengths to protect and shuttle USIP personnel--one such escort 
was struck by an IED. Sarhang Hamasaeed, USIP's current director of 
Middle East programs, went out of his way to emphasize the 
complementary dynamic between the institute and the military. USIP 
wasn't exactly in a position to rid Mahmudiya of Al Qaeda, he told me, 
but neither was the Army equipped to rebuild social cohesion.
    USIP marshalled its acute expertise and capitalized on its 
ambiguous providence. Despite having ``United States'' in its name, the 
institute was able to disassociate itself from the oft-reviled 
occupation (in Kershaw's opinion, USIP's Iraqi-led approach allowed it 
to function like ``an NGO we fund as a front''). All the while, it was 
leveraging its pedigree in diverse corridors of power. Kershaw was 
constrained by chain of command; USIP was not. The institute 
collaborated with the State and Defense Departments to secure buy-in 
from integral power brokers at the municipal, provincial and national 
levels. Despite a hostile reception, USIP was able to extract an 
endorsement from officials in Prime Minister Nouri al-Maliki's inner 
circle.
    USIP meticulously cultivated a web of local mediators and Triangle 
of Death stakeholders. The resulting delegation possessed unparalleled 
insight into the competing interests and hidden motives of the 
aggrieved parties. USIP and its delegation turned their attention to 
Mahmudiya's exiled Sunni leaders. Without them, the entire enterprise 
would grind to a halt. Post-Saddam Iraq had devastated their 
livelihoods and forced them to take refuge in Amman, Jordan. They held 
America responsible. Young firebrands and other radical elements in 
their tribes vied for influence. Some espoused sectarian warfare. Both 
Rusty Barber, USIP's chief of party in Iraq at the time and an 
architect of the peacebuilding initiative, and Colonel Kershaw 
described the links between these exiles and Mahmudiya's insurgents in 
cryptic terms. At the very least, Barber told me, they ``were capable 
of operating as spoilers to any agreement they were left out of.'' They 
``definitely had blood on their hands,'' Kershaw said.
    Among the delegates USIP recruited for the Amman mission was Ali 
al-Mufraji, a 35-year-old general in the Iraqi army. He was the most 
senior Iraqi military officer in Mahmudiya and, in Kershaw's 
experience, ``the real power behind the throne,'' a reference to the 
local Shia government. When Sens. Lindsey Graham and John McCain 
visited the sector, Kershaw suggested that they meet with Mufraji. In 
Amman, the one-star general's job was to convince the exiles of the 
initiative's viability, especially on security grounds. A Shia married 
to a Sunni, Mufraji's pragmatism helped shift the tenor of the talks, 
which were nearly derailed by suspicion. The most formidable source of 
agitation was the widespread detention of Sunnis haphazardly branded as 
terrorist accomplices. Mufraji brandished his laptop, popped open a 
spreadsheet and revealed the status of tribesmen in custody. His candor 
and transactional efficiency fostered trust. The exiles accepted the 
project's merits and, later, convinced Mahmudiya's senior tribal 
leaders to participate in a Hail Mary dialogue. In a letter dated 
August 23, 2007, Kershaw credited USIP with ``creating an atmosphere 
where real communication could take place'' and implored the institute 
to see the project through.
    Months of ground work were to culminate in a conference at 
Baghdad's Al-Rashid Hotel. The Army provided organizers and 
participants with transportation and employed robust measures to 
protect the hotel itself. Rusty Barber told me that General Petraeus 
personally redirected funds to the reconciliation process.
    The 3-day conference began on October 16. USIP crafted the format 
and agenda. The institute's Iraqi facilitators conducted the 
proceedings. They instructed participants in mediation techniques 
without besmirching their traditions. A few verbal altercations boiled 
over, but were promptly cooled. By day two, the community leaders had 
reached consensus on goals and corresponding action items, which USIP 
channeled into a draft accord overnight. On the third day, pugnacious 
debate over the final text yielded ``Mahmoudiya: Cornerstone for Peace 
and National Accord,'' a concrete framework for the reconstruction of 
the district. Thirty-one Shia and Sunni tribal leaders, so recently 
warring, signed the document in view of Iraqi and foreign press. The 
pact's symbolic value wasn't lost on Kershaw. To him, its impact was 
simple: ``It legitimized the `Awakening.''' Stop shooting, start 
talking was officially socially acceptable. Al Qaeda had lost its local 
base of support.
    Violence declined precipitously. The 101st Division's Third 
Brigade, which replaced Kershaw's, lost a single soldier during its 
deployment. The Army trimmed its presence from a brigade combat team of 
3,500 to a battalion of 650. The entire USIP project cost American 
taxpayers around $1.5 million, roughly the price of a single Tomahawk 
cruise missile. On February 11, 2009, Petraeus praised ``USIP's on-the-
ground peacebuilding efforts'' in a letter to the Office of Management 
and Budget. In it, he singled out the Mahmudiya initiative as ``a 
striking success story.'' The pact has endured the Arab Spring and the 
rise of ISIS. It holds to this day.

    THE INTENTION here is not to wax poetic about how the mighty 
COINdinistas injected 30,000 troops into Iraq, saved the day and 
galloped off into the sunset. Petraeus has been mythologized too often. 
The military historian Douglas Porch, Petraeus's harshest critic, 
titled his scathing polemic Counterinsurgency Myths. Even sympathetic 
observers point to Petraeus's preoccupation with his own glory and his 
cunning in spinning self-serving narratives.
    Nor is it reasonable to paper over U.S. killing. Brought back to 
Iraq to oversee strategy during the surge, McMaster was vehement that 
some insurgents had too much blood on their hands to be politically 
accommodated. Under Lt. Gen. Stanley McChrystal, Joint Special 
Operations Command took scores of these irreconcilables, including Abu 
Musab al-Zarqawi, off the battlefield. But McChrystal opted for the 
scalpel whenever possible. His kill-and-capture missions were designed 
to be discriminate. Collateral damage would only breed more terrorists.
    Besides, controlling territory is not the jihadist's only concern. 
Al Qaeda and ISIS inflict the deepest wounds on the virtual 
battlefield. A suicide bombing at a market has little military value; 
it resonates as ``propaganda of the deed.'' ISIS recruits foreign 
fighters and radicalizes homegrown terrorists online. Viral, emotive 
images are its weapons of choice. And as Graeme Wood argues in The Way 
of the Strangers, ISIS's weaponization of theology cannot simply be 
dismissed as a bastardization of Islam.
    Mending social cohesion in Iraqi communities, therefore, is only 
part of the story. Suffice it to say, the combination of the surge and 
the ``Awakening''--the widespread Sunni uprising against Al Qaeda, 
underway before Petraeus took over--dramatically reduced violence. From 
2004 to mid-2007, more than 1,500 civilians died every month in Iraq. 
By December 2007, that number plummeted to 500. From June 2008 to June 
2011, around 200 civilians died every month.
    The military could not occupy Iraq forever. America failed to 
establish a sustainable political order before withdrawing. Communities 
lacked closure, and tensions gestated. Maliki's overt hostility toward 
the Sunnis stoked discord and violence. ISIS exploited these divisions, 
co-opted Sunni tribes who once fought alongside the Americans and, in 
short order, routed the Iraqi army. In June 2014, ISIS declared a 
caliphate over a broad swathe of territory. At its peak, it controlled 
40 percent of Iraq.
    In Washington, reluctance to intervene understandably found voice. 
The Iraq War scarred America. Words like ``quagmire'' are never far 
from the lips of those who advocate for retrenchment. The Iraq War is 
as politically corrosive as ever, a reliable dog whistle that incites 
rabid denunciations of hegemonic overreach and paternalistic democracy 
promotion. But Iraq is more than just a trope. The decision to invade, 
among the worst foreign-policy blunders in U.S. history, and the 
prosecution of the war are two different things. Conflating 
counterinsurgency with the neoconservative worldview--just because they 
have Iraq in common--is reductive. Petraeus and McMaster did, in fact, 
make common cause with neocon stalwarts like Eliot A. Cohen and 
Frederick W. Kagan as they labored to convince President Bush to change 
tack. They were playing the hand they were dealt. Neocons broke Iraq; 
Petraeus and McMaster were tasked with putting it back together. Trump 
himself seems amenable to this sentiment. In March, he told Haider al-
Abadi, Iraq's moderate prime minister, ``We shouldn't have gone in, but 
certainly we shouldn't have left.''
    Jettisoning the lessons of the Iraq War for fear of striking a 
political nerve would be feckless. Gaslighting the COINdinistas would 
be cataclysmic.

    DONALD TRUMP is in an unenviable predicament. He's got to defeat 
ISIS and prevent its resurgence, with a footprint small enough to repel 
allegations of interventionism. The Pentagon wants to retain U.S. 
forces in Iraq for years after Mosul is recaptured. ``I believe it's in 
our national interest that we keep Iraqi security forces in a position 
to keep our mutual enemies on their back foot,'' Defense Secretary 
Mattis told Senate leaders in late March. ``I don't see any reason to 
pull out again and face the same lesson.''
    The White House has since delegated new authorities to the Defense 
Department to decide how many troops are deployed in the war against 
ISIS. Two Pentagon officials made clear to me that Operation Inherent 
Resolve is a conventional military affair. Adrian J. T. Rankine-
Galloway, a Pentagon spokesperson, used some version of ``supporting 
role'' five times in our brief exchange. I asked about the day after 
Mosul falls. ``The Government of Iraq is responsible for governance and 
security matters within its territory,'' the Marine Corps major 
responded. A second Pentagon official, this one senior, spoke to me on 
condition of anonymity. ``Once ISIS is defeated, you still have 
sectarian tensions and divisions. That's where soft power comes into 
play,'' the official said. Gutting civilian agencies, like Trump has 
proposed, would ``hinder the U.S. ability to prevent insurgencies 
before they happen.'' Surely there's some middle ground between full-
tilt counterinsurgency and what Major Rankine-Galloway referred to as 
``supporting local partners as those forces liberate territory from 
ISIS control.''
    The lessons the COINdinistas took from Iraq in the 2000s extend 
beyond that time and place. In Waging Insurgent Warfare, Seth G. Jones 
conducts an empirical study on the 181 insurgencies that took form 
between World War II and 2015. Insurgency prevention across the board, 
he demonstrates, hinges on ameliorating local grievances, 
``particularly ones associated with low per capita income, ethnic 
polarization, and religious polarization.'' Washington isn't going to 
``fix'' Iraq in one fell swoop. But Trump cannot afford to defund the 
organizations doing a measure of good. Michael Singh, managing director 
at the Washington Institute for Near East Policy, was once responsible 
for George W. Bush's national-security policy toward the region 
stretching from Morocco to Iran. ``How we defeat ISIS is just as 
important as whether we do,'' he told me. ``We need to leave behind 
conditions in Iraq both for effective local governance and stable 
regional geopolitics. It will be worth taking our time to get this 
right.''
    If America is going to prolong putting uniformed men and women in 
harm's way, dipping deeper and deeper into the war chest, common sense 
demands that the administration maximize their impact. If America is 
going to help Iraq break the endless cycle of sectarian violence--
undoubtedly, a prerequisite for hindering an embarrassing ISIS 
comeback--it will have to find a cost-effective, palatable means of 
translating battlefield triumphs into political progress. What Trump 
needs is a force multiplier. Regrettably, the White House's recent 
budget proposal sentenced to death an indispensable variable in that 
equation.
    Seven years after Mahmudiya, the United States Institute of Peace 
executed another unlikely scheme, in the northern city of Tikrit.
    Tikrit in 2014 was like Tal Afar in 2005, but worse. Ravaged by 
calculating jihadists, Saddam Hussein's ancestral hometown collapsed on 
itself. ISIS has a vested interest in instability; internecine violence 
is basically insurgent catnip. Camp Speicher had been home to a few 
thousand Iraqi military cadets before ISIS weeded out 1,700 Shia, 
slaughtered them and dumped their bodies into mass graves. It released 
photos and videos to adorn its sickening propaganda. The Speicher 
victims represented 20 southern tribes, from 9 provinces. By the time a 
hodgepodge of Iraqi Security Forces and Iran-linked militias ejected 
ISIS from Tikrit in April 2015, the massacre had been seared into Shia 
memory.
    Civil war seemed inevitable. Shia from the south marched north to 
avenge their sons. The immediate aftermath of ISIS's expulsion saw a 
wave of looting and lynching. Had he been asked, McMaster could've 
scripted the conflagration to come, like an omniscient playwright. In 
Act One, the Shia conflate every Sunni with a pulse with ISIS and its 
war crimes. The Sunnis are too busy accusing the Shia of making blatant 
generalizations to offer nuance. In Act Two, revenge killing begets 
revenge killing. Tikrit's displaced locals do not return. No Sunni 
trusts the overwhelmingly Shia security forces, least of all the 
militias. In Act Three, the Shia militias use disproportionate force to 
restore order, falling just short of war crimes. In Act Four, ISIS 
returns to Tikrit and hoists its black flag. This time, more Sunni 
tribes than before acquiesce. They've come to hate Baghdad more than 
any jihadist.
    McMaster the playwright would've been within his rights to 
anticipate such a bitter tragedy. He knows the motifs inside and out. 
But in the case of Tikrit, he would've been wrong.
    Tikrit was the first major Sunni city retaken from ISIS. USIP's 
intensive monitoring paid dividends; months before the battle 
concluded, the institute was already reckoning with the brewing storm. 
USIP mobilized an intervention team with its network of Iraqi 
facilitators. Well versed in the fine contours of Tikrit's tattered 
social fabric, the team convened a series of meetings in Baghdad. 
Sarhang Hamasaeed, the institute's Middle East director, helped design 
the Tikrit initiative. He likens revenge killing to an improvised 
explosive device. It hides in plain sight and can detonate at any 
moment, triggering cascading violence. That violence, he told me, 
becomes ``the cleavage that ISIS exploits,'' its fundamental 
sustenance.
    The goal of the dialogue was to dispel notions of collective blame, 
to introduce nuance. But the situation was ``way too hot'' to 
immediately bring the Tikriti Sunnis accused of complicity face to face 
with the southern Shia mourning their children. USIP dubbed these 
parties the ``inner circle.'' What the mediators needed was an ``outer 
circle.'' Their homework on local power dynamics bore fruit. They 
identified viable enablers and probable spoilers. They carefully 
selected an outer circle of tribal leaders who exerted strong influence 
over the inner circle. Sunni and Shia a heartbeat away from war 
gathered under one roof. USIP's Iraqi facilitators ran the show. (``At 
the end of the day,'' Hamasaeed told me, ``you want the Iraqis to have 
the credibility and the know-how to do this on their own.'') Compelling 
anecdotes challenged dangerous prevailing narratives. Not every Sunni, 
it turns out, abetted ISIS. They too lost loved ones. Some Sunni tribes 
put themselves at risk to protect Shia from the jihadists.
    USIP brought crucial stakeholders into the fold. Grand Ayatollah 
Ali al-Sistani, the most revered Shia cleric in the world, sent two 
representatives. Sistani's blessing conferred moderation. The office of 
the prime minister, meanwhile, cleared 400 Sunni families of ISIS 
collusion, allowing them to return home. The disputants struck a 
bargain virtually unprecedented in tribal tradition. According to the 
Christian Science Monitor, ``In front of more than 30 satellite TV 
channels, Tikriti tribal leaders denounced the Speicher massacre, 
blamed IS, and vowed to help Iraqi security forces identify and capture 
individual culprits within their own tribes, and help identify mass 
graves.'' It was more than a rhetorical coup; the prospect of justice 
was coming into relief. Bereaved Shia families received moral and 
financial compensation from Baghdad. In exchange, hundreds of thousands 
of displaced Tikritis were given a right of return. Monitors were 
dispatched to the area to deter reprisals.
    USIP's plot was not, alas, a miracle cure for all that ails Iraq. 
Salahuddin Province and Tikrit, its capital, have recently suffered a 
number of suicide bombings, in part, the result of ISIS feeling the 
squeeze in Mosul. And the provincial governor seems to have gone rogue. 
Under a new policy, authorities are forcibly displacing and detaining 
hundreds of families accused of ISIS ties. Hamasaeed readily 
acknowledges USIP's limits. ``We can cut into the communal tensions the 
militias want to exploit,'' he told me. ``But we cannot end the 
militias.''
    And yet, in Iraq, ``it could be worse'' has currency. NPR reported 
that Tikrit has ``confounded expectations,'' observing the city center 
``bustling with life.'' The Wall Street Journal described a degree of 
normalcy and saw ``no signs that local resentments are going to turn 
violent.'' Tikrit University has reopened, and most of its 23,000 
students, including Shia from the south, are back in attendance. Over 
90 percent of Tikritis displaced by ISIS have returned home. And Shia 
forces are not summarily executing Sunnis with power drills, as was the 
case during the worst years of the Iraq War. USIP's follow-up work is 
ongoing. It has implemented Justice and Security Dialogues in Kirkuk, 
Baghdad, Karbala and Basra, which are intended to build trust between 
security forces and the locals they serve.
    The real test comes down to resilience. When ISIS or the Shia 
militias spill blood, are there vehicles of redress strong enough to 
dissuade victims from reacting violently to attacks designed to provoke 
just that?
    Despite the caricature of a tree-hugging think tank that does 
nothing but write earnest policy reports, USIP has actionable 
comparative advantages. In Tikrit, USIP advanced core components of 
McMaster's Tal Afar agenda, but with less money. The institute runs 
lean. Its annual budget of $35.3 million wouldn't register as a 
rounding error at the Pentagon. The entire Tikrit project cost around 
$1 million. In contrast, anti-ISIS operations run the military $11.2 
million a day.
    John Nagl considers USIP a ``combat multiplier,'' insofar as its 
specialists ``understand cultures and tribal and local politics more 
deeply and more instinctually than anyone but the very best and rare 
American soldiers.'' And it's not restricted by limited deployments. 
Peter Mansoor lauded the institute's ``staying power.'' When the 
Defense and State Departments move on to the next crisis, he said, 
``USIP stays behind for a longer-term commitment.'' Its longevity 
allows it to accumulate relationships and granular expertise. Moreover, 
USIP isn't beholden to the Embassy's chain of command. Its staff can 
maneuver around the country to places where neither the State 
Department nor USAID is permitted.
    The institute has shed the baggage of the American occupier, and is 
respected among Iraqis for not having an agenda. Michael Knights is a 
foremost expert on Iraqi security affairs. Although he's distinctly 
military-centric in his analysis--``I'm not a soft-security person,'' 
he told me--he considers USIP ``very credible in Iraq.'' I spoke to him 
not long after he delivered Senate testimony on the future of U.S. 
policy in Iraq. Visibly disillusioned by inefficient foreign-aid 
delivery, he sees in USIP a potential viable model: ``If the U.S. 
Government could throw some resources at some genuine Iraqi-led 
organizations--even if USIP were the conduit--it could have a big 
impact.''
    USIP also maintains access to the highest levels of the Iraqi 
Government. ``When you come to Washington and you see that thing,'' 
Knights said of USIP's glassy, Lincoln Memorial--facing headquarters, 
``you know that you're somewhere powerful. It has prestige, and 
prestige matters a lot in a place like Iraq.'' In the past 7 years, the 
institute has hosted Iraq's prime ministers on each of their visits to 
Washington.
    By the end of our interview, Nagl was effusive. ``USIP prevents 
wars from happening and ends them sooner, on terms more favorable to 
the United States. It keeps American soldiers alive,'' he annunciated 
slowly. ``USIP understands how wars end.''

    ``WE'RE DOING very well in Iraq,'' President Trump recently 
extolled. ``Our soldiers are fighting, and fighting like never 
before.'' In March, U.S.-led air strikes killed more civilians than in 
any other month since the anti-ISIS campaign began in 2014. A single 
March 17 attack reportedly killed as many as 200 Mosul residents, and 
the U.S. military ``probably had a role.'' Razing ancient cities with 
women and children still inside--not what most would consider ``doing 
very well.'' Rubble and cinder play well both in jihadist propaganda 
and on CNN, but for inverse reasons. Not to worry: the President has 
assigned Jared Kushner the Iraq portfolio.
    Incoherence is a staple of the administration's foreign-policy 
messaging. UN Ambassador Nikki Haley, for instance, declared that 
Washington would not ``focus on getting Assad out'' 10 days before 
telling Jake Tapper, ``There's not any sort of option where a political 
solution is going to happen with Assad at the head of the regime.'' In 
the interim, Trump fired 59 Tomahawk cruise missiles at a Syrian air 
base in retaliation for the regime's gruesome chemical attack on 
civilians.
    U.S. policy in Iraq is equally discordant. ``As a coalition, we are 
not in the business of nation-building or reconstruction,'' Secretary 
of State Rex Tillerson recently said. ``We must ensure that our 
respective Nations' precious and limited resources are devoted to 
preventing the resurgence of ISIS and equipping the war-torn 
communities to take the lead in rebuilding their institutions and 
returning to stability.'' Empowering Iraqis to take the lead is fine 
and good. But passing the buck on reconstruction is a sure-fire way to 
guarantee an ISIS resurgence. ``A short-term approach to long-term 
problems,'' Colonel McMaster wrote of America's post-9/11 wars in 2008, 
``generated multiple short-term plans that often confused activity with 
progress.''
    The President's bomb-only approach belies echoes of Sisyphus. Trump 
may inadvertently sentence America to a lifetime of boulder pushing. 
Higher and higher the military rolls the insurgent boulder up the hill. 
Just when the summit is in sight, the boulder falls to the bottom. And 
so on, for eternity.
    A few glimmers of hope, however, may be squeezing through the 
cracks. Weeks into his presidency, Trump replaced his ethically 
challenged national security advisor, Michael J. Flynn, with a man once 
responsible for rooting out corruption in Afghanistan. McMaster now 
appears to be wresting control of the National Security Council from 
the White House's toxic ideologues. Steve Bannon's permanent seat on 
the Principals Committee has been revoked, while the director of 
national intelligence and the chairman of the joint chiefs have had 
theirs restored. McMaster has relocated Flynn's deputy, K. T. 
McFarland, to Singapore. He's poached Dina Powell, one of the few Trump 
aides with government experience. Most encouraging, he's hired a 
scholar named Nadia Schadlow. Both John Nagl and Peter Mansoor sang her 
praises, independently and unprompted. Schadlow's new study hit the 
bookshelves right around the time Trump was releasing his draconian 
budget blueprint. The subtitle of War and the Art of Governance is 
alone cause for cautious optimism: ``Consolidating Combat Success into 
Political Victory.''
    It would be a mistake of epic proportions to purge 
counterinsurgency's underlying principles for fear of conjuring images 
of failed nation building. Yes, a full-blown counterinsurgency do-over 
is as unviable as it is imprudent. But throwing out the baby with the 
bathwater would be folly. USIP is but one example of diplomatic effort 
complementing military sacrifice. Good policy need not be bad politics. 
At bare minimum, Trump has an obligation to uphold his campaign 
promises to protect core U.S. interests in Iraq, which he has, more or 
less, reduced to ``ISIS bad. Iran bad.'' Emboldening moderates in Iraq 
is consistent with one of the President's favorite talking points--
hedging against Iranian subterfuge. Like ISIS, Iran feeds on sectarian 
strife and political dysfunction. Michael Singh, the former NSC 
official, made an emphatic point of this. ``An unstable, conflict-
ridden Iraq,'' Singh told me, ``will inevitably be a vector for Iranian 
power projection, just as Syria, Lebanon and Yemen have been.''
    If he had the incentive, Trump could advance a deft Iraq policy 
without violating the nebulous tenets of ``America First.'' He could 
don a veneer of pragmatic national-security ethos and proclaim, with 
something approximating conviction, that ISIS will never again be 
allowed safe haven. If he were to revise his ``skinny budget,'' he'd 
have at his disposal a blend of military and nonmilitary assets 
uniquely equipped to render Iraq inhospitable to the insurgents who 
have cast such an indelible shadow over the American homeland. By 
funding that recipe's civilian ingredients and disabusing himself of a 
``bomb the shit out of 'em'' mentality, the president could secure 
lasting bang for a shoestring buck. In other words, H. R. McMaster must 
teach Donald Trump how to eat soup with a knife.

    Zach Abels is an assistant managing editor at the National 
Interest.

    Note: This article has been updated since its original posting.

    Senator Durbin. If I could follow through on the 21st 
Century toolbox, what we're learning in campaigns trying to win 
the hearts and minds of a majority in each of our States is 
that you better be on top of social media. If you're still 
playing by the old rules of television ads and radio ads and 
the like and old polling, you're missing it and you're likely 
to lose. So, when it comes to your efforts in your agencies, 
are you now in the 21st Century social media world when it 
comes to promoting and preserving democracy?
    Mr. Weber. Yes, Senator Durbin, I would just say, first of 
all, you all appropriated a special strategic fund for us about 
$25 million and the types of questions you're raising are 
exactly the things that we're trying to spend that money on, 
how to combat exactly the problems that you cited and do so in 
a way that is keeping up or getting ahead of our opponents 
around the world. We also try to combat fake news, phony media 
and all that stuff by helping the development of local media. 
We think that's a central part of our function is to help 
empower people to develop genuine free media with real messages 
and real news and run by local people. So, we're trying our 
very best to keep up and ahead of that problem. But, it's a 
problem.
    Senator Durbin. Congressman Kolbe.
    Mr. Kolbe. Yeah, Mr. Chairman and Senator Durbin, I have 
just been noted that IRI, International Republican Institute, 
has a program called The Beacon Project that is funded through 
some grants through these agencies that you fund and it's a 
partner in Europe to counter Russian propaganda and it uses 
social media as its major component. So, we are trying. I think 
we can do better but we're working to stay ahead of the curve.
    Senator Durbin. The analogy I think back to is Radio Free 
Europe, Radio Marti where we couldn't rely on the official 
origins of news and information in various countries and 
therefore had to super-impose our own message above it. I don't 
know if that is an analogy for social media today but it might 
be necessary if you're dealing with adversary when it comes to 
news sources.
    Mr. Kolbe. It's just so much more diverse today.
    Mr. Hadley. We'd be delighted if the members of the 
subcommittee would come down to USIP and we can brief you on 
Peace Tech Lab which is trying to use social media, 
communication technology, big data and data analytics to try to 
empower peace builders to deal with conflict in this bottom up 
way. It's the new frontier.
    Senator Graham [presiding]. For the record, we had $100 
million set up in the last--the fiscal year 2017 budget to deal 
counter Russia, to help front line states deal with the threats 
they have from Russia, cyber and other areas. Senator Shaheen.
    Senator Shaheen. Well, thank you, Mr. Chairman. First of 
all, let me say, my answer is yes to all of those questions 
that you asked the panelists so just to be clear. I want to 
follow up on this a little bit because I think it's one of the 
real significant challenges that we face today. And I had a 
chance with Senators Murphy and Johnson to meet with the Prime 
Minister from Georgia and some of the other Georgian officials 
who were here yesterday and they were talking about this very 
issue and one of the things I asked them was whether it was 
helpful to have something like Radio Liberty that can continue 
to broadcast into Georgia to set the record straight on what 
the facts are and they said, yes. In fact, that's very helpful 
and we would like more. We would like more opportunities to 
counter that Russian propaganda and yet as we look at the--what 
we know about the budget proposal coming out of this 
administration, they would zero out the Broadcasting Board of 
Governors and those programs. So, I think we need to look at 
what has worked and what is working as we think about what we 
need to continue to fund.

                        GLOBAL WOMEN'S PROGRAMS

    Mr. Hadley, I want to ask you about the Institute of Peace 
which has done critical work on women's participation and I can 
pose this question to Secretary Albright as well. But, can you 
talk about how important it is to continue to support the 
efforts to empower women around the world?
    Mr. Hadley. One of the areas that USIP has gotten into is 
focusing on the role that women play in building peace and in 
fighting violent extremism. And I'll just give you two examples 
in a program called Women Preventing Extremist Violence in 
Nigeria and Kenya in 2013. It was launched in 2013. It convenes 
grass roots women's' groups to detect and counter early stages 
of radicalization in the communities. In some sense, to talk to 
their kids and to monitor their kids and see when one seems to 
be going in the wrong direction. They've created dialogues. 
They've tried to create trust and cooperative environments with 
local law enforcement to try to nip incipient extremists before 
they go wrong. This is just an example. There are a number of 
similar organizations and activities that USIP is doing in this 
space. It's an important one.
    Senator Shaheen. So, Secretary Albright, how important do 
you think it is for us to continue to support the efforts of 
global women's issues that has been started in the State 
Department?
    Ms. Albright. I think, Senator, it's absolutely essential 
because we know that societies are more stable when women are 
politically and economically empowered. And what NDI has been 
doing for some time now is developing a whole system for 
supporting women in terms of running for office and learning 
from each other. And I was just in Mexico last week to meet a 
group of women that NDI had supported in terms of enlarging the 
number of women that not only run but also changing the laws so 
that 50 percent of people running need to be women. So, it 
requires that kind of support. The other part though is nothing 
ever is simple. What has happened is there continues to be 
violence against women who do run for office. And so, NDI has 
also been working with the United Nations in order to try to 
make sure that that is dealt with internationally and the 
economic empowerment I think is important and also we just gave 
an award to a group of women in Central African Republic that 
are able to work across various tribal groups and different 
ethnic groups. And so, I think it's essential. Women are 
actually pretty good about talking to each other.
    Senator Shaheen. That's right. And that's progress that 
it's nice to see in long-established democracies like France, 
right? I was very pleased to hear President Macron say that he 
wanted to recruit 50 percent women candidates for the 
Parliamentary elections so I think we could take a page out of 
that book here in America. Secretary Albright, let me also ask 
you and this is really for anybody, you've all mentioned the 
importance of our principles and our values as we do work 
around the world. So, in terms of encouraging democratic 
movements in Russia and in other autocratic countries, what 
message did it send when Secretary Tillerson visited Russia 
recently and he did not meet with civil society groups?
    Ms. Albright. Senator, I think it is very important for 
America always to make clear who we are and not take direction 
from authoritarian governments as to with whom we meet or do 
not meet. And in the past, Secretaries and various visitors 
have met with groups and we do not need to take direction in 
that particular part. I also am concerned if we do not keep our 
values and our principles top. You don't have to--it doesn't 
have to be the first thing you say to a leader or do it in a 
press conference, but it has to always be on the agenda. And 
even in places that we disagree with their government as I 
mentioned, we can never not speak about it and we do need to 
meet with the civil society groups because they gain strength 
from that and we're not trying to subvert their government. We 
are trying to show that a more stable government is one where 
people can express their views.
    Senator Shaheen. Thank you. Thank you all very much. Oh, 
Mr. Hadley.
    Mr. Hadley. Senator, if I could just say one word perhaps 
in defense of Secretary Tillerson. You know one of the 
questions is what do you do publicly and what do you do 
privately in terms of this advancing human rights. And I think 
it's--while I would not have made the choice he made, I would 
have met with civil society groups in Russia, it is interesting 
that they have been successful in getting some long standing 
human rights cases released in Egypt and China. So, let's give 
it some time. It does seem that they are working behind the 
scenes and that they're getting some results. And again, it's 
this issue of how much do you do publicly, how much do you do 
privately.
    Senator Shaheen. Thank you and thank you all very much.
    Mr. Weber. Senator, can I quickly make--we have submitted 
to the record a program called Malam Darfur funded by the NED 
in Sudan which goes to your point. It talks about organizing 
and training women peace ambassadors with great success. I 
think you'd find it interesting.
    Senator Shaheen. Thanks very much.
    Senator Graham. Senator Van Hollen then Murphy.
    Senator Van Hollen. Thank you, Mr. Chairman. I want to 
thank all our witnesses for your service to our country and 
your testimony here today and I think you have all made the 
points very well that Senator John McCain outlined in his op-ed 
piece in the New York Times, the integral relationship between 
our values and our foreign policy interests which travel 
together in so many places.
    Mr. Kolbe, Congressman Kolbe, good to see you. You 
mentioned you were on the board of Freedom House and a little 
while ago, I think about a week ago, I had the honor of making 
a few opening remarks at Freedom House when they released their 
report on the state of freedom of the press in 2017. And if you 
take a look at the introduction by the President of Freedom 
House, Michael Abramowitz, it was a pretty clear statement 
about the threat we see today. And the title of it is 
``Hobbling a Champion of Global Press,'' and Mr. Abramowitz 
starts out by writing, ``Never in the 38 years that Freedom 
House has been monitoring press freedom has the United States 
figured as much in the public debate about the topic as in 2016 
and the first months of 2017.'' He then goes on to talk about 
the growing threat to the press in places like Russia, China 
and other places around the world, but then writes, ``But it is 
the far-reaching attacks on the news media and their place in a 
democratic society by Donald Trump that fuel predictions of 
further setbacks in the years to come.'' He goes on to point 
out that President Trump has borrowed a term that was 
popularized by the Soviet leader Joseph Stalin when Donald 
Trump labeled the news media ``the enemy of the people.'' This 
is in the introduction to the report. And he concludes and I 
quote ``that,'' well first he goes on to point out he thinks 
the United States is pretty resilient, that we will withstand 
many of these attacks, but points out the negative impact this 
will have on our ability to speak with any moral authority 
overseas and the impact it will have. And he goes on to 
conclude and I quote, ``A greater danger is that the United 
States will stop being a model and aspirational standard for 
other countries. When political leaders in the United States 
lambast the media, it encourages their counterparts abroad to 
do the same.''
    So, my question for each of you is that when the person who 
is supposed to be leading the free world attacks the press in 
the ways that we've seen, does that give greater license to 
other leaders, especially authoritarian leaders around the 
world to clamp down on press freedoms in their country? Madam 
Secretary.

                          FREEDOM OF THE PRESS

    Ms. Albright. Senator, I am deeply troubled by the whole 
question of all this because one of the things that happens, I 
do travel abroad an awful lot. I'm still a diplomat and I find 
it hard to criticize my own country when I'm abroad. But I've 
been asked this question and the power of our example here is 
wrong because in fact people do say to us when I talk to them 
about their freedom of the press, they say, ``Yeah, what about 
you guys?'' And I think that I know a lot of people, there's 
always this cliche, it's not the example of our power but the 
power of our example. In this particular way, the power of our 
example is damaging and I hope very much that we are able to 
rectify this because it is very hard for us to go and tell 
other countries what to do and the press is the basis of a free 
society and that is something that we talk about when we travel 
abroad, how to establish the rule of law, what's the role of 
different institutions and the media is absolutely central. A 
free media that is able to speak out on behalf of the people.
    Senator Van Hollen. Thank you. Any other comments on that 
point? Mr. Kolbe.
    Mr. Kolbe. Well, just without--since you addressed the 
Freedom House, without wading into the political debate here, I 
would say that a free press is absolutely essential and we do 
set the example in the United States in so many different 
places and in so many different ways. And it's very important 
that the United States maintain its strong commitment to not 
only democracy but the specifics of it, including freedom of 
the press. I think we have a lot of resilience in this area but 
I think that we need to make it--we need to be a good example 
for the rest of the world.
    Senator Van Hollen. Thank you, Congressman Kolbe. The 
reason I raise Freedom House is because I think all of us on 
this panel know it has the reputation of being a nonpartisan 
organization speaking out whether you have Republican 
administrations or Democratic administrations. The difference 
is now we have a great departure in what has been a bipartisan 
tradition in how the United States speaks about these issues. 
And so, it is important to I think look very carefully at the 
impact our statement and example has around the world.
    Mr. Kolbe. I can assure you the debates within the board 
are very lively on that topic.
    Senator Van Hollen. I'm sure of that. Thank you.
    Senator Graham. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman and thank you for 
your laser-like focus on this issue of figuring out the right 
sides of our toolkit as we try to protect our interests 
internationally. I think that's the right discussion to be 
having and I think most of our panelists have hit the nail on 
the head by recognizing that the rest of the world has changed 
their toolkits and the challenges facing the United States have 
changed and we still sit here with essentially the same balance 
between military tools and non-military tools, one that coming 
from a state that makes a lot of the things that we supply to 
the military still seems pretty out of whack when you have 
twice as many people working in military grocery stores as you 
have diplomats in the entirety of the State Department.
    But, I think this focus we're having today on democracy 
assistance is really important because, you know, a lot of our 
constituents are hyper confused about how we approach democracy 
assistance abroad. I'm all for it. I understand the value of it 
and the example that the United States sets but just help me 
explain how we should explain the places where our interests in 
democracy promotion and our interest in advancing our own 
security depart, right? It seems as if sometimes we are willing 
to speak out for democracy when authoritarian regimes are weak 
or when authoritarian regimes are operating contrary to our 
interests. But when authoritarian regimes are strong and they 
are operating in accordance with our interests, we're not so 
interested in talking about democracy. Egypt for a long period 
of time would be on that list. Today, Saudi Arabia would 
certainly be on that list. Do we just admit that there are 
times when democracy isn't that important to us and just make 
that clear advertisement that sometimes like with the Saudis we 
have more important irons in the fire or do we try to explain 
away why we seem to pay attention to it in some places and not 
in other places? People notice this, right? I mean it's not 
that people don't notice that we seem to care a lot about 
democracy and undermining authoritarian regimes in some places 
but not in other places. How do we deal with that? I 
understand--and I accept that it may be an inevitable aspect of 
our foreign policy but you guys have thought a lot about this. 
How do we explain that?

             CONSIDERATIONS FOR DEMOCRACY PROMOTION ABROAD

    Mr. Hadley. I would say we've got to be able to walk and 
chew gum at the same time and we should always be talking about 
democracy and freedom even in situations where we have other 
interests that we're dealing with in the country. It depends a 
little bit how you do it, how much you do publicly, how much 
you do privately. I tend to think that some of the countries we 
have most difficulty are some of our traditional friends and 
allies and you have to accompany a little public prodding, some 
private counseling about democracy but also putting our arm 
around them and showing that we stand with them and help them 
solve some of these states that have real security challenges 
that need to be addressed. I would argue oddly enough that we 
need to--the problem is even more acute with strong 
authoritarian states. Look at what Russia is doing now. They 
are challenging democratic principles and our paradigm at home 
and abroad in a very active campaign and that is very corrosive 
to America's role in the world and to the kind of world we're 
trying to build. We need to have not just be talking about 
democracy; we've got to have a conscious strategy for how to 
counter what they're doing and to get more on the offensive 
about democracy promotion because we're losing this debate. 
We're losing it.
    Ms. Albright. I agree. We have to remember who we are and 
that the world is counting on us, or the people of the world in 
terms of speaking up. I have to say Steve and I have just done 
a project together on Middle East and we were in both in Egypt 
and in Saudi Arabia and talking about to them in terms of their 
evolution and development that they have to open up, understand 
what kind of a system they need in terms of allowing themselves 
to operate in the 21st Century. But I do think that we never 
can forget who we are but I do think that it's an issue of how 
and where. I have spent quite a lot of time actually telling 
some really nasty people that they needed to change and I do 
think if we don't do that, then we are not true to what this 
country is about. But it isn't always done in exactly the same 
mechanism. I also agree with Steve, we have to push back on 
what the Russia's are doing. The Russian mode now is to try to 
make sure that democracies don't function and I think that we 
have to make absolutely sure that we strengthen our friends and 
allies in terms of what needs to be done for them to be able to 
exist side by side and be able to push forward. So, I think we 
can't just decide that what the Russians are doing that's their 
business. It's our business.
    Senator Murphy. I appreciate your call for consistency. I 
think that double standard that sometimes we reinforce here, 
people notice it. Thank you, Mr. Chairman.
    Senator Graham. Thank you all. If having hearings is 
pushing back against Russia, we're pushing back but it's going 
to take more than that. It's going to take some money; it's 
going to take some action; and to our subcommittee, to our 
witnesses, you've really helped the cause of justifying a 
pushback against a budget cut that would be devastating. I know 
these are tough times. I want to rebuild the military but not 
by destroying the State Department. To the extent that we can 
reform the State Department and save money by being more 
efficient, modernize the State Department, count me in. But the 
tools in our toolbox would be dramatically diminished if the 29 
percent cut were enacted and quite frankly, we need to 
modernize our toolbox and that's going to take some 
transitional funding. The Institute of Peace is a good 
investment from my point of view. All of your organizations I 
know very well, IRI, NDI. Vin, you've done a great job being 
the chairman of the board of NED. $2.3 billion is a lot of 
money where I come from but in terms of the Federal budget, 
it's a very small amount in terms of what we get for it. It's a 
great return on investment, maybe one of the best in the entire 
Federal budget.
    Secretary Albright, thanks for coming. I know you're a busy 
lady. You could be almost anywhere in the world and that's true 
of all of you and I appreciate your coming here today. We'll 
take your counsel and advice and we'll try to work with 
administration to get a budget that recognizes who we are as a 
people, that soft power sometimes is not soft. That's a good 
way of saying it, Mr. Hadley. People representing our country 
in the State Department and other nongovernmental organizations 
are very much in danger. These four operating bases, these 
Provincial Reconstruction Teams that I visited in Iraq and 
Afghanistan are some of the most dangerous places you could be. 
They deserve our respect and our support as much as our men and 
women heroes of the military.
    I'd ask the subcommittee Members to submit questions for 
the record until Friday the 12th by 5 p.m.

                          SUBCOMMITTEE RECESS

    Senator Graham. We have two hearings coming up, May 23, on 
U.S. assistance for the Northern Triangle of Central America 
and June 13, the President's fiscal year 2018 budget request 
for the 150 account.
    Thank you all. The subcommittee is adjourned.
    [Whereupon, at 3:59 p.m., Tuesday, May 9, the subcommittee 
was recessed, to reconvene subject to the call of Chair.]


             TESTIMONY FROM DEMOCRACY PROGRAM BENEFICIARIES

                              ----------      


                            Al Tahreer 
    Prepared Statement of the Al-Tahreer Association for Development
                                                    April 24, 2017.
Rahman K Aljebouri, Senior Program Officer,
Middle East & North Africa,
National Endowment for Democracy (NED),
1025 F Street, NW, Suite 800,
Washington, DC 20004.

Dear Mr. Aljebouri,

    Altahreer Association for Development would like to thank NED 
(National Endowment for Democracy) for supporting its projects in 
institutional improvement, building democratic leadership, and policy 
making. Our cooperation with NED started about a decade ago through 
which we have worked on several activities to support peace and 
democracy in Iraq.
    After ISIS took over control in Mosul, our organization lost its 
office and most of its resources. At that time we were struggling to 
survive rather than helping the people in our affected society. NED's 
support gave us the hope to reestablish our work and grow bigger than 
before. Now, we have two licensed offices in Kurdistan region: Erbil 
and Dohuk from which we took initiatives in several ambitious projects. 
Throughout the past years and with the help from NED, we created 
partnerships with more than 7 other international organizations. In 
2013, our association was recognized by UNAMI (United Nations 
Assistance Mission for Iraq) as the best Iraqi NGO working in the field 
of human rights. In terms of building democratic leadership, our 
association has worked in several projects in the four governorates 
affected by ISIS, Nineveh, Saladin, Al Anbar, and Diyala. Our strategy 
in this regard includes four stages: observe youth leadership, attract 
them, engage them in workshops to improve their skills, and provide 
them with the support to take initiatives to help their societies. 
Following this strategy, our organization substantially helped in 
founding 15 volunteering groups who are actively working in the four 
governorates. In terms of policy making, we have held several 
conferences and workshops to gather the leaders of the society 
(professors, tribal leader . . . etc.) in Nineveh and other regions. In 
these conferences discussions are initiated with the Iraqi Federal 
Government and the international society through the embassies and 
UNAMl. Such activities were effective in making clear policy targeting 
peace in the society and rebuilding the trust between the government 
and the society and among people themselves. Our association have 
worked on several other projects while many more are still in our plan 
waiting for more support to start.
    We would like to show our gratitude to NED again. We could not have 
accomplished all of these successful projects without their financial 
and emotional support. ln the same time, we are looking for more 
support and cooperation between our organizations to build peace and 
democracy in our society.

            Best Regards,
                                  Abdalaziz Younis Aljarba,
                                                Executive Director.
                                 <greek-l>
                                 ______
                                 
                          Alasania Irakli deg.
 Prepared Statement of Ambassador Irakli Alasania, Former Minister of 
Defense of Georgia 2012-2014, and Mr. Shalva Shavgulidze, Former Member 
                        of Parliament 2011-2016
    Since Georgia got independence in 1991, myself and other likeminded 
people around me, have been tirelessly fighting for the democracy 
building in the country. After we saw that individual effort wasn't 
enough to save young democracy to fail, in 2009, I, along with my 
fellow friends established a political party Free Democrats, which till 
today continues to fight for the consolidation or democracy in Georgia. 
Since day one, IRI Georgia's support has been instrumental in 
developing party structure and its capacity to become a strong voice in 
Georgia's political life.
    Georgia had its first peaceful transfer of power in fall 2012 after 
parliamentary elections. But, the challenge of making Georgia a 
democratic state did not end there. In fact, it remains a work in 
progress and continues to have vast political polarization and 
democracy promotion remains as important now as it did then. Democracy 
doesn't happen overnight or even over a single election and transfer of 
power.
    Political culture in Georgia remains immature. Approximately 80 
percent of the voting Georgian population was born during Soviet rule 
and a large part of their lives spent in the communist system. To them 
it's not what they can do for political parties but what can parties--
usually financially--do for them. It's important for democracy 
promotion be there for the young generation but for them as well. 
Political parties in Georgia not only face the challenge of these 
voters, but also problems with fundraising and access to media.
    Georgia and its emerging democracy faces many challenges and no one 
would like to see it's democracy fail more than Russia. In the past 4 
years the country has seen a noticeable growth in the use of soft power 
and Russian propaganda and the first pro-Russian party of Alliance of 
Patriots being present in the new parliament. It is vital that pro-
democratic parties continue to strengthen and grow and that comes from 
the help of organizations like the International Republican Institute.
    In July 2016 when I was Chairman or the Free Democrats party, I had 
the opportunity to meet with [then] Secretary Kerry. We not only spoke 
about the upcoming parliamentary elections but also democracy promotion 
in Georgia. It was then I personally asked for increased financing or 
IRI (and NDI) in Georgia. The democratic process has started, but not 
yet finished we need intuitions like IRI to work with political parties 
to ensure the political environment is open and competitive. This is 
especially important when talking about political pluralism. In 2016 
the ruling party obtained almost 70 percent or all party donations. In 
order for others to continue to grow and develop it's of the utmost 
importance to have continued assistance from IRI and other democracy 
development institutes.

                                        Shalva Shavgulidze,
                                          Chairman, Free Democrats.
                                           Irakli Alasania,
         Founder, Chairman in 2009-2012, 2014-2017, Free Democrats.
                                 <greek-l>
                                 ______
                                 
                         Alexeeva Ludmilla deg.

          [From the Washington Post, Opinions, Feb. 24, 2016]

     IN RUSSIA, HUMAN RIGHTS GROUPS NEED WESTERN AID MORE THAN EVER

                         (By Ludmilla Alexeeva)

Ludmilla Alexeeva is chair and a founding member of the Moscow Helsinki 
        Group.

    This year marks the 25th anniversary of the collapse of the Soviet 
Union and the rebirth of Russia. One of the most remarkable features of 
that rebirth was the rapid creation, after 70 years of Soviet 
repression and atomization, of Russia's vast, vibrant and effective 
civil society. The history of the human rights movement in Russia is 
also the story of my life, because I was a dissident in the Soviet era 
and today proudly chair the Moscow Helsinki Group, the oldest human 
rights organization working in Russia.
    In the 1990s, our country was poor, and rights groups could find 
hardly any funding in Russia. We were fortunate to have Western donors 
who supported our work. Even as Russia got back on its feet, thanks 
largely to a dramatic rise in oil prices, it still wasn't easy to find 
financial assistance in Russia for human rights work. There were many 
reasons for this, not least of which was that potential donors did not 
want to risk the Kremlin's wrath by supporting potentially sensitive 
causes. And let's face it, human rights work can be sensitive.
    During Vladimir Putin's 15 years in power, the Kremlin has 
attempted to cast human rights values as alien to Russia--especially in 
the wake of events in Ukraine 2 years ago. Criticism of the government 
has come to equal disloyalty or, worse, treason. Under a law adopted in 
2012, more than 100 groups that receive even small amounts of foreign 
funding have been branded ``foreign agents''--which in Russia can only 
mean ``traitor.''
    It's not only that the Kremlin and state-controlled media have 
poisoned the public mind against independent groups in this way. There 
are also real legal consequences for leaders of civic groups, including 
up to 2 years in prison if they refuse to comply with the law. Dozens 
of groups are tied up in lawsuits with the government. Many have had to 
close. The Justice Ministry recently accused Memorial, a leading human 
rights organization, of using foreign funding to harm Russia and asked 
the Prosecutor General's Office to investigate.
    Another part of this anti-foreigner witch hunt was last year's law 
banning ``undesirable'' foreign organizations that supposedly undermine 
Russia's defense, security or constitutional order. But the real target 
is still Russians: Those of us with ties to these ``undesirables'' risk 
up to 6 years in prison. The aim is to isolate us and deepen the divide 
between Russia and the West.
    It wasn't long before Russian senators asked the Prosecutor 
General's Office to ban 12 organizations as ``undesirable.'' The list 
included donors who helped Russian groups get off the ground 25 years 
ago and remain a crucial source of support to this day. First the 
National Endowment for Democracy was banned, followed a few months 
later by the Open Society Foundations. The MacArthur Foundation and the 
Charles Stewart Mott Foundation were also on the list and decided to 
stop their Russia work, citing the increasingly hostile political 
climate. I could not have been sadder. These foundations had done so 
much to help my country.
    Now only a pitifully small number of donors remain willing to 
continue funding human rights work in Russia. It's easy to understand 
that. All donors want to see results from their investments, but what 
results can be expected here, when a new kind of iron curtain seems to 
be lowering? Who wants it on their conscience if the leader of a group 
they are supporting is imprisoned, or worse?
    Several years ago, my organization stopped accepting foreign 
funding because I felt I couldn't ask my team to take the risks that 
came with the label of ``foreign agent.'' But I fully support my 
colleagues in the human rights movement who have courageously withstood 
the legal and political onslaught.
    I don't have answers to the hard questions. But I refuse to abandon 
hope.
    So do the hundreds of activists who are putting everything on the 
line--their freedom, their families--to continue human rights work in 
Russia. They're fighting for the values that attracted Western aid in 
the first place. Donors need to find ways to support them. Surely they 
have faced bigger challenges elsewhere in the world. Surely the project 
of defending freedom in Russia is worth pursuing while there are 
Russians willing to stand up for it.
    At a meeting a few months ago, I asked Putin directly to repeal the 
ugly ``foreign agents'' law. I told him that the government should not 
accuse us of something for which we are not guilty. He has not yet 
acted on my request. Call me foolish, but I can still hope. If I were 
to meet today with all the Western donors who have invested in human 
rights in Russia, I would praise them for the confidence they had in us 
25 years ago, at the hopeful beginning, and plead with them not to 
abandon their Russian partners now that the going has gotten tough.

Read more on this topic:

The Post's View: Russia cracks down on an important voice for human 
rights

Carl Gershman : Russia's crackdown on civil society shows the regime's 
weakness

Vladislav Inozemtsev: Putin's self-destructing economy
                                 ______
                                 
                           Aljazeera America
http://america.aljazeera.com/opinions/2015/8/russians-exiled-back-to-
the-kitchen.html

                  RUSSIANS EXILED BACK TO THE KITCHEN

The Kremlin is trying to create a paternalistic relationship between 
        the state and its citizens

August 19, 2015 2:00AM ET

                       (by Svetlana Gannushkina)

    On July 28, Russia designated the National Endowment for Democracy, 
a Washington-based nonprofit, which has supported human rights and 
civil society groups in the country, as ``undesirable'' and banned it.
    The clampdown is reminiscent of life before the fall of communism. 
In the Soviet era, the kitchen was considered a safe place to 
congregate, speak freely and exchange ideas away from prying neighbors 
and without fear of reprisal. The ongoing crackdown on pro-democracy 
groups may force Russians back into the kitchen.
    Relations between the Russian Government and the people are 
strained amid a growing sense of mistrust. Local nongovernmental 
organizations are being deemed ``foreign agents'' and their 
international sponsors are seen as ``undesirable.''
    ``The activities of the foundation present a threat to the 
constitutional order, national defense and security,'' the Prosecutor 
General's office said in the statement announcing NED's ban. But what 
exactly are these activities that pose such a grave threat to Russia?
    I am grateful to NED, which over the last decade has supported my 
work at the Civic Assistance Committee (CAC) and Memorial Human Rights 
Center. Both centers provide legal and social assistance to refugees, 
asylum seekers and migrants. NED has also provided partial support to 
CAC's Education Project, which aims to prepare migrants for exams in 
Russian language and history and to improve access to education for the 
children of migrants. Learning the national language and adapting to a 
new society poses no threat to Russia. And the Russian courts have 
affirmed that children of migrants should have unfettered access to 
education.
    On June 15, a District Court in Tver, Russia, ruled in favor of two 
children who had been excluded from school because they were 
undocumented, arguing the schools' mandate is to educate children, not 
to check their immigration status. On Aug. 10, the Ministry of 
Education finally concurred that schools must enroll children 
regardless of their immigration status. (Both suits were brought by CAC 
on behalf of the plaintiffs.)
    At the same time, we are also fighting the government's proposed 
eviction of CAC's center for adaptation and education of refugee 
children from its premises in Moscow.
    NED has sustained our education work for many years. But without 
funding, we will have to rely on volunteers to continue this work. NED 
has also provided funding for CAC's anticorruption project, which 
produced expert analysis on existing and draft laws' potential for 
corruption. Russian enemies would probably want to see corruption 
spread across the country, but NED has supported efforts to fight it 
using Russia's own anti-corruption law. Had the project's 
recommendations threatened Russia's national security interests, CAC 
would not have received a state-funded presidential grant to pursue the 
same goals.
    Russian authorities believe that if foreign organizations are 
financing the activities of Russian nonprofits, the financiers control 
the content and the outcome of the projects.
    At the root of the current crackdown is control. Russian 
authorities wish to create a paternalistic relationship between the 
government and its citizens. As in the Soviet times, they want to 
ensure that the people are dependent on those in power. If citizens see 
the state as feeding them and caring for them, they will come to 
recognize its ability to give or take away those benefits at will.
    He who pays the piper, orders the tune, Russian President Vladimir 
Putin and other government officials have repeatedly said regarding 
foreign funding of human rights groups. The recent clamp down on local 
NGOs and their foreign backers is simply an extension of this logic. In 
other words, Russian authorities believe that if foreign organizations 
are financing the activities of Russian nonprofits, the financiers 
control the content and the outcome of the projects. Perhaps their view 
of Russian civil society's autonomy is rooted in the authorities own 
behavior. Putin's administration finances organizations that engage in 
pro-government propaganda, such as Nashi and the anti-Maidan movement.
    It is disingenuous and disheartening to suggest that foreign actors 
would buy off Russian human rights activists for 30 pieces of silver. I 
come from a family with a long history of serving Russia and its 
people. My grandfather, Peter Gannushkin, was a famous psychiatrist, 
who lectured in Europe and could have easily emigrated after the 
revolution. But he chose to stay and dedicated his life to treating 
patients and teaching students, irrespective of political positions.
    My grandmother's brother, Evgenii Klumov, was also a doctor and 
went to treat chronic diseases in Belarus under difficult conditions 
during World War II. He remained in his post during the German 
occupation and helped the partisans, risking his life. Toward the wars 
end, the retreating Germans shot him and his wife after he refused to 
flee with them. In February 1944, he was posthumously awarded the order 
``Hero of the Soviet Union,'' the highest honor bestowed by the Soviet 
state. My father built Tupolev airplanes and was awarded a government 
prize. The rest of my family did not receive such honors, but they too 
taught, treated, built and defended this country.
    This is true for many of my colleagues within the Russian human 
rights community. Ultimately, the state's harassment and intimidation 
will not stop our work. We will have to restructure some aspects of our 
advocacy, but we will endure. Some Russians may go back to the kitchen 
and work there. We cannot. Right now 60 migrants and asylum seekers, 
who need urgent services, are waiting for me in the corridor. And they 
will not fit in my kitchen.

    Svetlana Gannushkina is a mathematician and human rights activist 
in Russia. She is chair of the Civic Assistance Committee, director of 
Memorial's Migration Rights Network and has been nominated for the 
Nobel Peace Prize.

    The views expressed in this article are the author's own and do not 
necessarily reflect Al Jazeera America's editorial policy.
                                 <greek-l>
                                 ______
                                 
                     Allahdad Sharifa Shirzad deg.
Prepared Statement of Ms. Sharifa Shirzad Allahdad, Provincial Council 
                  Member, Kabul Province, Afghanistan
    I have an interesting trajectory in my career in social work and 
politics. During the time of the Taliban, when I was only 13, I ran 32 
home-based classrooms in my neighborhood in the western part of Kabul 
city. Years later, as the head of Turkmen Valley Youth Association of 
Ghorband District of Parwan province, I knew that it would be very 
difficult to educate myself and run for the Provincial Council 
elections in 2009. I truly gained a lot of skills from the Campaign 
School that NDI held in the lead up to those Provincial Councils 
elections. I am here now as a member of the Provincial Council because 
of the Institute's workshops and conferences. I remember how the 
techniques and skills that I learned from workshops and conferences 
helped me to compete against very strong rivals in my district.
    When I was elected to the Kabul Provincial Council, I felt that I 
entered into a highly important role to serve my people. Every day, I 
learn more about politicians, civil society organizations, governance 
trends and challenges. Being in politics is not easy, particularly for 
women in my country, but I always keep in mind the people that 
supported and voted for me.
    I am grateful to the international community--specifically, very 
thankful to the U.S. Government and its partners such as NDI--for 
supporting Afghan women. I am particularly grateful for their technical 
support and training programs on women's participation in political 
process--for instance, for parliamentary elections, provincial council 
elections and special quotas for women in provincial councils and 
parliament. NDI provided training sessions and workshops impartially 
and equally to all candidates, both independent and from political 
parties. I often think that if there was no international community 
support and if the women's quota was not brought up by the 
international community, what would we have to allow a minimal level of 
involvement in politics? What would be the condition of women in 
politics in Afghanistan?
    After the fall of the Taliban regime in 2001, the international 
community--and particularly the intervention of U.S. Government 
assistance--was a good thing towards positive change in our society. 
The assistance brought many changes in all sectors throughout the 
entire country including education, human rights, the economy and 
economic opportunities for women. But I wished to see how to better 
harmonize the efforts of both the Afghan Government and international 
community, and how to keep these sustainable. To support transparency 
and ensure that international aid for development is not wasted, I 
request that the international community have strict policies for 
evaluation and monitoring. I also request that the international 
community, especially the U.S. Government, assist in maintaining 
security in our country. Security helps us succeed in our development 
and rehabilitation efforts.
    The international community should continue to support democracy in 
this country. We are still facing a lot of obstacles, and I am 
concerned about the upcoming parliamentary elections. There are still 
major gaps to fill to support women in Afghanistan. The international 
community should continue to help women gain skills and knowledge and 
strengthen their voices.
                                 <greek-l>
                                 ______
                                 
                          Bakradze David deg.
Prepared Statement of His Excellency David Bakradze, The Ambassador of 
                      Georgia to the United States
    The International Republican Institute has been actively engaged 
with Georgia since 1998 supporting its democratic development by 
vigorously improving Georgia's democratic institutions, and helping 
create a multiparty democratic environment in Georgia. IRI has also 
helped to substantially level the playing field for elections through 
bolstering local and regional institutions in Georgia. IRI's engagement 
in developing a multiparty democracy, supporting the improvement of the 
electoral process and increasing the involvement of women and youth in 
ongoing political processes has been indispensable.
    Today, Georgia's democratic development serves as an exemplar to 
the region and the world. The Georgian people are the main heroes of 
this story--making hard sacrifices and committing to a constructive 
path for the future--but American support through IRI and other 
organizations is crucial to our success. IRI's strong involvement with 
Georgia throughout the years demonstrates the organization's vital 
importance to creating a long-lasting tradition of democracy and 
responsible governance in Georgia.
    More specifically, in terms of helping develop multi-party 
democracy, IRI maintains strong relations with all major political 
parties and supports them as they develop their regional party 
structures, build and improve their intra-party democracy, and enhance 
the professional skills of their members. Furthermore, IRI develops 
training modules, conducts trainings/seminars, and provides technical 
support according to the individual needs of parties. In addition, IRI 
helps candidates prepare for elections by providing trainings on 
election campaigning, media relations, public speaking, door-to-door 
campaigning, and also supports the elected officials by providing them 
information on their duties and responsibilities.
    In support of improving electoral processes, IRI has been crucial 
in monitoring elections in Georgia through an international election 
observation mission, and providing recommendations to the government on 
the improvement of the existing electoral system. Furthermore, IRI 
conducts the training of trainers on electoral issues in order to 
prepare party trainers, who later train their respective party 
representatives for elections. The IRI-trained trainers taught around 
55,000 party observers and representatives throughout Georgia for the 
most recent 2016 parliamentary elections. Through these activities, IRI 
supports the improvement of the entire electoral process in Georgia. 
IRI also has deployed short-term international observation missions for 
the 2013 Presidential election, both rounds of the 2014 local elections 
and international long and short-term observation missions for both 
rounds of the 2012 and 2016 parliamentary elections. These efforts have 
helped share tangible proof of Georgia's improvement with the wider 
world.
    Additionally, IRI's work with youth and women to help them develop 
policy awareness and strengthen their positions in party structures is 
of enormous importance. Specifically, the goal of IRI's women's 
programming to support women's participation in politics and their 
development as political decision-makers. This program empowers and 
strengthens the party women organizations, enhances their skills 
necessary to propose and lobby for measures that will altogether 
increase women's participation in national parliament and in local 
councils. Furthermore, IRI supports Georgia's youth by organizing TV 
debates in which all major party youth members participate and debate 
various important issues. Many of the debate alumni have become active 
politicians and have successfully run for parliament.
    IRI's work around the world is not just a noble endeavor to bring 
the best practices of democracy to some societies while helping other 
young democracies stand strong on their feet, create their own history 
of democratic development, and flourish and progress toward a better 
future. In fact, IRI's engagement with Georgia has long surpassed that 
initial phase, and has become critical for Georgia's democratic 
consolidation--a strategic imperative for the Georgian Government and 
nation. Georgia's substantial democratic achievements that stand out in 
the region and beyond may be partially attributed to IRI's active 
promotion of democracy in Georgia.
    In view of the considerable impact produced by the activities of 
IRI in Georgia for almost two decades, we believe all Americans should 
be proud of the hallmark work done by this organization in the country. 
IRI's efforts proved to be significant for overall change, and made a 
key difference by helping domestic political parties broaden their 
appeal; and by assisting Georgia's thriving civil society to ensure 
responsive governance by imparting global knowledge and experiences. We 
fully expect that IRI will be able to continue its work to strengthen 
democratic institutions and political parties in an impartial and 
balanced manner.
                                 ______
                                 
       Prepared Statement of the Bougainville Women's Federation
                                                    April 21, 2017.

Ms Madeleine Albright Chairperson,
National Democratic Institute.

Re:  Democracy assistance in the Autonomous Region of Bougainville, 
Papua New Guinea

    In mid-2015 the Bougainville Women's Federation was a recipient of 
financial and technical support from the United States Agency for 
International Development to mount a citizen-led, region-wide, 
nonpartisan election observation project. Through USAID's development 
partners, IFES and the National Democratic Institute, BWF gained 
valuable know-how for strategic, operational, and systematic deployment 
of an election observation effort.
    Held in May for the election of the region's president and members 
of the House of Representative, BWF deployed 62 male and female long-
term and short-term observers in 29 of the 31 constituencies. They 
observed the campaign and 2 of the week-long polling days, which 
covered 136 polling events that yielded close to 1,000 voting day 
reports.
    In those elections, BWF and partners IFES and NDI made several 
recommendations to improve voter registration and verification 
processes, voter education, candidate nominations, political campaign, 
accounting of political and electoral finance, and the conduct of the 
voting and counting, etc.
    As this is written the candidate nomination process for the PNG 
National Election has started here in Buka. Yours truly was reminded of 
the good work we had done with our partners back in 2015. BWF is 
currently rolling out the voter education program picking up from the 
outcomes of election observation in 2015. Communities are speaking 
highly of this awareness as most of them particularly those living in 
the very remote areas of Bougainville. In past they did not know the 
importance of elections and choosing a good leaders. Most importantly 
they now understand the secrecy of voting and their democratic rights 
to vote for whom they think fit. In the past the head of the family 
makes the decision for the family.
    BWF has skilled community trainers in the 43 community government. 
Because of multiple elections occurring in Papua New Guinea and the 
Autonomous Region of Bougainville, it is very important for the people 
of Bougainville to fully understand the election processes to ensure 
the importance of maintaining the integrity, transparency and 
legitimacy of the process is well understood by voters, particularly 
those who missed out in formal education.
    Election observation has also increased BWF's awareness of the 
political and electoral environments and has supported the federation's 
strong, albeit nonpartisan, push for the involvement of women in 
politics and governance.
    To conclude the observation paved a way by creating a foundation 
for the organization and those who participated particularly the youths 
whom we continue to engage in community awareness, becoming polling 
officials and recognising their potential leadership skills back in the 
village.
    The voter education has also created a good and respectful working 
relationship with the OBEC and the community leaders.
    Thank you again NDI for your support.

            Very sincerely yours,
                                             Barbara Tanne,
                                                 Executive Manager.
                                 <greek-l>
                                 ______
                                 
                           Butora Martin deg.
         Prepared Statement of Ambassador (Ret.) Martin Butora

  (Advisor to the President of the Slovak Republic Andrej Kiska (from 
2014); Slovak Ambassador to the U.S. (1999-2003); Advisor to President 
    Vaclav Havel (1990-1992); Co-founder of Public Against Violence 
                      movement in Slovakia (1989))

                                        Bratislava, April 28, 2017.

 Democracy at Risk: The Need for U.S. Re-Engagement in Central Europe 
  and its Eastern Neighborhood and the Role of National Endowment for 
                               Democracy

Dear Senators, members of the subcommittee,

    Let me express my appreciation for having an opportunity to share 
my thoughts and perspective on the importance of continued U.S. 
involvement in coping with both external and internal threats to 
democracy.
    We live in times when threats to Western-style democracy are in 
peril worldwide. The causes for it are multiple, often mutually 
intertwined. The rise of populist anti-establishment, anti-American, 
anti-EU political forces in Europe and elsewhere; attacks on 
international rule based order and Euro-Atlantic democratic community 
by Russia's destabilizing policies; resurgence of nationalism and 
growing skepticism towards globalization; the increase of conspiracy 
theories; the upsurge of ``post-truth era''; decline of trust to 
mainstream media.
    It is not only times of ``liquid modernity'' as well as times of 
``liquid anger''--it is also an era of liquid uncertainties, liquid 
fears. During the Cold War, the world has been facing a horrible 
threat--cataclysm caused by devastating effects of nuclear war. Though 
such an outlook was desperate, the danger was evident, understandable, 
and one-dimensional. Today, growing pile of troubles is scattered, 
dispersed and disseminated in various forms, various dangers, pains, 
disturbances, in different and numerous failures, declines, 
regressions.
    All in all, we seem to live in a period when democracy experiences 
``a sinking wave''. Declining trust in democratic procedures and 
institutions is not only a threat to vitality of democracy as ``the 
only game in town''--it can have serious security consequences.
    In this situation, besides domestic efforts to cope with these 
challenges, for pro-Western democratic actors in Europe and its 
neighborhood a revitalized partnership with U.S. players and 
institutions is of critical importance. In this context, democracy 
assistance is not about ``regime change''--rather, it is about 
promoting and sustaining democratic rule as a crucial pillar, defense 
and guard against authoritarian temptations, ``populist Zeitgeist'' and 
widespread Russian interference.
    National Endowment for Democracy has a long history of providing 
such assistance. In the period of resistance--and I limit myself only 
to help offered to Czechoslovakia, and later, Slovakia--NED was a 
supporter to Charter 77 and the Czech and Slovak dissidents and human 
rights activists, to initiatives publishing samizdats. In 1989, the 
``year of miracles'' and shortly afterwards, NED, through National 
Democratic Institute and International Republican Institute, supported 
the successful efforts of Civic Forum and Public Against Violence in 
the first free elections. In the following years of building democracy, 
NED supported initiatives and projects that have been carrying ideas 
and legacy of Vaclav Havel, such as People in Need or Forum 2000.
    NED has been helping Slovakia in its road to democracy in the 90s 
when local NGOs entered struggle against the non-democratic practices 
of then Prime Minister Vladimir Meciar and his government. With the 
parliamentary elections in September 1998, a platform of NGOs launched 
the civic campaign known as OK 1998 to increase citizens' awareness 
about the elections, to encourage them to vote and to guarantee a fair 
ballot through independent civic supervision. Dozens of NGOs organized 
educational projects, cultural events, concerts, and discussion forums 
and issued publications, video-clips and films. Hundreds of volunteers 
across the country attracted thousands of concerned citizens to 
election-related events. In this period, NED supported many of the 
first and leading Slovak NGOs and think tanks in the 1990s, like the 
Milan Simecka Foundation, Institute for Public Affairs, People and 
Water, Pontis, MEMO 98, Civic Eye, and lots of others. The campaign 
contributed to the record 84 percent turnout, and the Meciar's cabinet 
was ousted. NED was the crucial funder of the ``Rock the Vote'' and 
associated civic campaigns around the 1998 and 2002 elections.
    In the following years, NED helped NGOs like Pontis, People in 
Peril, and others to carry out their crossborder programs in the 
Balkans, Belarus, etc. aimed at sharing successful Slovak experiences 
with our partners abroad. These programs continued with INEKO, MESA 10, 
and others.
    After 2005, when Slovakia ``has matured'' and projects inside the 
country could not be supported, NED has involved Slovak NGOs in 
regional programs. NDI has conducted a regional Roma program that 
included Slovakia and had a Slovak office.
    During the next period, after the Maidan protests and Russia's 
invasion of Ukraine, NED began reengaging in Central Europe to monitor, 
spotlight and counter internal (political polarization, extremism, 
corruption) and external challenges (Russian disinformation and 
influence) to the democratic gains made after 1989. This work is being 
done on a regional basis and includes Slovak partners such as Institute 
for Public Affairs and Globsec. NED support Globsec's ``Information War 
Monitor for Central Europe'' and other programs against Russian 
disinformation.

------

    Over the last three decades, civil society in Slovakia has created 
a uniquely rich, diverse and flexible network of forms, organizational 
schemes, initiatives and ideas, which have moved society forward. It 
has built up an intellectual foundation for societal reforms, provided 
a mechanism for control of power, helped the country to become a part 
of democratic Euro-Atlantic community, defended the interests of 
various groups of citizens, offered useful services, joined in 
resolving environmental, social and health problems and reacted to the 
needs of communities, towns and regions of Slovakia. Despite a 
complicated heritage of undemocratic conditions, backwardness and 
discontinuity, civic actors and volunteers managed to engage and 
motivate a broader public because they offered understandable, 
acceptable concepts of freedom, solidarity and activism, which were in 
line with democratic modernization and which broke down the prevailing 
ethos of civic helplessness, as well as the tendency toward preferring 
the promotion of individual interests instead of the public good. They 
have exhibited an outstanding ability to weave together meaningful 
activities, engage in social campaigns, find ways to help socially 
excluded groups, engage local elites in useful, pro-social activities 
in many fields and find support for all of it both at home and abroad. 
They have expanded social capital and improved the quality of life in 
Slovakia. And in spite of persistent troubles with financial 
sustainability, they present an important and influential voice in 
current struggle to preserve democratic order in Slovakia, to avoid 
backlash, to challenge populist and autocratic tendencies in some other 
Central European countries. It is also thanks to Slovakia's civil 
society that the country is doing relatively well in recent Freedom 
House report monitoring decline of freedom.
    And it is beyond any doubt that this was possible also with the 
help from abroad and assistance provided by National Endowment for 
Democracy.

------

Dear Senators,

    In July 2009, a group of Central and Eastern European public 
figures, including former presidents Valdas Adamkus, Emil 
Constantinescu, Vaclav Havel, Michal Kovac, Alexander Kwasniewski, 
Vaira Vike-Freiberga and Lech Walesa, wrote an open letter to the Obama 
administration.
    They--or allow me to say ``we'', as I belonged to 22 signatories of 
this letter--expressed our gratitude to our American friends: ``U.S. 
engagement and support was essential for the success of our democratic 
transitions after the Iron Curtain fell twenty years ago. Without 
Washington's vision and leadership, it is doubtful that we would be in 
NATO and even the EU today.'' We also added, that our nations ``have 
worked to reciprocate and make this relationship a two-way street'', 
been engaged alongside the United States: ``We have been among your 
strongest supporters when it comes to promoting democracy and human 
rights around the world.''
    However, the letter continued, ``twenty years after the end of the 
Cold War, we see that Central and Eastern European countries are no 
longer at the heart of American foreign policy. Indeed, at times we 
have the impression that many American officials have now concluded 
that our region is fixed once and for all. Many on both sides assume 
that the region's transatlantic orientation, as well as its stability 
and prosperity, would last forever. That view is premature. Central and 
Eastern Europe is at a political crossroads and today there is a 
growing sense of nervousness in the region. The current political and 
economic turmoil and the fallout from the global economic crisis 
provide additional opportunities for the forces of nationalism, 
extremism, populism, and anti-Semitism across the continent but also in 
some our countries.''
    The letter also expressed worries about Russia: ``Our hopes that 
relations with Russia would improve and that Moscow would finally fully 
accept our complete sovereignty and independence after joining NATO and 
the EU have not been fulfilled. Instead, Russia is back as a 
revisionist power pursuing a 19th-century agenda with 21st-century 
tactics and methods. Vis-a-vis our nations, it increasingly acts as a 
revisionist one. It uses overt and covert means of economic warfare, 
ranging from energy blockades and politically motivated investments to 
bribery and media manipulation in order to advance its interests and to 
challenge the transatlantic orientation of Central and Eastern 
Europe.''
    At that time, arguments did not find fertile grounds and our 
recommendations remained unaccomplished. The policy of reset prevailed.
    Five years after this letter, in 2014, Russia annexed Crimea, 
expanded its propaganda, involved intelligence services in influencing 
politics in other countries. And we all see the current scope of 
Russia's actions and policies to undermine Western democracies. An 
attack on one is an attack on all``--this rule should be applied in 
coping with this threat.
    And a part of developing a stronger transatlantic response to 
Russian interference in democracy is to support activities of NED.
                                 ______
                                 
        Prepared Statement of the Cambodia National Rescue Party
    If Americans seek to effectively drive resources towards its 
values, there are few better avenues than direct assistance to 
democratic actors abroad. The case of Cambodia clearly demonstrates 
that U.S. democracy assistance actualizes American democratic values in 
concrete terms. Relatively small investments in technical projects, 
like election observation or political party training, have 
disproportionately significant outcomes in the integrity of democratic 
processes abroad.
    Since the early 1990s, Cambodians have tirelessly advocated for 
their democracy. Political activists, labor unions and civil society 
organizations have ensured our budding democratic system has remained 
intact despite decades of increasingly autocratic leadership. Our 
determination has endured against great odds, though the country now 
faces a crucial test: the 2018 national election.
    The election is the first legislative poll since 2013, when the 
ruling Cambodian People's Party was nearly unseated by the opposition 
Cambodia National Rescue Party, the party I now lead. The votes came 
within a historically close margin, and mass protest followed 
revelations that the election may have been fixed. The revelation was 
the direct result of civil society's diligent election observation 
efforts, efforts that may have been impossible without United States 
support. The technical and material assistance provided by USAID 
empowered Cambodians to identify irregularities in their electoral 
process. It empowered Cambodians with reliable evidence and renewed 
conviction that their democracy can serve them better.
    U.S. assistance has strengthened Cambodian activists and 
organizations far beyond election cycles. Through organizations like 
NDI, U.S.-supported programming has maintained a critical momentum 
behind civic engagement efforts. Trainings for party officials and 
candidates from less represented groups, particularly women and youth, 
have prepared hundreds for political leadership in our emerging 
democracy. Most recently, NDl's direct campaign consultations with 
Cambodian political parties have not only improved the CNRP's voter 
contact strategy; each has strengthened the integrity of the multi-
party process.
    In a global environment in which democratic values are increasingly 
under threat, U.S. democracy assistance has never been more critical to 
the actors benefiting from it. The resilience of Cambodian 
organizations and their global peers depend on it.

    [This statement was submitted by Kem Sokha, President.]
                                 ______
                                 
        Prepared Statement of the Cambodia National Rescue Party
    Since 1992, NDI has greatly contributed to the democratization of 
Cambodia with its training programs centered on four important 
components of a system of democratic governance:
                      political party development
    The work NDI did was particularly relevant as for more than half a 
century, Cambodian politicians and people had known only one-party and 
autocratic systems of government. The concept of rule of law was 
totally alien to most Cambodians, they had been so used to the rule of 
violence. What has helped our Party the most over the 20+ years that it 
grew up to become the main and only opposition party in Parliament, is 
NDI's party organization programs such as its Training Program on Women 
and Youth Caucuses and on Party Integrity.
                        free and fair elections
    In a former communist country where oppression and intimidation of 
the population are still widespread, the mere presence of U.S.-based 
organizations such as NDI has been essential in progressively 
encouraging voters, candidates and other players to exercise their 
rights to free and fair elections. NDI's Civic Education on Elections 
Programs and Candidate Debate Programs succeeded in allowing many 
people to better understand the importance of free and fair elections. 
Other activities of NDI such as its Electoral Monitoring or its Voter 
Registration Audits \1\ brought to light fraudulent practices on voting 
day or during the voter registration period respectively.
---------------------------------------------------------------------------
    \1\ Four Voter Registration Audits were conducted in the local 
elections of 2007 and 2017, and in the national elections of 2008 and 
2013.
---------------------------------------------------------------------------
                            decentralization
    NDI convinced our party leadership that our party would be more 
efficient if leaders at each level of the organization were elected by 
their grassroots members and responsible for their own budget. As a 
result of the process of internal decentralization that started in 
2004, our party today is decentralized by province, each province being 
totally autonomous even on important issues such as leaders/candidates 
selection, fund-raising and budget spending.
    In parallel to party internal decentralization, and as our party 
started being represented in locally-elected councils from 2002 on, NDI 
offered training programs on Strengthening Local Governments.
                             accountability
    A very helpful program of NDI was the Constituency Dialogue 
Program, that created from 2004 to 2015, a range of opportunities for 
elected Members of Parliament to directly listen to and interact with 
their constituents. Most of the 340 such Constituency Dialogues 
organized in 12 provinces were radio broadcast nationwide. Given the de 
facto monopoly of the ruling party over Cambodia's mass media, this 
kind of program is important in terms of making the playing field more 
even.
    Overall, the role played by NDI since 1992 as seen by one of the 
most active stakeholders, has been of utmost importance for promoting 
democracy in Cambodia.

    [This statement was submitted by TIOULONG Saumura (Ms), MP, Vice-
chair of the Committee on Foreign Relations of the National Assembly of 
the Kingdom of Cambodia.]
                                 ______
                                 
    Prepared Statement of the Center for Democracy and Human Rights
    I founded Center for Democracy and Human Rights (CEDEM) sometime in 
the end of 1997 when Milosevic's regime had still firmly been in place 
in the former federation of Serbia of Montenegro (``Federal Republic of 
Yugoslavia''). CEDEM actually was the first think tank established in 
Montenegro and was a kind of experiment at the time. Our goal was to 
create an institute for promoting democracy in the country whose regime 
was in fundamental conflict with democratic values. The situation in 
Montenegro was complicated and dangerous as its government had just 
been broken with Milosevic and had to manouver on the brink of the 
potential conflict.
    Until the mid-1998 we struggled in financing our projects. Than our 
contacts with NED completely turned the situation in favor of CEDEM's 
future work. NED decided to support some of our key projects and it was 
a decisive breakthrough for the CEDEM's mission. From that moment on 
CEDEM established itself as the most serious think tank in the country 
for decades to come.
    NED also opened an avenue for CEDEM to the World Movement of 
Democracy and thus CEDEM became one of its founding organizations. It 
connected us with most active democracy defending organizations not 
only in the Central and Eastern Europe, but also in different part of 
the world. Later on CEDEM developed its division for public opinion 
surveys that by time became the most reliable one in the country and 
proved it in many elections in the 1990s and 2000s. It was possible 
only by building on the solid base previously established by NED 
staunch support.
    One of the most important moments in CEDEM's cooperation with NED 
was the support provided to Serbian civil society organizations and 
political activists in resisting Milosevic regime after NATO 
intervention in the FRY in 1999. We have always been proud for at least 
a small contribution in depriving Serbia and our region of Milosevic's 
authoritarian regime.
    After accepted to serve as Montenegrin ambassador to the U.S. in 
2010 I had to quit my work in CEDEM and the same is today when I'm 
serving as the nation's foreign minister. But, when remembering my days 
in CEDEM I always have in mind that we could have never gonna make it 
without substantial role NED played in our work. It is what have made 
me and my former colleagues in CEDEM, NED's friends forever.

    [This statement was submitted by Prof. Dr. Srdjan Darmanovic, 
Minister of Foreign Affairs of Montenegro.]
                                 ______
                                 
    Prepared Statement of the Center for Research, Transparency and 
                         Accountability (CRTA)
    After more than 15 years of democratic transition, Serbia is still 
an emerging, fledgling democracy. With the lack of democratic culture, 
unestablished system of checks and balances, and floundering oversight 
and accountability institutions, the concentrated executive power 
continues to pervade and influence all segments of society, remaining 
out of the reach of public scrutiny and engagement. In such an 
environment the space for growth and spreading of undemocratic and 
authoritarian tendencies remains open, posing a serious threat of 
democratic reversals in the country.
    While the path of democratic change is not linear and easy one, it 
requires a strong effort, commitment and persistence, and openness to 
learning from developed democratic societies and challenges they 
stumbled upon on their democratic path. Democratic assistance and 
partnerships are of the utmost importance in supporting the democratic 
development through maintaining achieved stability and improving the 
quality of democratic processes.
    Being an active civil society advocates committed to strengthening 
democratic processes and opening up the institutions in Serbia's 
volatile and turbulent political environment, we at the Center for 
Research, Transparency and Accountability (CRTA) are well aware of the 
importance of democratic assistance in bringing the knowledge, tools 
and mechanisms that help establish the building blocks of democracy. 
Support from the National Democratic Institute proved to be invaluable 
in raising our understanding of how democracy works in practice, as 
well as capacities to utilize the best models and approaches for 
influencing democratic changes. In a situation where citizens continue 
to lose trust in institutions and lack opportunities to engage and act 
as agents of change, the most recent National Democratic Institute's 
support to CRTA's election observation mission Citizens on Watch was 
crucial in safeguarding the integrity and democratic character of the 
elections, and protecting citizens' voting rights. It proved that 
democratic assistance provides a critical framework for advancement and 
promotion of core democratic values and principles, particularly in an 
environment where the potential for regression rises with many 
challenges to democracy.
    While we need to act now towards furthering democratic progress 
that would yield long-term benefits for generations to come, the 
democratic assistance and support through the transfer of know-how, 
best practice models and examples will be crucial for strengthening the 
rule of law and democratic governance, and building the democratic 
culture in which citizens are free, have the power to engage and fully 
exercise their democratic rights.
    As there is no magic wand to pave the way to democracy, partnership 
with true friends of democracy certainly brings an optimistic prospects 
on our journey to establish the democratic culture in Serbia. 
Recognizing that democratic transition is long and demanding process, 
we hope that our partners will stand by our side in our commitment to 
bring about a self-supported and self-respected democracy to Serbia, as 
the National Democratic Institute has done with true dedication in 
previous years. We believe that only through sincere partnerships, 
mutual learning and flow of knowledge in both directions would we be 
able to make Serbia more receptive to democratic change and allow 
democracy to thrive.

    [This statement was submitted by Vukosava Crnjanski, CRTA 
Director.]
                                 ______
                                 
           Prepared Statement of China Aid in Support of NED
                                                    April 17, 2017.

Dear Honorable Members of the Senate State, Foreign Operations 
Subcommittee, 

    As a NED grantee for the past decade, China Aid can testify with 
absolute confidence that the continuing U.S. assistance through the 
funding effort of the NED is critical to our work and to advancing 
democratic values, religious freedom, and access to justice in China.
    The NED grant has enabled and empowered us to advance religious 
freedom and rule of law in China by taking up cases for legal defense, 
engaging rule of law (ROL) trainings to grassroots leaders and 
cultivating a new generation of Chinese human rights lawyers.
    As a result of our NED funded projects on rule of law training and 
legal defense support in the past 10 years, we have fostered a number 
of positive changes:

  --We have helped many people and groups with legal representation, 
        including secular human rights activists and Chinese religious 
        believers of every sort (and, recently, members of government 
        sanctioned religious groups). We now receive increasing numbers 
        of reports of persecution and other rule of law violations from 
        China, along with requests for legal assistance for persecution 
        victims.
  --We have played a key role in persuading, training, protecting and 
        supporting members of the Chinese bar who handle human rights 
        cases. Besides the Weiquan lawyers of ``Gao Zhisheng'' 
        generation, more and more younger human rights lawyers and 
        defenders are emerging inside China such as Wang Jun, Chen 
        Tianshi, Lin Qilei, Ms Xiao Guozhen and Zhang Kai in Beijing, 
        Si Weijiang in Shanghai, Liu Weiguo in Shandong and Sui Muqing, 
        Chen Wuquan in Guangdong. We work with and support others like 
        them.
  --We have learned to take up cases in the earliest stages of 
        development--and often can do so because we have sources of 
        information regarding persecution developments at region, 
        village and area levels.
  --More and more international and domestic media outlets are 
        interested in exposing religious and pro-democracy cases, and 
        we regularly provide information to them--and to Congress and 
        the U.S. Government--about these cases.

    As the conditions on religious freedom, rule of law and human 
rights have deteriorated since President Xi Jinping took power, more 
than ever, Chinese rights defenders and citizens are counting on the 
United States to back their bold efforts in defense of these universal 
democratic values that we hold so dear. Whether China cherishes or 
despises these values will determine the security of our children and 
grandchildren in the 21st century. For this reason, democracy 
assistance should be treated as a critical component of U.S. national 
security interests. Thank you.

    [This statement was submitted by Bob Fu, Founder and President of 
China Aid.]
                                 ______
                                 
  Prepared Statement of the Citizens' Alliance for North Korean Human 
                                 Rights
Honorable Members:

    The Citizens' Alliance for North Korean Human Rights (NKHR) was 
established on May 4, 1996 in Seoul, Republic of Korea as the first 
non-governmental organization in the world devoted solely to promoting 
human rights in North Korea. At the time of our founding, the 
organization faced several challenges both domestically and 
internationally.
    In the mid-1990s, the international community did not pay much 
attention to the seriousness of the North Korean human rights 
situation, partially because of a lack of credible information and 
testimonies coming out of the country and partially because no 
international network existed to advance such a cause. Domestically, 
the progressive government's policy of engagement and warming relations 
with North Korea meant that advancing the cause of North Korean human 
rights and democracy was viewed as hostile to the North Korean regime 
and counter to the policy of rapprochement. This created obstacles not 
only to NGOs that wanted to focus on this issue, but also rendered it 
impossible to create a domestic public discourse that would pressure 
South Korean government to advance this issue vis-a-vis North Korea.
    Having no support domestically or internationally, it was the U.S. 
that first recognized the necessity and legitimacy of the North Korean 
human rights cause and provided us with crucial assistance. In 1999, 
the National Endowment for Democracy (NED) reached out to NKHR to help 
us both financially and with building an international network that 
would be able to carry out the work on North Korea. Without the 
material and institutional support of NED, the North Korean human 
rights movement as we know it today would not have existed. The 
material support of NED has always constituted the only sustained 
financial assistance that allowed NKHR and other South Korean NGOs to 
expand its work on North Korea.
    It was the support of the NED that enabled us to organize the first 
international conferences, bringing the plight of the victims and human 
rights violations in North Korea to the attention of the world. 
Consequently, we were able to establish relationships with 
organizations and government officials around the globe, including the 
Late President Vaclav Havel of the Czech Republic, who was an avid 
supporter of the burgeoning North Korean human rights movement. With 
NED support, the first journals produced by NKHR with testimonies and 
articles documenting abuses in North Korea were distributed in South 
Korea, USA, Japan and institutions worldwide at a time when little 
other reliable information on North Korean human rights situation 
existed.
    Most importantly, the NED's support allowed NKHR to begin targeted 
advocacy work at the United Nations alongside an international network 
(initially mostly U.S. individuals and NGOs) that was built during the 
Conferences. Such advocacy resulted in early successes, such as the 
appointment of the U.N. Special Rapporteur on the Situation of Human 
Rights in North Korea in 2004. Finally, in December 2012, the NKHR 
staff and two victims of political prison camps in North Korea met with 
Navi Pillay, then U.N. High Commissioner for Human Rights to convince 
her Office to prioritize work on North Korea through the establishment 
of the U.N. Commission of Inquiry (COI) for the DPRK. Her call for the 
COI after the meeting allowed NKHR and its network to convince many 
states that such Commission should be established.
    The successful establishment of the U.N. COI was the culmination of 
the groundwork laid by almost two decades of advocacy, alliance-
building, and distribution of materials for growing public awareness of 
the need for a North Korean human rights and democracy movement. 
Without specialized and on-going support of many South Korean and 
American organizations, the COI would not have come to fruition in 
order to create its milestone report. Significantly, the COI's call for 
referral of the North Korean leadership to the international criminal 
justice mechanism for crimes against humanity committed by the regime 
has been a great success in the arena of North Korean human rights. 
That call has also been carried forward by the same network that has 
been built with the U.S support since 1999.
    Many NGOs and foreign governments recognize the North Korean human 
rights movement as a success story. This is the greatest testimony to 
the unwavering support of the U.S institutions that first recognized 
the importance of this issue. At such an important time when the 
movement has finally gained international momentum, continued U.S. 
support is crucial to accomplish the goal of promoting human rights and 
democracy in North Korea and bringing justice to the North Korean 
victims.

    [This statement was submitted by Benjamin Hyun YOON, Founder and 
Honorary Chairman.]
                                 ______
                                 
  Prepared Statement of the Committee for Free and Fair Elections in 
                           Cambodia (COMFREL)
    To Cambodian politicians, civil society organizations, and 
activists alike, the U.S. is seen as a model for our emerging 
democracy. The liberal democratic values and civil rights upheld by 
U.S. institutions is the kind of government Cambodian actors have been 
advocating for since the early 1990s. Our democracy has faced countless 
obstacles in the decades since, though the resiliency of the Cambodian 
democrats has been amplified by U.S. support year after year. This 
support has never been more crucial than now.
    I am the executive director of the Committee for Free and Fair 
Elections in Cambodia (COMFREL), an organization that has witnessed the 
impact U.S. support for democracy abroad can have. In 2013, USAID 
supported the audit of the Cambodian voter list, exposing several 
irregularities that compromised the election's outcome in favor of the 
ruling party. The evidence provided the basis for several electoral 
reform recommendations. Many of these recommendations were adopted by 
the National Election Committee.
    U.S. support is likely to have an even greater impact in 2017 and 
2018, as Cambodians head to the polls in the upcoming local and 
national elections. With USAID funding, NDI has provided technical and 
material support for COMFREL's voter registration audit, which found 
significant improvements in the voter list over the previous cycle. 
This direct assistance is critical in building a cautious confidence 
among Cambodians in the integrity of their elections, and thus in the 
possibility of a vibrant and effective democracy in our country.
    U.S. support for Cambodian democracy goes well beyond its financial 
assistance or technical consultations. It is a source of inspiration. 
It communicates to principled democrats in Cambodia and around the 
world that democracy is worth advocating for. As Cambodia readies 
itself for the fast approaching elections, and the uncertain result 
that will follow, its civil society depends on the continued commitment 
of the U.S. to advocate for the integrity of the process. Without it, 
the future of Cambodian democracy may become increasingly uncertain.

    [This statement was submitted by Koul Panha, Executive Director, 
COMFREL, Phnom Penh, Cambodia.]
                                 ______
                                 
    Prepared Statement of the Conferencia Episcopal Timorense (CET)
        Observatorio da Igreja Para Os Assuntos Sociais (OIPAS)
                                                    April 26, 2017.
Ms. Madeleine Albright,  Chairperson,
National Democratic Institute.

Re: Democracy assistance in Timor-Leste

    In 2007, for the first time, Timor-Leste had a nonpartisan national 
organization to observe the presidential and parliamentary elections. 
We have been able to do so through the support of some organizations, 
such as the United States Agency for International Development, through 
USAID-NDI and other organizations such as AusAid, Canada Fund, UNIFEM, 
PROGRESSIO Timor-Leste and Caritas Japan. A coalition for the 
monitoring of general elections, KOMEG (Koligasaun ba Monitorizasaun ba 
Eleisaun General, in Tetum), was composed of 16 civil society 
organizations. The observers were all young men and women and were 
present at all polling stations. But before that, they were trained, so 
they watched the elections and made a good report.
    In the general elections held in mid-2012, OIPAS (Church 
Observatory for Social Affairs, in Portuguese) received help from USAID 
through IRI and AusAid to observe the elections. It had the opportunity 
to mobilize around 1,800 observers, made up of young men and women for 
the presidential and parliamentary elections. Observers were trained 
and received the credential card from the Technical Secretariat of the 
Electoral Administration, in Portuguese (STAE) to observe the elections 
and were present at all polling stations throughout the territory.
    For this year's presidential election, which was held on March 20, 
2017, OIPAS received USAID financial and technical assistance through 
NDI and managed to mobilize around 300 young men and women throughout 
the territory to observe the elections. Now the organization is 
preparing around 900 observers to place in all polling stations for the 
parliamentary elections. In addition, they would observe the campaign 
process and at the same time increase their ability to use technology 
to collect observer data on the ground on voting day and report.
    Throughout our monitoring of the elections, individuals and 
organizations, both international and national, have had good 
impressions and assessments of OIPAS, as it is impartial and credible. 
It has contributed a lot in this young country, through participation 
of young people with enthusiasm and energy to create democracy and the 
political environment that is positive, as has happened in the election 
process.
    Even so, we have to recognize that, for our part as an 
organization, we have to improve ourselves from day to day, because 
life is a process of learning and walking.
    Timor-Leste's STAE has been instrumental in recognizing OIPAS as a 
national organization for election monitoring, which is impartial, so 
it has produced cards to make it easier for us to speak during these 
periods. The commission has been very helpful to us because they know 
that our observers are impartial, so that they create a certain 
credibility, transparency and, in this way, democracy can be improved 
in this country.
    Finally, as our key contribution, and with the help of our donors, 
we need to protect democracy in this young country, which is a process 
that needs to happen in coordination with other forces, naturally; we 
will continue to support a healthy democracy in this country, where 
``the voice of the people is the supreme law''.
    Many thanks to the people of USA through USAID and NDI and other 
organizations that have contributed throughout these times to help 
OIPAS in order to strengthen democracy in Timor-Leste.

Pe. Agostinho de J. Soares, SDB, Director
                                 ______
                                 
                  Prepared Statement of the Dalai Lama
                                                     28 April 2017.
Mr. Carl Gershman, President,
National Endowment For Democracy,
1025 F Street, NW, Suite 800,
Washington, DC 20004-1409,
U.S.A.

    Dear Mr. Gershman,

    Thank you for your communication on the valuable work that the 
National Endowment for Democracy (NED) does in promoting democratic 
values around the world, including in the Tibetan community.
    I admire your work for supporting freedom worldwide. In particular, 
I am aware of your active and consistent grants for strengthening 
democratic culture and institutions of our Tibetan community in exile 
for the past many years. I have no doubt that such initiatives have 
also been source of encouragement to the Tibetan democratic experience, 
which we began in 1960, a year after our freedom in exile.
    I have always admired the United States for its fundamental values 
of democracy, freedom and rule of law, and so its institutions and 
people have the ability to help and cncourage the promotion of these 
positive principles.
    As we have discussed during our meetings over the years as well as 
during my visit to NED last year, your work on promotion of freedom is 
vitally important givcn the current volatile situation in many parts of 
the world and the threat these pose to peace and freedom.
    I wish your Foundation continued success in your work. Above all, I 
earnestly hope that the United States of America, the leading nation of 
the free world, will continue its responsible leadership role in 
bringing about a more peaceful and compassionate community of citizens 
of the world.
    With prayers and good wishes,

            Yours sincerely,
                                             Lhamo Dondrub.
                                 ______
                                 
             Prepared Statement of the DVB Multimedia Group
    Media is important tool used by established democracies like the 
U.S. and European nations to support democracy movements around the 
world and enhance information out-flow initiatives from closed 
countries like Burma/Myanmar.
    Democratic Voice of Burma (DVB) was established in 1992 in Oslo, 
Norway following Daw Aung San Su Kyi's, Nobel Peace Prize award in 
1991. Starting with shortwave radio, and then launching satellite TV in 
2005, DVB has become the most watched independent news channel in 
Myanmar reaching more than 12 million viewers (according to a recent 
2016 BBC survey). Following the political transition, DVB since 2012 
gradually moved operations into Burma/Myanmar, and is now fully 
operating from inside the country. More information about can be found 
at www.dvb.no.
    DVB is being supported by National Endowment for Democracy (NED) 
and some government and semi-governmental organizations from Europe to 
enable continued coverage and reporting about political and social 
situations in Burma/Myanmar since the beginning of DVB establishment. 
NED hosted a DVB meeting with like-minded donors in October 2004 at 
their Headquarters in Washington DC discussing to launch DVB satellite 
TV. NED doubled funding to DVB since 2005 making the launch of 
satellite TV possible. Whenever there is important political event in 
Burma/Myanmar- general elections in 2010 and 2015 and production of 
investigative documentary ``Burma Nuclear Ambitions in 2010'' for 
example--NED comes up with additional funding allowing DVB to 
accomplish these important initiatives. It is also NED bridging DVB and 
other exiled media groups including the ones from North Korea sharing 
experiences and lesson-learning with each other.
    In addition, during times of dramatic events within Burma/Myanmar--
for example demonstration led by Buddhist monks in September 2007, 
known as Saffron Revolution; and the deadliest natural disaster in 
Burma/Myanmar history, the Nargis Cyclones in May 2008 leaving 135,000 
death and 2 millions homeless--DVB was the one exposing news and 
footage while the military government was trying to hide from the 
international community. International governments including the U.S 
adopted appropriate policies to respond worsening the political and 
social situation in Burma/Myanmar at the time. Performance of DVB's 
undercover media operations during those days were compiled into an 
award-winning documentary ``Burma VJ'' which was nominated for Oscar in 
2010.
    Now DVB is in the forefront of media reform in Myanmar together 
with other stakeholders including the Ministry of Information. These 
efforts will help lay the ground work for a new independent and diverse 
media environment which is essential for safeguarding the further 
development of democracy and human rights within the country. The 
successes of DVB have inspired many other similar exiled media outlets 
around the world.
    All DVB's accomplishments would be difficult to realize without 
continued supports from NED since 1993.

    [This statement was submitted by Khin Maung Win, Founding member of 
DVB and Deputy Executive Director, Democratic Voice of Burma.]
                                 ______
                                 
 Prepared Statement of the Free and Fair Election Forum of Afghanistan 
                                 (FEFA)

To:  National Democratic Institute (NDI)--HQ Office, Washington, DC

Re:  Democracy and Governance Assistance Programs to Afghanistan

To Whom It May Concern:

    Since the fall of Taliban regime, Afghanistan with the contribution 
of international community has begun new steps on democratic 
development. Through all these efforts, FEFA has realized about the 
great role and assistance of international community, particularly the 
U.S. Government to Afghanistan that have been carried out during the 
past several years with many institutions and the local partners for 
democratic development around the country.
    Under this U.S. Government assistance, NDI as one of key partner 
has supported FEFA to build its capacity as a local observation body in 
2004 which was extremely cooperative in the area of elections 
transparency and confidence building. FEFA under this assistance 
developed its capacity to perform as a professional local organization 
on election observation, advocacy and promoting citizen participation 
in all elections-democratic processes. Today, Afghanistan has many 
similar organizations to FEFA but since NDI under the U.S. Government 
assistance, worked generously on FEFA's capacity development, 
conducting regular assessment and providing with the tools and options, 
FEFA is in the leading role, and stockholders count on it as a 
principal organization in the field of elections.
    Additionally, the international community and the U.S. Government 
assistance programs have worked with elected provincial council members 
on how to tackle their legal mandate to help the local governance on a 
better planning of the provincial development, how PC can effectively 
and efficiently run their oversight role from the local development 
projects, and how to provide a report of findings with proper and 
practical recommendations to the Afghan Government. Many of 
international community and the U.S. Government assistance programs 
were designed in a manner that later can be followed by its local 
partners with a great amount o honor, ownership and sustainable 
approach. Today, we see that each organization they have received 
support from the U.S. Government programs, is actively working for the 
values of democracy a defending the last decade' achievements to be not 
lost. The international community and the U.S. Government's recent 
assistance with FEFA, AYNSO and many other Civil Society Organizations 
on election reform is very substantial and FEFA highly recommend the 
continuation of such assistance to support key institutions that they 
are not corrupt, and don't seek this support to become the country's 
businessmen in the future. Indeed, these support with organizations 
that they are envisioning for a democratic country, and broader civic 
participation of the citizen is really needed.
    At the same-time, the U.S. Government and international community 
assistance programs with political parties to become key actor of 
political development based on a platform to run meaningfully for 
elected positions, specially on election-campaign-planning, management 
and targeting their constituencies and believing to a peaceful culture 
of power transition is very importance program. FEFA see substantial 
need of U.S. Government assistance to continue with political parties 
and political campaign offices to properly run, plan and oversight from 
the work of government by political oppositions and parties.
    FEFA also noticed that the U.S. Government programs with polling 
agents in the provinces was really interesting and helpful. Providing 
training on elections observations and providing tools and technic to 
polling agents to monitor elections and report elections violence to 
the party or candidates' offices worked much for elections transparency 
and its monitoring.
    It is also worth mentioning that they support of the U.S. 
Government and generally international community worked a lot with 
women groups that how they can actively and broadly engage and 
participate in elections. This activity also helped women group to 
fight with the challenges and ensure a meaningful participation in 
elections. The trainings that provided to them, and additionally many 
other programs have enhanced good coordination's and follow-up sessions 
with key Afghan policy-makers to support women.
    More importantly, the U.S. Government supported programs monitored 
Afghan elections by its experts with the help of its Afghan staff to 
observe and analyze situation in Afghanistan for elections. All these 
missions for elections assessment and observations were so much helpful 
with addressing key recommendations for reforms. FEFA as an Afghan-lead 
organization highly appreciate the valuable assistance of U.S. 
Government and international community with Afghanistan programs and 
with its partners.

            Sincerely,
                                   Mohammad Yousuf Rasheed,
                                                Executive Director.
                                 ______
                                 
         Prepared Statement of the Freedom Research Association
    Chairman Graham, Ranking Member Leahy and esteemed members of the 
subcommittee, I would like to thank you for holding this important 
meeting and the opportunity to testify before this subcommittee.
    Freedom Research Association is a public policy research 
organization dedicated to civil liberties, rule of law, free markets 
and peace. Although relatively new (2014), FRA has been one of the 
loudest voices defending these values as a strictly independent and 
non-partisan think-tank.
    On April 16, Turkey has accepted a constitutional amendment which 
transforms the country to a presidential system in a contested public 
vote. Although the final report is not out, initial OSCE briefing 
stated that the stakes were not at all equal between YES and NO camps:
    ``Supporters of the `No' campaign faced a number of undue 
limitations on their freedom to campaign. Many `No' campaigners 
suffered physical attacks. A high number were arrested, most often on 
charges of organizing unlawful public events or insulting the 
president.'' (http://www.osce.org/odihr/elections/turkey/
311721?download=
true).
    YES vote has been promoted via extensive use of public resources 
including the State TV Turkish Radio Television, as can be seen by the 
allocated air times on media to both campaigns. YES campaign received 
disproportionately more TV coverage than the NO in the media including 
state TVs.
    The content of the amendment transfers extensive powers to the 
executive (the president) in a system design which significantly lacks 
checks and balances. (https://www.brookings.edu/blog/order-from-chaos/
2017/04/13/the-turkish-constitutional-
referendum-explained/).
    This has only been the latest development in a series of democratic 
setbacks in Turkey. After the bloody July 15 coup attempt, a state of 
emergency was declared to deal with the alleged FETO (Fethullah Gulen 
Terror Organization) and lustration of the state. Although it is a 
legitimate goal to hold the perpetrators of the coup plot accountable, 
it led to the dismissal/suspension of 120.000+ public officials without 
any due process which directly or indirectly affected an estimated 1 
million plus citizens.
    Journalists and civil society activists are purged either through 
legal cases, asset freezes, travel bans or detentions and imprisonment. 
The precautions went so far as to implement travel bans to relatives of 
suspects without any charge! More than 7000 academics have been fired 
without any due process based on allegations of allegiance to different 
groups or simply for signing a declaration.
    Yet, Turkish society is not mournful and there are plenty of 
different organizations and individuals who are willing to stand up for 
democracy, the rule of law and human rights. Hundreds of different 
lawyer associations, journalist networks, environmentalist groups, 
human rights activists and civil society organizations are being 
established, and they continue to operate with the support of their 
fellow citizens and international partners despite the increasingly 
difficult circumstances. They stand for universal values. These values 
are not in exclusive possession of any single nation, rather, they are 
properly upheld if defended together on a global scale.
    Many Turkish NGOs are in a good collaboration and exchange with 
international counterparts like IRI to advance democracy, peace, and 
stability in a particularly delicate region like ours. Their efforts, 
we believe, help tackle the problems as mentioned earlier. Their 
continued support for democratic and non-partisan NGOs, in particular 
for those who work for defending democracy, the rule of law and human 
rights is an invaluable and essential asset.
    Recent referendum result is a sign that Turkish people are very 
careful towards any further sign of going back from democratic status 
quo. All the crackdown and silencing efforts on the opposition as well 
as the deployment of vast public resources could only produce a minimal 
victory for the proposed amendment. NGOs and civil society activists 
engaged with the campaigning process in the face of serious risks.
    Turkey has been experiencing a continuous influx of Syrian refugees 
for the last 5 years, with an unending civil war right in front of her 
southern border. What makes Turkey so adamant in such a difficult 
region is her well-established democratic institutions of which the 
civil society is an important part. Turkish Parliament is one of the 
most visited parliaments in the world which is a sign of active civic 
engagement.
    It is of paramount importance for a stable future of the region and 
the world that Turkey stays true to democratic ideals. To ensure that, 
its civil society must keep playing its proper role while remaining 
engaged with the world. As the civil society is already facing various 
challenges in this democratic process, the support and solidarity of 
international partners are critical.

    [This statement was submitted by Medeni Sungur, Executive 
Director.]
                                 ______
                                 
                   Prepared Statement of Fundamedios
    When we signed our first grant agreement with the National 
Endowment for Democracy in 2008, Fundamedios was a nascent organization 
with no experience in the defense of freedom of expression and freedom 
of the press and had no other links to international networks. Nine 
years later, with the continual support of the NED, Fundamedios has 
become the leading freedom of expression watchdog organization in 
Ecuador. It is an important actor before the universal and Inter-
American human rights systems, and serves as a constant reference for 
researchers, media, and political actors working on human rights and 
press freedom issues in Ecuador and the Andean region.
    Given the government's hostility toward Ecuador's news media, 
Fundamedios' work has been crucial in sustaining a free press in 
Ecuador, both in the traditional media sector and the developing 
digital media ecosystem. The key to Fundamedios' success in positioning 
itself in the forefront of this work has been the organization's 
thoroughness in monitoring and documenting attacks on press freedom. 
This system, known as the Network to Monitor Attacks on Freedom of 
Expression, is a project that the NED has supported from the outset of 
our partnership. This monitoring system has become a reference and 
model for other organizations in the region. Currently, NED has 
supported the development of the first fact-checking initiative in 
Ecuador, Ecuador Chequea.
    Without support from NED, the growth and development of Fundamedios 
undoubtedly would have been severely hampered. The same would have 
happened with other organizations in Ecuador, such as Plan V or Mil 
Hojas and today with Ecuador Chequea. For these reasons, I can say that 
NED's presence and support has been decisive in many ways for the 
sustainability of a civil society constantly under threat in Ecuador.

    [This statement was submitted by Cesar Ricaurte, Executive 
Director.]
                                 <greek-l>
                                 ______
                                 
                            Gawgzeh Ali deg.
  Prepared Statement of Dr. Ali Gawgzeh, Mayor Jerash, The Hashemite 
                           Kingdom of Jordan
    Jordan is facing tremendous challenges to its political and 
economic development, as well as existential threats to its security 
and stability. With conflict and instability all around us, 
particularly in Syria and Iraq to our north and east, maintaining our 
security and stability is imperative. Regional and international 
partnerships are critical to our advancement as a society and our 
development as a democracy in the Middle East. As these partnerships 
have developed over time, we as local officials have come to better 
understand just how critical good governance at the local level is to 
the stability of the country as a whole.
    Jordan has been fortunate to forge important partnerships with the 
United States and other countries in support of our development, and 
like many communities throughout Jordan, Jerash has been proud to 
partner with a variety of international organizations supporting a 
large number of initiatives. These initiatives have been invaluable to 
our community as we continue to embrace the principles of 
accountability in representative government.
    Since being elected mayor in 2013, my municipal administration has 
gained significant knowledge from international partners on public 
administration, financial management, decisionmaking processes, 
resource management, transparency, and citizen outreach to name a few. 
No partnership has been more beneficial than the cooperation the Jerash 
municipality has built with the International Republican Institute 
(IRI). IRI has earned the trust of the municipality staff as well as 
the citizens through continuous engagement, responsive programming, and 
a commitment to a genuine partnership at the grassroots level.
    IRI's program in Jerash has shared knowledge and expertise from 
years of lessons learned in local governance in America and other 
countries. Through enabling us to make evidenced-based decisions, 
supporting our capacity to communicate with citizens on issues they 
care most about, and exposing us to approaches and techniques other 
communities in the U.S. and elsewhere have deployed has been extremely 
important.
    For example, IRI in Jordan partnered with the Jerash municipality 
to conduct public opinion surveys with our local citizens. Public 
opinion polling is not well known in Jordan so this was a new 
experience for many of us in the municipality. Historically, decisions 
were made based on whoever had influence over the decision maker, which 
did not always result decision reflective of the best interest of the 
people. With our participation in IRI's ``Baldytak'' (English: ``Our 
Municipality'') public opinion survey program, we were able to develop 
a much clearer picture of what the citizens were demanding from their 
locally elected officials. As we learned more and more about the 
priorities of the citizens, we were more informed and better equipped 
to make resource allocation decisions based on that evidence, which 
enabled us to target and spend our limited resources much more 
efficiently. Simply put, this process transformation would not have 
been possible without the partnership and expertise of IRI in Jordan.
    Secondly, IRI has played an instrumental role in exposing Jordanian 
local leaders to the innovative approaches other communities, both in 
Jordan and around the world, have taken to address some of their most 
pressing challenges. In many cases, challenges we face in Jerash have 
been effectively confronted by other communities. Capitalizing on the 
trust built over several years, IRI has convened a number of local 
governance forums, brought in international experts, and even hosted a 
mayoral exchange trip to Columbia to learn more about the extraordinary 
transformation local communities have enjoyed over the last decade. 
These shared experiences have proven invaluable to my work as a local 
elected official. As a result, I and many of my mayoral colleagues have 
pursued governance strengthening initiatives, such as one-stop-shops, 
we learned more about during these various exchanges of ideas and 
knowledge sharing opportunities.
    We have come a long way, both in Jerash and also in Jordan, but 
still have a long way to go. We continue to make progress and 
partnerships such as our cooperation with IRI Jordan are critical to 
our development. These partnerships strengthen the bonds between our 
two countries and help us provide better services to our constituents. 
Improved services play an instrumental role in maintaining a secure, 
stable, and prosperous community.
    Should IRI's ability to continue to engage in this fruitful 
partnership be diminished or eliminated, it would represent a 
significant step backward for us as a community and have a negative 
effect on our work. In an austere budget environment as a result of 
regional conflicts impacting tourism and other revenue generation, 
small levels of support enabling us to better engage with our citizens 
through data driven decisionmaking processes or learning about the 
successes and failures of others who have walked a similar path are 
extremely helpful.
                         mayor dr. ali gawgzeh
    Greater Jarash Municipality has 260,000 residents, in addition to 
42,000 Syrian refugees. Mayor Gawgzeh is a lawyer by training, as well 
as previously serving as the Director of the Legal Department for 
Jarash Municipality.
                                 <greek-l>
                                 ______
                                 
                       Gombojav Zandanshatar deg.
Prepared Statement of Zandanshatar Gombojav, Member of the State Great 
       Hural (Parliament) and Former Foreign Minister of Mongolia
    Honorable Ladies and Gentlemen: Thank you for the opportunity to 
testify for the U.S. Senate, the relationship between Mongolia and the 
United States has been consequential and the role that international 
support for democratic ideals is crucial to ensuring freedom of 
thought, trade and movement.
           how u.s. leadership supported mongolia's democracy
    Immediately following Mongolia's peaceful transition to democracy 
in 1990, the United States took quick and bold steps to support my 
country's nascent democratic institutions by bolstering the development 
of political parties and Parliament, assisting the country's electoral 
processes by working with the General Election Commission and helping 
to address the challenges of corruption through working with local 
government officials and civil society organizations.
    This long-standing support from the United States has had a major 
positive impact on Mongolia's democratic development. Through such 
support, the United States has helped political parties compete 
competitively in free and fair democratic elections. Likewise, as a 
result of this sustained commitment from the United States, Mongolian 
members of have received technical assistance through U.S.-funded 
parliamentary strengthening programs, which have directly led to 
members of parliament, my colleagues in the State Great Hural, to 
improve their ability to effectively represent constituents and respond 
to the needs and aspirations of our country's dear citizens.
    During this 27-year period following our democratic revolution, 
Mongolia has created and strengthened democratic institutions, 
including the national legislature, the judiciary, political parties 
and civil society. However, despite many positive developments, 
Mongolia continues to face serious challenges to the consolidation of 
these democratic gains. As such, the United States continues to play a 
vital role in assisting Mongolia with addressing a range of current 
issues, including addressing corruption and even supporting Mongolia's 
efforts to share its democratic experiences and lessons learned with 
other countries in the region and beyond.
    Despite all of Mongolia's achievements, U.S. support for Mongolian 
democracy is now more important than ever. Asia is a dynamic region 
that not only holds much promise and opportunity, but is also 
confronting many challenges. In recent years several nations in the 
region have experienced setbacks in terms of political freedoms and 
democratic governance and although Mongolia has firmly stood by its 
commitments to maintaining a free and open democracy, partnership and 
solidarity from democratic allies such as the United States is crucial 
in shielding developing democracies such as Mongolia from being 
affected by the influence of hybrid regimes and authoritarian 
countries.
               why u.s. support for democracy is crucial
    The goal for the United States to support these programs and 
initiatives that strengthen democracies abroad is not to help others 
over Americans, but it is precisely because the United States helps 
others that it is also strengthened. The question is what sort of a 
world do we want--I have personally seen the benefits that strong, 
inclusive democracies can have and I do not want to see my country, my 
region, my world turn back now. Without the leadership of the United 
States, there will be others that fill the void, others that do not 
share the values of freedom of speech, freedom of association and 
freedom to choose. We cannot risk this when we have come so far.
    Democracy does not guarantee financial success or a smooth 
political system but it guarantees something far greater--the ability 
to choose your own path. To have a voice in your community and in your 
government. Without the ability to choose, people lose the ability to 
think for themselves and rely on others to do for them. Surely the 
reliance on ``someone else'' is a poor arrangement to sustain the 
entrepreneurship, innovation and big thinking that has led to some of 
the greater ideas the world has seen in my lifetime.
      how shared democratic values bring the u.s.-mongolia closer
    Through the numerous activities and initiatives that have been 
undertaken jointly by the United States and Mongolia, the United States 
has had a positive impact on my country. As the most important of our 
``third neighbors,'' we look to the United States for inspiration--
leading Mongolia to serve in important international initiatives such 
as the Community of Democracies, United Nations, Open Government 
Partnership and many others. Without the support we received decades 
ago from the United States, perhaps the democratic trajectory of 
Mongolia would be different.
    There are thousands of Mongolians who study in the United States, 
gaining valuable knowledge and experience, as I myself did at Stanford 
University. During my time in California I had the opportunity to study 
political systems, understand how the freedoms of association, choice 
and speech were integral to the development of a country and of a 
people. I have taken those lessons with me back into my life in public 
service here in Mongolia. Recently, I spearheaded an initiative to pass 
legislation requiring the use of public hearings in the development and 
passage of legislation and we are presently organizing a deliberative 
poll--a process which ensures that citizens are informed about policy 
options and then asked to make choices about the direction of our 
country. Without the opportunities I had by studying in the United 
States and engaging in United States-funded democracy support programs 
here in Mongolia, I may never have known about these practices or been 
inclined to use them.
    In conclusion, the case for the continued engagement of the United 
States through democracy support programs is clear to me: without the 
leadership of the United States, who will speak up for these values we 
share? These values that protect our communities and enrich our 
economies. Who will stand firm in the face of authoritarianism? For if 
our greatest ``third neighbor'' cannot, how can we?
    I call upon you, Honorable Members of the United States Senate, to 
make sure that the United States maintains its funding for democracy 
support programs and stands up for the democratic values we know 
America was founded on, the values we all hold so dear.
                                 <greek-l>
                                 ______
                                 
                              Hashimi deg.
 Prepared Statement of Aqeel Najam Hashimi, Mayor Bahawalpur, Punjab, 
         Central Chief Coordinator, PML-N Youth Wing, Pakistan
    It is an immense pleasure for me to write down my experience with 
NDI. NDI has conducted many training programmes for the capacity 
building of political workers of different political parties of 
Pakistan over the years. Currently, NDI is conducting a training 
programme for polling agents and are training approximately 4,000 
master trainers from across the Pakistan and this exercise will produce 
approximately 373,320 polling agents.
    This NDI polling agent program will be a useful and helping tool 
for forthcoming elections in the country. Pakistan is a country with a 
vision of peace and whose founder was the democratic leader par 
excellence who envisioned a real political, parliamentary, democratic 
system for the country. This assistance from NDI has paved the way 
towards achieving this goal.
    I am of the opinion that all sessions of NDI are so informative and 
essential for fulfilling the wish of our founder to make Pakistan a 
stable, peaceful, and sovereign state in the region. I wish NDI to 
continue demonstrating the same spirit and assistance for making 
Pakistan a stable and peaceful country through the ballot.
                                 <greek-l>
                                 ______
                                 
                            Hing Soksam deg.
  Prepared Statement of Soksan Hing, President of CNRP Youth Wing and 
           Deputy Secretary General of the National Assembly
    Cambodia stands at a critical juncture in its history. For the 
first time, youth born after the Khmer Rouge genocide--which resulted 
in the death of nearly a quarter of Cambodia's population--will take to 
the polls to voice their opinions in the June 2017 Commune Council 
Elections and July 2018 General Elections. Amidst this tense period of 
constricting political space which puts pressure on opposition 
political parties, civil society, human rights defenders and 
independent media, the ability of youth to shape the future of Cambodia 
is all the more important. Their opinions of Cambodia are no longer 
driven by fear of war or instability--they want to see Cambodia 
transform economically like other countries in Southeast Asia with 
quality education and economic growth to provide them with a bright 
future.
    It is for these reasons that Cambodia needs the continued support 
of the international community. Such support would elevate and preserve 
the promise of peace brought forth by the Paris Peace Accords 25 years 
ago. The United States, and other signatories of the Accords, need to 
send a clear signal that they stand with the Cambodian people. In that 
vein, U.S. democracy assistance is absolutely necessary to this cause. 
Democracy assistance and continued engagement of the United States in 
Cambodia is necessary for the conduct of free and fair elections where 
all political parties can stand on equal ground, and where civil 
society and citizens can be free from fear of intimidation, coercion 
and violence.
    I can personally attest to the importance of U.S. democracy 
assistance, because such support made me who I am today. When I was a 
young boy growing up in Takeo province in the south of Cambodia--close 
to the border with Vietnam--my father, who was a politician himself, 
and my mother instilled within me the importance of political 
participation. ``If you are a good doctor you can treat a hundred or 
two-hundred people,'' my mother told me, ``but if you're a good 
politician, you can help millions.'' It was after I heard her words 
that I became determined to become a politician myself.
    However, it wasn't until I finished high school and came to Phnom 
Penh in 1997 that I truly began to understand what it takes to become 
an effective politician who can serve the needs of constituents and 
improve the future of the country. As a member of the local youth group 
Students' Movement for Democracy I came across an international non-
profit that was educating young Cambodians on the importance of a 
multi-party democracy, and robust political and civic education through 
programs called the Advanced Democracy and Living Democracy Seminars. 
That organization was called the International Republican Institute 
(IRI). By participating in the Living Democracy Seminar I gained a 
sense of hope that youth in Cambodia would bring about the positive 
change that the country sorely needs.
    For the next two decades, I participated in numerous trainings and 
workshops, debate programs and activities conducted by IRI, including 
the Youth Leadership Challenge, Next Generation, Future Leaders and 
various voter registration drives. My participation in these programs 
allowed me to receive training on international best practices for 
democratic governance and tangible skills for public opinion research, 
campaigning, messaging, public speaking and debate. I've used all of 
the lessoned learned from IRI's trainings to advance democracy in 
Cambodia by training Cambodia National Rescue Party (CNRP) commune 
council candidates for the forthcoming elections and sharing skills for 
effective communication with party youth. I also intend to use these 
skills to go back to my roots in Takeo province as a candidate for 
Member of Parliament in the 2018 General Elections.
    During that time, the experiences dearest to me were my ability to 
compete in the Youth Leadership Challenge debate in 2007 and the Next 
Generation debate in 2013. As a part of IRI's debate programs, I 
discussed pressing issues impacting the Cambodian people, including 
youth involvement in politics, education, healthcare and sanitation 
services, and ASEAN economic integration. It was a great honor for me 
to win both debates, and as a prize I traveled to the United States for 
my first time to see for myself the benefits of a strong democracy.
    These IRI programs launched my career. I am now the Deputy 
Secretary General of the National Assembly of the Kingdom of Cambodia 
and President of CNRP's Youth Wing. But I am merely one of millions of 
youth in Cambodia; more youth need to be empowered and educated to 
better understand the importance of democracy and political 
participation. If we want to see positive change in Cambodia, then we 
must start with youth.
    For youth in Cambodia to have these experiences, democracy 
assistance from the United States to organizations like IRI, the 
National Democratic Institute (NDI) and the National Endowment for 
Democracy (NED) is crucial and must continue. Because of U.S. democracy 
assistance from these organizations, Cambodians better know their 
rights and have the courage to stand up and voice their opinions. But 
without this support during such a critical time in Cambodia's 
development, progress made to date could be quickly erased.
    Chairman Graham, Ranking Member Leahy, and members of the 
subcommittee, I can proudly say that IRI is a part of me today, and I 
can be who I am today because of IRI. I implore you to continue to 
support U.S. democracy assistance in Cambodia and other countries 
around the world, so that other youth everywhere are able to stand up 
for democracy and let their voices be heard.
                                 <greek-l>
                                 ______
                                 
                            Hopko Hanna deg.
   Prepared Statement of Hanna Hopko, Chairwoman of the Committee on 
     Foreign Affairs of the Ukrainian Parliament, Ph.D. in Social 
                             Communications
    Chairman Graham, Ranking Member Leahy and members of the 
subcommittee, I appreciate the opportunity to thank you for the 
bipartisan support and assistance that has been provided to Ukraine 
through various programs, including foreign military financing.
    Sizable U.S. international assistance has been invested in European 
security and Ukraine's democratic transformation. It has helped to slow 
Russia's aggression against Ukraine and has given us the opportunity to 
rebuild our army from scratch. Ukrainians have shown a readiness to 
fearlessly defend freedom and now can share with partners how to defend 
themselves against the Russians phenomenon of hybrid warfare in 
practice. Let me express ``thank you'' to the United States for being 
the world leader in providing practical security assistance to the 
Ukrainian Armed Forces. We value the trainings provided by the United 
States to the Ukrainian military. A strong Ukraine, defending its own 
territory, also keeps Russia at bay as a global threat to the Euro-
Atlantic space--so we are contributing to transatlantic security.
    USAID's assistance to Ukraine has played decisive role in its 
democratic transformation. Through USAID, the U.S. has been supporting 
important reform directions which are of critical importance for 
Ukraine as well as beneficial for U.S. interests and investments, 
namely:

  --Support of court system reform, which is currently under way in 
        Ukraine and can ensure that U.S. investments are protected with 
        fair justice and rule of law;
  --Support of energy sector reform, and such projects as the 
        Extractive Industries Transparency Initiative (EITI), which 
        will allow U.S. companies to enter Ukraine's energy market in 
        the near future;
  --Support of foreign trade promotion policy and strategy development, 
        where Ukraine will be promoting fair trade rules and 
        principles, thus enhancing bilateral trade relations between 
        the U.S. and Ukraine; and
  --Support of agricultural and rural development reform, whereas 
        developing the agrarian sector brings additional opportunities 
        for U.S. companies doing business in Ukraine and makes a 
        significant contribution to global food security.

    In addition, USAID has been supporting extremely important policy 
development in areas such as healthcare reform, decentralization and 
regional development reform, reform of the Ukrainian Parliament and 
modernizing its procedures in policy analysis and drafting and adopting 
legislation.
    Ukraine continues pursuing it path towards energy independence and 
making the energy sector efficient and stable. We have already achieved 
great progress in this direction and adopted important laws, such as 
the Law on Natural Gas Market, the Law on the National Commission for 
State Regulation of Energy and Public Utilities, the Electricity Market 
Law and other laws important in terms of strengthening national energy 
security and increasing the efficiency of energy reforms in Ukraine. 
All this important legislation was passed during last 3 years, with 
skilled experts and consultancies financed by USAID.
    U.S. aid to Ukraine is particularly effective at promoting reforms 
when it is made conditional, applying ``more reforms--more financial 
support'' principles, and staying in close coordination with other 
donors. Since the Revolution of Dignity, the U.S. has invested a lot 
into the establishment of the National Anti-Corruption Bureau of 
Ukraine (NABU)--the new law enforcement agency--which has been set up 
from scratch and is now pursuing criminal cases against corrupt 
politicians. The most recent cases are against the head of the state 
fiscal service of Ukraine and the former head of the energy committee 
of the Parliament of Ukraine. The U.S. Government invested funds into 
computers, trainings for NABU detectives, and ensured that NABU is free 
from political interference. The establishment of NABU was possible 
because it was a strong demand from Ukrainian society and a condition 
of IMF loans to Ukraine. The same goes for the requirements for asset 
disclosure by public officials--the new system was launched back in 
October 2016 because of IMF conditionalities.
    U.S. aid to civil society organizations has helped to nurture 
hundreds and thousands of activists across the country, who are now 
watchdogging the government. This includes also independent 
investigative journalists, who regularly report cases of corruption. 
Civil society, which receives support from the U.S. Government, is 
encouraging the Ukrainian Government to deliver results in reforms and 
anti-corruption. Many civil society activists came to parliament and 
government to change the country from inside, even though they are 
still in a minority.
    Ukraine is thus re-building its state institutions and updating its 
democratic procedures in response to demands from its society and with 
help from the U.S. in many spheres.
    Countering information warfare is one of our priorities. At a time 
when Russian propaganda floods Ukraine with inaccuracies and/or 
distortions, Ukrainians rely on Voice of America's and Radio Free 
Europe ``Radio Liberty'' credibility and accuracy. For example, VOA 
Ukrainian's daily coverage provides U.S. officials, experts, members of 
diaspora community and visiting Ukrainian leaders a direct line of 
communication with the people of Ukraine so they can hear and respond 
to accurate coverage in their native language, therefore countering 
disinformation coming from Kremlin-sponsored media outlets. The 
Ukrainian service would like to expand its partnerships with Ukrainian 
TV channels and provide fuller coverage of Congress, the State 
Department and White House. This would help to give Ukrainian citizens 
a broader and more balanced view of world affairs.
    As the head of the Committee on Foreign Affairs of the Ukrainian 
Parliament, I'm working closely with the NDI and IRI offices in Kyiv 
and would like to highlight their support to the democratic 
transformation.
    In April of this year, as a member of a mixed group of Ukrainian 
and Lithuanian MPs, I visited Washington to introduce a new European 
plan for Ukraine, adopted by the Seimas of Lithuania, based on the 2017 
092020 Strategy for Support of Ukraine. During several meetings with 
think tanks, Congressmen, and National Security Council representatives 
we discussed the importance of a strong U.S. position on containing 
Russian aggression. We also discussed the linkages between Ukraine's 
strength and U.S. national interests. I will share some of the key 
points here.

1. a secure and stable ukraine is crucial for strengthening 
        transatlantic ties

    Russia's hybrid war in Ukraine is a blatant violation of European 
security. Russian success in Ukraine would lead directly to the 
destabilization of the continent. Global security would be profoundly 
wounded. It would also encourage Russia to deploy similar tactics 
elsewhere in Europe. In such a scenario, the U.S. would find it even 
more difficult to stay out. If exposed to unchecked Russian aggression, 
Europe could rapidly become a problem rather than a partner. The U.S. 
would then find itself having to invest resources to support stability 
in Europe, rather than enjoying the benefits of united transatlantic 
actions on geopolitical issues elsewhere.
    Just recently I visited the conflict line in Eastern Ukraine. It 
was on Monday, 24 of April--the same tragic day when an American 
paramedic from the OSCE SMM was killed by Russian proxies. We are 
supporting the U.S. in the demand for a timely and fair investigation. 
Putin will not stop unless he is stopped.

2. global nuclear non-proliferation is at stake

    Abandoning Ukraine would deal a major blow to nuclear 
nonproliferation efforts--something President Trump himself identified 
in December 2016 as one of America's top foreign policy priorities. 
Under the terms of the 1994 Budapest Memorandum, Ukraine surrendered 
the world's third largest nuclear arsenal in exchange for security 
assurances from the U.S., UK and Russia, who all committed to respect 
Ukrainian sovereignty and territorial integrity. Russian aggression 
against Ukraine, along with the restrained response of the 
international community, has exposed these assurances as hollow.

3. ukraine's security directly affects the u.s. economy

    Guaranteed security is a prerequisite for sustainable trade and 
investment in the transatlantic region. Future European security is 
unimaginable without a secure Ukraine. If Russia succeeds in invading 
and annexing Ukrainian territory, no country in the region will feel 
secure from similar attacks. The entire security shape of the post-WWII 
world will collapse, bringing down all manner of economic 
relationships. This makes Ukrainian security an important factor in US 
economic welfare. Total U.S.-EU trade in goods and services in 2015 
amounted to USD 1.15 trillion. The EU is America's top trading partner. 
European security is essential for a prosperous America, and a 
sovereign Ukraine is essential for European security.

4. supporting ukrainian democracy is a us foreign policy priority

    Considerable material and political support has been provided by 
the U.S. to Ukraine since 1991--especially since the 2014 Revolution of 
Dignity. This makes Ukraine's domestic reforms a test case for U.S. 
credibility as a democracy supporter. Abandoning Ukraine would severely 
undermine U.S. authority around the world, while also writing off a key 
regional relationship at a critical point in its development.
    Over the last 3 years, Ukrainians have demonstrated their ability 
to implement fundamental and far-reaching reforms. Since 2014, there 
has been more progress in overcoming the country's Soviet inheritance 
than in the previous two decades of independence. The U.S. has a major 
role to play in making sure this progress continues. It is also very 
much in American interests to do so. Ukraine has sufficient resources 
and potential to become the most significant foreign policy success 
story of the current presidency. This success could transform the 
entire post-Soviet region.
    Supporting Ukraine is also the most logical and practical US 
foreign policy response to Russia's hostile actions. Continued support 
for Ukraine allows the White House to avoid entering into direct 
confrontation with the Kremlin, while presenting the opportunity to 
make a tremendous impact on the security of the region. In contrast, 
withdrawing support for Ukraine would undermine the momentum of the 
Ukrainian reform process and create a favorable environment for further 
Russian advances. Such an outcome would fail to satisfy virtually any 
interpretation of U.S. foreign policy objectives.

5. ukraine's success would enhance regional security

    If Ukraine falls back under Moscow's control, the Kremlin will have 
a platform to project its influence with far greater effectiveness into 
Central Europe, the Balkans, the Middle East, the Black Sea region, and 
further afield. In order to safeguard its independence, Ukraine has 
little choice but to make a success of its post-Maidan transition 
towards a more transparent and democratic model of governance. A 
reformed Ukraine would become a democratic champion in the post-Soviet 
space, providing a strong counter-argument to Russia's hybrid 
interventions while inspiring calls for similar transformations 
elsewhere in the neighborhood. Supporting Ukraine's transition is not 
only strategically smart within the current foreign policy context--it 
could also bring long-term dividends throughout the post-Soviet region.
                               conclusion
    For the U.S., a democratic Ukraine would represent an expansion of 
the borders of freedom. A stable Ukraine would represent a reliable 
defense of the Eastern border of the rules-based world. A prosperous 
Ukraine would be a success story of U.S. foreign policy and assistance. 
A successful Ukraine would have a positive impact on the whole region, 
peacefully containing Russia.
    The Ukrainian Government, NGOs, and business community are 
continuing to push forward with tough reforms. No one wants a strong, 
independent and free Ukraine that is part of the Euro-Atlantic family 
more than the Ukrainian people, but continued U.S. support and 
assistance is critical to this process and the path would be much more 
difficult without it. It is better and cheaper to invest into 
democratic transition, thus creating a strong state, than to send 
peacekeeping troops and provide multi-billion dollar security 
assistance to eternally weak states.
    Ukraine chose to ally with the West--and is facing punishment for 
this choice in the form of Russian aggression. This makes Ukraine a 
precedent that can heavily tilt the global scale one way or another. 
Losing Ukraine would mean giving the upper hand to those in Europe who 
openly challenge America. This would be a major step towards restoring 
Cold War realities, but with a dynamic in Russia's favor.
    Ukraine chose democracy on its own, against all odds. It rebelled 
against dictatorship twice within a decade. It is ready to fight for 
its beliefs. All we ask is for reliable support from our allies who 
share our faith. With the EU going through turbulent times, only 
America can effectively support Ukraine in standing up to Russia's 
bullying.
    We are counting on you.
                                 ______
                                 
                     Prepared Statement of I(dh)eas
             litigio estrategico en derechos humanos, a.c.
    I(dh)eas is a Mexican human rights organization which engages in 
strategic litigation to protect victims of torture and other violations 
of human rights and their families, and combat impunity through 
structural and institutional reforms.
    Since 2006, Mexico has been under a persistent state of citizen 
insecurity and an expansion of organized crime that has led to a 
significant increase in human rights violations and high levels of 
impunity. These present a clear threat to the stability of the country 
and to the rule of law.
    Between 2006 and 2016, more than 172,000 homicides took place, 
including 7,500 women murdered since the beginning of President Enrique 
Pena Nieto's mandate. Nearly 31,000 disappearances have been reported, 
and more than half of these cases occurred in the last 5 years alone. 
The Inter-American Commission for Human Rights summarized the situation 
in its 2016 report on Mexico: ``the human rights situation in the past 
years is evident in greater allegations of forced disappearances, 
extrajudicial killings and torture, a regression in citizen security, 
lack of access to justice, and impunity.''
    In 2014, we revised our strategic plan to refocus our institutional 
efforts on monitoring forced disappearances and empowering victims' 
families through strategic litigation. Back then, NED was the first 
organization to believe in our strategy, demonstrating its 
understanding of the local context and believing in the potential of 
local civil society groups in advancing innovative strategies. Support 
from the National Endowment for Democracy has enabled I(dh)eas to carry 
out activities in support of the victims of serious human rights 
violations in Mexico, particularly victims of forced disappearances and 
their families. It has enabled the implementation of 23 training 
workshops aimed at relatives of missing persons in more than 15 states 
across Mexico. NED's support has also allowed us to open new avenues 
for access to justice for victims and their relatives in Mexico, 
setting important precedents, such as the presentation in December 2015 
of the three first cases of forced disappearances before the United 
Nations Human Rights Committee. NED's support has also been crucial in 
the consolidation of our organization. In 3 years, I(dh)eas became a 
solid organization and a leader in monitoring cases of grave violations 
of human rights, recognized by its peers and by the victims themselves 
and by international donors, who are increasingly relying on our work.
    Another element that distinguishes NED from other donors is the 
trust it builds with its local partners and the continuity of support 
over several years. For an organization working on strategic 
litigation, this continuity is critical.
    NED's support has enabled organizations such as I(dh)eas to give a 
voice to thousands of victims who have long been invisible and to form 
a common front to fight against injustice and impunity, as well as to 
advance legislation that recognizes the rights and dignity of victims.

    [This statement was submitted by Juan Carlos Gutierrez Contreras, 
General Director.]
                                 ______
                                 
     Prepared Statement of the International Coalition of Sites of 
                               Conscience

         Memory is the greatest human weapon against barbarity.

    The National Endowment for Democracy, as reflected in its visionary 
and stalwart support for the International Coalition of Sites of 
Conscience (ICSC), recognizes that lasting democracy in any country 
ensures stability and security far beyond its borders, and enduring 
democracy depends on deep roots.
    We at ICSC know from almost 20 years working at the grassroots 
level with victims and survivors around the world who find themselves 
at that crucial point, the point at which they either turn towards 
violence and extremism in response to their experiences, or--with 
steady support from trusted sources and proven models to build on--they 
instead play a pivotal role in nourishing democratic roots, in 
cultivating a society that values and demands truth, justice and 
accountability. Their strength is grounded in the power of memory.
    The support of the NED allows ICSC to help societies in countries 
facing increased repression, transitioning from conflict or emerging 
from dictatorship to develop memorialization and civic engagement 
programs. Our work stands apart from others as we focus first on 
individuals and the power of their past experiences to shape a 
different future: victims, survivors, families of the missing, women, 
and youth, who often find themselves stigmatized and excluded from 
formal channels to engage in transitional justice and rebuilding, but 
all of whom are in fact essential to ensuring lasting peace, as all 
have a story to share about what life is like without freedom, dignity 
or respect for human rights.
    We have seen time and again in countries from Cambodia to Colombia 
that it is only through providing a platform for survivors to share 
their stories--stories of violence, atrocity or conflict, of repression 
or mass abuse--that societies can identify shared experiences, begin to 
bridge differences and truly understand the risk, indeed the likelihood 
of recurrence of violence or abuse if they do not take ownership over 
their individual and collective future. We at ICSC, with the NED's 
support, help societies undertake that transformative process through 
memorialization, laying the groundwork for lasting peace and a 
collective commitment ensuring that these events never happen again, 
there or anywhere else in the world.
    Here are a few examples of ICSC programs made possible by support 
from the NED:
 digital mapping and documentation in the middle east and north africa 
                                 (mena)
    In recognition of the risk of destruction posed by violence and 
volatility in the MENA region, ICSC MENA Regional Network members have 
undertaken a region-wide digital mapping and documentation initiative 
to document sites of atrocity and human rights violations. The 
accessible online archive will support local initiatives designed to 
ensure that the abuses committed at these sites are acknowledged and 
addressed, and the collected information put to use in pursuit of 
justice and accountability.
    The sites--including sites of detention or torture and unmarked and 
mass graves--will be presented in map form, with layered documentation 
that entails victim testimonies, media reports and visual material. The 
platform will act as a key instrument to engage communities across the 
region in promoting a rights-based society through the lens of memory. 
The data will preserve past incidents that can be used as evidence in 
future transitional justice processes, and establish the groundwork 
that allows trained actors in the region to lead democracy-building 
processes.
      collective action in pursuit of peace and democracy in asia
    Religious and ethnic intolerance are among the most virulent causes 
of instability and conflict globally. To ensure such hostilities do not 
fester within a region or spread to others, it is crucial to promote 
tolerance and democracy among two factions in particular: youth, who 
are prime targets for extremists looking to grow their ranks, and; 
women, whose political participation has proven central to solidifying 
peace and democracy.
    Asia has become of particular concern in recent years as Islamic 
militants appear to have increased their focus on the region. ICSC 
programs at Asian Sites of Conscience offer unique opportunities to 
turn the tide, serving as trusted spaces where youth begin to 
understand the root causes of past conflict and how they can engage in 
ensuring a democratic future. In Cambodia, for instance, youth are 
particularly affected by poverty, discrimination, violence, and sex 
trafficking--legacies of the Khmer Rouge regime. Through programs at 
mass killing sites, ICSC member Youth for Peace educates young people 
about this history and how to peacefully deal with conflict and reduce 
stereotypes and discrimination today. The youth then pursue social 
enhancement projects in their communities, orphanages, schools, and 
impoverished areas. One 15-year-old participant recently said, 
``Learning about the past is a way to prevent genocide from happening 
again in my country and in the world too.''
    In Sri Lanka, a country rife with unresolved ethnic and religious 
divisions that threaten official efforts to move from unrest and 
atrocity toward a democratic future, ICSC convenes women conflict 
survivors from across ethnic divides and disenfranchised communities to 
work collectively to foster reconciliation and peace through projects 
that tackle gender based violence and threats to the right to 
livelihood. ICSC is also leading the 9-member Global Initiative for 
Justice, Truth and Reconciliation (GIJTR) that works closely with Sites 
of Conscience and Sri Lankan civil society organizations to build their 
capacity to engage in the current transitional justice process in an 
informed and sustained manner. Through a series of victim-focused local 
as well as high-level consultations, participatory transitional justice 
workshops and roundtables, participants in ICSC-led activities 
contribute to post-conflict peace-building, stability and rebuilding 
efforts by ensuring that multiple stakeholders--particularly youth, 
women and survivors of conflict--are able to engage with nascent 
transitional justice process.
               protecting democracy in russia and beyond
    From its increasing repression to its possible role in elections in 
the U.S. and France, Russia has signaled that it poses a sizable and 
far-reaching threat to democracy and U.S. security. As proof of the 
power of memory, the Russian Government recently took over and rewrote 
the interpretation of Site of Conscience Perm-36, a former labor camp 
that served as the only Russian museum presenting the history of 
political repression in that country. In an effort to preserve this 
history, ICSC is working through select channels to ensure that the 
stories of Perm-36 are preserved and shared, by bringing together 
activists and heritage professionals from Sites of Conscience across 
Russia and Eastern Europe for training on promoting transparent and 
democratic societies, ultimately serving to support and amplify pro-
democracy voices in the region.
            civic engagement in colombia democracy-building
    ICSC's 2016 needs assessment in Colombia demonstrates the crucial 
role survivors, their families and communities must play in creating 
successful and sustainable transitional justice mechanisms. ICSC 
findings identified the immediate need to develop truth-telling 
programs parallel to established formal processes, through which 
ordinary Colombians can come together to share their experiences of 
conflict and then turn to rebuilding their communities. In Colombia 
ICSC and the GIJTR are at the beginning stages of working to promote a 
just and inclusive society, grounded in respect for human rights, by 
ensuring that multiple stakeholders--particularly youth, women, 
indigenous groups, families of the missing and disappeared and 
survivors of conflict--are able to fully engage in activities that 
support reconciliation and peace, such as collecting and sharing 
survivor testimonies and engaging in advocacy.
                                 <greek-l>
                                 ______
                                 
                            Khine Thet deg.
    Prepared Statement of Dr. Thet Thet Khine, National League for 
               Democracy and Member of the Pyithu Hluttaw
                                                    April 24, 2017.
Senator Lindsey Graham, Chairman,
U.S. Senate Appropriations Subcommittee on State, Foreign Operations 
        and Related Programs.

Re:  Democracy Assistance to Myanmar

Dear Mr. Chairman,
    When the people of Myanmar voted National League for Democracy 
(NLD) wholeheartedly in the 2015's General Election, NLD won by 
landslide, which was a game changer in Myanmar politics. Our victory 
made it possible the first civilian government in more than 50 years in 
the country. Myanmar has been a success story in getting the military 
junta out of its way, although military regimes have evidently been 
extremely difficult to get rid of throughout the world's history. Even 
when overthrown, they often leaves a country in chaos. Nevertheless, 
Myanmar maintains law and order today. The smooth transition into an 
embryonic democracy took place in March 2016. However people in Myanmar 
are still not certain whether democracy will prevail in the end. A 
successful outcome of the current process depends on whether we, as a 
people, can steer ourselves toward the right direction in our 
democratic journey.
    Myanmar needs the world to embrace and encourage its advancement in 
its democratization. In fact, the moment we felt the energy of the 
world's democratic society beaming toward us, prompted our hope for 
peace, security, happiness, and better life. However, we are aware of 
the fact that we have yet much to do to install a long-lasting 
democracy in our country. We have been blessed with true friends like 
the U.S. ever since the time we were fighting against the military 
tyranny. This friendship opened the new opportunities we are living 
currently and will also be advantageous to the democratization process 
in Myanmar. Therefore, we do not want it slipping away. Yes, Myanmar 
has been a success story, but it is not the end of our journey yet.
    We envision further success in democratizing our-nation and I am 
sure the whole world shares this vision. As a citizen, a member of 
parliament, and someone who appreciates the benefits of a true 
democracy. I would like to insist that the U.S. Government continue 
assistance for our democratization process. As Myanmar democratizes, 
its people will have much better lives, as they deserve.
                                 <greek-l>
                                 ______
                                 
                           Maaytah Musa deg.
   Prepared Statement of Musa H. Maaytah, Minister of Political and 
                Parliamentary Affairs, Minister of State
                                                       May 9, 2017.
Hon. Dr. Madeleine K. Albright, Chairman,
The National Democratic Institute for International Affairs.

    The Government of Jordan has witnessed how international support, 
with American leadership in this area, can play important role in 
Jordan's forward-looking future, and help further promote Jordan's 
commitment to peace and political reform. As an important example, the 
programs and support offered by the National Democratic Institute (NDI) 
have contributed significantly to a constructive and inclusive 
political landscape that has fostered security; helped maintain peace; 
helped created social cohesion in the country; and helped build 
citizens' trust in Jordanian institutions.
    Through its relationships with key institutions, including the 
Ministries of Interior, Municipal Affairs, Political and Parliamentary 
Affairs, as well as the Prime Ministry, NDI has provided support in 
fostering democratic practices, raised the awareness of government 
institutions about openness, transparency and inclusiveness and 
responded to the needs and aspirations of the citizens by engaging 
women and youth in the political process through civic education 
programs, support for domestic election monitoring, and capacity 
building efforts for civil society organizations. Additionally, NDI has 
implemented important good governance initiatives and provided 
assistance to members in the Jordanian parliament to strengthen the 
legislative process.
    As Jordanians continue undeterred in moving forward with 
implementing widespread reforms, and in face of the economic and 
security challenges amidst the influx of more than 1.3 million Syrian 
refugees, international development programs such as those of NDI 
funded by the U.S. Government are vital to providing the much needed 
assistance and expertise to continue to sustain Jordan's prospective 
future.
                                 ______
                                 
        Prepared Statement of Malam Darfur Peace and Development
Country: Sudan
Dates of NED Support: 2014-Present
Director: Lukman Ahmed, BBC Arabic correspondent based in DC who is 
        originally from Malam, South Darfur

    ``NED provided Malam Darfur Peace and Development (MDPD) with its 
first grant in 2014, when MDPD was a new organization. MDPD was born 
with some difficulties, such as limited resources and a far-reaching 
agenda. That very first grant from NED was a lifting factor and helped 
to increase the capacity of the organization. MDPD was able to move 
forward and gain more trust from other international and local 
partners. The organization jumped from being an institution that 
largely depended on small fundraising events to a solid institution 
with a huge network of local, regional, and international partners. 
MDPD would never have reached its current success as a strong partner 
in the peacebuilding world without NED's technical and financial 
support, and without input and feedback from NED staff. NED has 
enriched MDPD's experience as a young partner organization working to 
promote democracy in Sudan.
    We at MDPD realized that ending the catastrophe in Darfur required 
mobilizing resources, engaging the local communities, and building 
trust between the different communities in the region. Our partnership 
with NED was especially vital in allowing us to dive extensively into 
this field. NED's efforts in supporting MDPD had a large impact on the 
resurgence of life in the Darfur localities of Malam, Mershing, and 
eastern Jebel Marra. This impact now continues to spread to all five 
states of Darfur.
    Because of the generous support of NED, MDPD was able to achieve a 
historic milestone in the organization's agenda: reconciliation and 
peacebuilding between the different communities in these localities, 
which were once epicenters of violence and bloodshed. In October 2014, 
NED supported an initiative to organize and train Women Peace 
Ambassadors, who were able to encourage their respective communities, 
who previously fought against one another, to come together to start 
discussing their problems. This was the most substantial breakthrough 
in talks between these rival communities since the conflict erupted in 
2003. The Women Peace Ambassadors continued their work, and eventually 
the group included more local leaders and morphed into a larger Peace 
Committee. The Peace Committee hosted meetings and signed a peace 
document on behalf of the communities living in eastern Jebel Marra. 
NED's support has led to the creation of a solid peace platform. As a 
result, internally displaced persons (IDPs) have started returning to 
their villages of origin and gearing up to become actively involved in 
Darfur's transformation. With help from other development partners, the 
communities have started agricultural and commercial ventures to 
rebuild local economies, a critical step towards ensuring that emerging 
peace is born to last. NED's grants helped MDPD establish an 
encouraging environment that motivates other IDPs to return home and 
seek reintegration into society, a key factor in ending conflict.
    MDPD continues to engage the communities in this post-conflict 
phase to increase the capacity of local leadership, encourage the 
participation of women and minority groups, and bridge the divide 
between different ethnic groups. Over the last 3 years, MDPD has 
witnessed the positive results of the first NED grant proliferating 
every day, as trust between communities is restored.

            Sincerely,
                                              Lukman Ahmed,
                                                  MDPD's President.
                                 ______
                                 
 Prepared Statement of the National Coalition of Syrian Revolution and 
                           Opposition Forces
 american support for the national coalition of syrian revolution and 
                           opposition forces
    Honorable chairman of Congress, distinguished members of the 
congressional committee, and directors of projects supporting democracy 
assistance programs: First, the National Coalition of Syrian Revolution 
and Opposition Forces (SOC) thanks you for providing this opportunity 
to testify to Congress on the role of the State Department's assistance 
in shaping the situation in Syria and the establishment of a democratic 
alternative to the chemical regime.
    We in the SOC have worked with your organizations in the past years 
on different projects and various grants, which generally focused on 
legitimizing the SOC by strengthening communications between us and 
Syrians both inside and outside Syria.
    After the eruption of the Syrian revolution, suppression, violence, 
killing, and destruction progressed until the Syrian people started 
defending themselves. Shortly after, splits in the military and police 
apparatuses reached thousands from various ranks including tens of 
thousands of officers and individuals from state run institutions, and 
even reaching the defection of Syrian Prime Minister Riyad Hijab to the 
revolution, which could not be stopped. Despite the regime's use of all 
kinds of weaponry, destruction, arrests of hundreds of thousands and 
killing of tens of thousands by torture, the revolution could not be 
stopped. After the regime's military institutions and security services 
weakened, it turned to Iranian, Iraqi and Lebanese sectarian militias 
and then Russia intervened directly.
    Politically, the international community has been unable to deter 
the regime and its allies from killing the Syrian people because of 
Russia's repeated veto. The Russians and regime alleged that the 
opposition was divided and dispersed and had no representatives that 
they could engage in dialogue.
    And at this point, Syrians from the revolutionary forces, 
opposition and national figures worked together to form representative 
bodies, which led to the establishment of the SOC. The SOC became the 
official representative body of the Syrian people recognized by the 
majority of the international community. It was a necessary political 
entity that emerged after the revolution to become an umbrella with 
which the broad spectrum of opposition forces operated under--inclusive 
of people from multiple intellectual, political and ethnic backgrounds. 
The SOC includes structures from:

  --Syrian National Coalition;
  --Movement for Free and Democratic Syria;
  --Moutana Movement;
  --National Union of Syrian Scholars;
  --Writers Union;
  --Syrian Business Forum;
  --Kurdish National Council;
  --Turkmen Component;
  --Democratic Forum;
  --Local councils of all the opposition governorates and 
        representatives from military fractions and some independent 
        national figures; and
  --Free National Assembly.

    Syrian Interim Government (SIG): The SIG is a government elected 
and tasked by the SOC to act as the executive arm operating inside 
Syria. It is a revolutionary government working from within its 
institutions to serve the people of Syria organizing and administrating 
in Syria's regions. It partners with organizations and national figures 
to actualize stability and revive Syrian society aiming to strengthen 
Syrian unity and strive for a civil and just country.
    In a recent visit to the city of al Bab in northern Syria--recently 
liberated from ISIS by the Turkish-led operation Euphrates Shield, we 
stressed an urgent need for the SOC to be present in the area to 
guarantee the hierarchical structure of the state. After the 
liberation, the al-Bab local council, which receives direct support 
from one side of the conflict, became convinced of its full 
independence from surrounding local councils and higher structures such 
as the provincial councils, directorates of the interim government, 
ministries and the SOC coalition. This narrow view will lead to a state 
of division, which will make it very difficult to return to a structure 
of state institutions unless there is also devoted efforts to support 
institutional building and develop the capacity of workers and enable 
them to use tools to connect the institutions together. This is the 
role that friendly countries and supporting bodies can play, a role 
that is constructive (long-term) and not only for emergencies (a 
reaction).
    Syrians have lived many long years dreaming of a democratic country 
that respects human dignity and it was your (America) democratic 
experience that has been a guiding light for them. But when they took 
the hardest steps towards their dreams by starting a revolution against 
the murderous regime, they did not find what they expected with regards 
to assistance to remove the deadly tyrant--instead saw international 
complacency and leniency with him. The same tyrant that ignored all 
international laws and norms and indulged in using prohibited weapons 
against civilians, which killed many.
    Syrians realize that democracy is a building process and cannot be 
achieved in the first try. But they also realize that democratic 
countries carry a moral responsibility in supporting these building 
efforts and there will not be a transition to a democratic county 
unless they actualize the foundations that serve as the base of 
democracy.
    Syrians realize that the journey from a period of regional chaos to 
the establishment of democracy, practiced in a correct way, will take 
practice and will likely have missteps. Though, this process will not 
be possible without support from friendly countries for the opposition 
as a partner and not as an interest seeker. The foundation of building 
a modern democracy starts with Syrians themselves and while experiences 
until now have not reached the level needed, this does not negate the 
state of construction needed for institutions to reach the desired 
goal.
    In the past years, American foreign policy has played an important 
role in in influencing the situation in Syria. Though, the slow pace of 
U.S. involvement negatively affected the image of the United States and 
its role in the world. Though, it cannot be denied the soft influence 
pursued by the former administration, which supported a vision of 
democracy through the life and culture of the people, did not have an 
effect--it did; especially on the ground among local activists and in 
the building of small institutions such as local councils, and medical, 
educational and media organizations. And if this support suddenly stops 
altogether, a state of chaos will return, which will weaken local 
cities and destabilize local government already built and established.
    The errors and practices in previous stages that delayed the 
emergence of opposition institutions cannot be overlooked. However, in 
the opinion of the opposition and forces on the ground, most of these 
errors were due to the absence of state structures. In getting rid of 
these negatives practices, there will be support for a vision that 
permits networks and coordination between all efforts made so that the 
situation does not return to one of destruction. It is important to 
structure support so that it enhances primary channels that pour into 
state-building. One of the most important steps that needs to be worked 
on in the next stage is structure of support and the bringing together 
of channels, not the draining and demolition of that structure.
    The SOC has benefited from a number of grants from the American 
administration in the past years--all of which aimed to reinforce the 
SOC's legitimacy and strengthen its ties with Syrians. The grants 
helped the SOC tackle primary challenges confronting Syrians and 
attempts to organize general frameworks. By laying out policies carried 
out and implemented by the government and organizations, it ensured 
integration instead of a conflict of interests. The SOC has also 
benefited from grants that supported its position in the Geneva 
negotiations, especially those that focused on strategy and helped with 
logistics, which included actualizing a media image through the 
creation of an information system. It drove the opinion of the 
opposition globally in the face of Russia and Iran's support for the 
regime despite Assad's crimes or trembling and haggard arguments and 
speeches.
    As the conflict became more complicated in Syria, Russia used the 
regime and its institutions as a tool to achieve regional gains, and to 
that end, Iran used the regime and Hizballah as a means to actualize 
its gains in the region using various terrorist acts to increase chaos 
and fuel conflict. As a result, all efforts to find a political 
solution failed. All of this places international actors in a weak 
position unless the United States, with all the power in the world, 
takes the initiative with regards to supporting democracy programs, 
protecting constituents, and organizing actions in cooperation with the 
moderate Syrian opposition to establish important steps in creating a 
path to end the criminal regime.
    Thank you for this opportunity and we hope that the next stage is a 
decisive stage towards the end of a criminal regime and the building of 
a democratic alternative.

                                         Abdul Illah Fahad,
                                      Former SOC General Secretary.
                                 ______
                                 
        Prepared Statement of the National League for Democracy
                                                    April 24, 2017.
Senator Lindsey Graham, Chairman,
U.S. Senate Appropriations Subcommittee on State, Foreign Operations 
        and Related Programs.

Dear Mr. Chairman,

    I write to express my strong recommendation for the U.S. Government 
to continue its support to build democratic institutions in Myanmar and 
meet the aspirations of Myanmar people to live in a free and prosperous 
society. After nearly 30 years of political struggle, my party, the 
National League for Democracy (NLD), has won the first democratic 
elections in Myanmar. In November 2015, NLD obtained nearly 80 percent 
of the electable seats in the Union Parliament. However, while 
delighted to receive such an overwhelming support, we are aware that we 
have a monumental task before us. The institutions need to be 
fundamentally transformed.
    Despite the good will, our new government is facing many challenges 
to deliver the needed change. Having been prevented from fair political 
competition for many years before, most of NLD MPs are serving for the 
first time and lack the experience as legislators. The same is true for 
our government ministers. The civil service, inherited from the 
previous system, is yet to build a culture of service to the citizens. 
The judiciary needs to be reformed to serve as an independent 
institution that has the credibility to deliver justice. On the other 
hand, expectations of Myanmar people after casting their democratic 
vote are high, perhaps, unrealistically high.
    It will be difficult for our governrnent to meet high expectations 
of Myanmar people without the support of the U.S. Governrnent. We need 
this support to complete our transition to a fully-fledged democracy. 
We believe that only in democracy will all citizens feel included and 
able to participate in shaping their destiny. We believe that building 
effec tive institutions that are responsive to people's needs is the 
best way to create stability, peace and prosperity for all. That is 
what our struggle was about. And our struggle was also inspired by the 
freedom and prosperity that the United States exemplify.
    The continuous support from the U.S. Government has helped us to 
get here, and we have come too far to allow our peoples' hopes to be 
dashed now. We cannot stop and we will not stop but we hope--in the 
process--we can count on the U.S. to continue championing expansion of 
freedom around the world.

                                               U Win Htein,
                                      Member of the NLD Secretariat
                                 ______
                                 
                    Prepared Statement of OjoPublico
    Asociacion de Periodismo de Investigacion Ojo Publico (OjoPublico) 
is a digital media outlet focusing on investigative journalism to 
promote, protect and further high quality, accurate information on 
issues of public interest. Ojo Publico believes in the role of media in 
informing and encouraging civil society and citizens to monitor public 
officials, corporate interests, and other powerful interest groups. 
Founded in 2014, and based in Lima, Ojo Publico aims to expand its 
coverage to all of Peru's territory.
    The National Endowment for Democracy's support is decisive for our 
work, as it was one of the first organizations to establish a 
partnership with OjoPublico to advance transparency, accountability, 
and the fight against corruption in Peru. Today, 2 years after the 
beginning of this relationship, we believe that NED support has enable 
us to implement a high-impact project in support of civil society--one 
that has changed Peru's public policies to help sustain the country's 
democracy.
    OjoPublico has found in the NED an essential partner due to its 
prestige and its rigorous monitoring and attention to the 
implementation of our projects. The NED understands the problems 
democracies face in this part of the hemisphere and the challenges that 
OjoPublico confronts at the local level. Undoubtedly, this quality sets 
the NED apart from other partners.
    Without the NED's support, OjoPublico would not have been able to 
build the capacity of investigative journalists to report on political, 
business, and judicial corruption, especially in these trying times 
when political corruption have shaken up various governments in Latin 
America. Countless illicit acts would have remained outside the reach 
of news media and public officials as well as of other civil society 
organizations if the NED had not decided to support OjoPublico. Without 
a doubt, NED support in the past 2 years has made a great difference.

            Sincerely yours,
                                         Oscar Castilla C.,
                                                Executive Director.
                                 <greek-l>
                                 ______
                                 
                            Ouamprathum deg.
               Prepared Statement of Somporn Ouamprathum
                                                     26 April 2017.

Subject:  Collaboration between civil society in Samut Sakhon province 
and NDI

    The civil society in Samut Sakhon has collaborated with NDI over 
the past 4 years (2013-2016) whereby it has received great support in 
promoting democracy in the forms of technical assistance and activity/
project. Particularly, NDI has offered platforms for young people, both 
in formal and informal education systems, to exchange opinions and 
develop their capacity in the application of democratic principles 
appropriate to their ages.
    In addition, NDI has successfully coordinated and created 
opportunities for the civil society in the province to the extent that 
it has been able to extend the results to respond to various issues of 
concern in the province on the basis of participatory democracy.
    I therefore would like to express my gratitude to NDI.

                                   Mr. Somporn Ouamprathum,
             Head of Civic Development Center of King Prajadhipok's
                                    Institute in Samut Sakhon Province.
                                 ______
                                 
Prepared Statement of the Pakistan Institute for Parliamentary Services
    Over the years the United States of America has generously invested 
its taxpayer's money in Pakistan to support and strengthen democracy. 
Presently I am Executive Director of Pakistan Institute for 
Parliamentary Services (PIPS) that works with the legislatures at the 
Federal and provincial levels to provide research, legislative support, 
trainings and parliamentary outreach services. The PIPS campus in 
Islamabad is a living and lasting example of American people's support 
to help build a permanent institution through the USAID in 2012. Today 
the Institute serves 1,256 Federal and provincial legislators and more 
than 5,000 officials through indigenous resources provided by the 
Parliament of Pakistan. The PIPS is a living example of sustainable 
support once extended by the USAID through Pakistan Legislative Support 
Program.
    Before joining the PIPS I headed a dynamic civil society organizat 
ion, Centre for Civic Education Pakistan (September 2004-April 2016). 
The Centre was/is generously and continuously supported by the National 
Endowment for Democracy (NED). The Centre conducted civic education and 
constitutional literacy campaigns besides training the citizens to 
peacefully articulate their democratic demands and make the difference 
through the power of their vote i.e. right to be governed 
democratically. The Centre's work with thousands of citizens to engage 
them in democratic conversations and dialogue on democracy, 
constitutionality, civility, rule of law and vital institutional 
reforms would have not been possible without the NED's willingness to 
support innovative ideas. With the support of NED the Centre was able 
to interact with mandate and duty bearers and many of these initiatives 
are now part of the official policies. The journey continues!
    Civil society is weak and evolving but definitely gaining grounds 
and strength in Pakistan where democracy is witnessing transition with 
increased institutional confidence. In this regard the support from the 
NED has catalyzed many relevant processes by extending cooperation to 
civil society organizations. The opportunities to network and share 
experiences with democracy activists, practioners and scholars from all 
over the globe at the platform World Assemblies convened by the World 
Movement for Democracy (WMD) enriched democracy debates and discourses 
. The knowledge products produced by the NED and generously shared 
stimulate democratic thinking and motivate to assign substantive 
meanings to democratic experiences. As member of the Steering Committee 
of the WMD I can testify that it is the only global forum to share 
values and experiences of democracy in different societies under one 
roof.
    Democracy is always a work in progress and the support extended by 
the NED help attain many new milestones in this journey. This journey 
must continue as the long-term investment for posterity, democratic co-
existence and the peaceful planet.

    [This statement was submitted by Zafarullah Khan, Executive 
Director.]
                                 ______
                                 
             Prepared Statement of Pakistan Tehreek-e-Insaf
                                                    April 28, 2017.

Madeleine K. Albright,  Chairman,
National Democratic Institute,
455 Massachusetts Ave, NW, 8th Floor,
Washington, DC 20001-2621.

Dear Madam Albright,

    The National Democratic Institute has played a pivotal role in 
strengthening the democratic institutions of Pakistan. In particular, 
NDI is currently training polling agent master trainers across the 
country to ensure all polling stations have trained polling agents 
(known as poll watchers in the U.S.) in future elections.
    As an ex Foreign Minister of Pakistan, having dealt with several 
International aid organizations and having been involved in the U.S.-
Pakistan strategic dialogue, I have the following views to offer:

    It is important to note that at present approximately 500,000 
polling agents are required as part of the General Elections process 
within Pakistan. In the previous election held in 2013, the credibility 
of the entire election process and the mandate of the governing party 
were put into question as a majority of the opposition parties raised 
the issue of election rigging & violation of applicable laws. Effective 
training for polling agents on the applicable laws and procedures is 
important to eradicate rigging/fraud, and goes to the heart of 
transparency and credibility of the entire electoral process.
    It is pertinent to note that strengthening democracy in a country 
such as Pakistan goes a long way towards providing stability in the 
country. This in turn has a positive impact on improving the security 
situation, not only in Pakistan, but in the entire region. NDI has a 
constructive and important role to play in democracy assistance. While 
doing so, it is imperative that in order to get a good value for your 
money and make an effective contribution, discussions with local 
political parties are important in order to determine their 
requirements for such assistance, and program design should be 
according to their respective needs.
    Democracy is understood differently in each society but the core 
values remain the same. It is important to be well versed with local 
sensitivities of a country in order to provide assistance where it is 
most required.
    Pakistanis would be averse to any efforts aimed at indoctrination 
of ideologies that are not applicable to or are against the norms and 
traditions of the country. However, all assistance that strengthens the 
democratic landscape is always welcome and we will always continue to 
be appreciative of any such efforts.
    When implementing any kind of program in Pakistan, it is important 
to employ local personnel in organizations such as the NDI, as people, 
especially in rural areas, tend to respond more positively if there is 
no language/cultural barrier.
    Finally, I would like to thank the U.S. Government for the 
democracy assistance it has been providing with regard to strengthening 
of the democratic framework in Pakistan, including parliamentary and 
other political institutions.
    The ideology and vision of PTI is based on justice for all and the 
belief that strong and impartial democratic institutions play a key 
role in empowering citizens and removing the sense of deprivation and 
marginalization from society. Consequently, empowered citizens are more 
likely to fight the extremist ideological mindset and be the impetus 
for greater security and economic wellbeing.

            Yours sincerely,
                                      Shah Mahmood Qureshi,
                     Vice Chairman and Deputy Parliamentary Leader.
                                 ______
                                 
  Prepared Statement of the People's Alliance for Credible Elections 
                                 (PACE)
                                                    April 26, 2017.
Senator Lindsey Graham, Chairman,
U.S. Senate Appropriations Subcommittee on State, Foreign Operations 
        and Related Programs.

Dear Mr. Chairman,

    In November 2015, the people of Myanmar, also known as Burma, 
elected its first civilian-led government in decades. These elections 
were a testament to the work and commitment to democracy of millions of 
Myanmar citizens, civil servants, political leaders and civic 
activists. They are also a testament to the support we received, as a 
country and as individual organizations, from the international 
community.
    The People's Alliance for Credible Elections (PACE) had the 
privilege to become the first civic organization in the history of 
Myanmar to be accredited to observe an election. The systematic 
information gathered by our more than 2,700 observers provided an 
unbiased assessment of key aspects of the election process, from the 
pre-election period to the tabulation of results, and allowed PACE to 
issue recommendations to improve election laws and regulations before 
the next national elections in 2020. Just as importantly, election 
observation by PACE and other groups created unprecedented political 
space for citizens to engage in the political process.
    We could not have done this alone. From the National Democratic 
Institute (NDI) we learned systematic observation methodologies that 
have been developed and fine tuned throughout the years in elections 
all around the world. These methodologies allowed PACE to be an 
independent and credible voice throughout the process, trusted by 
election authorities, political parties and other civic organizations. 
Our work was also made possible by financial contributions from the 
National Endowment for Democracy (NED) and, through NOI, from the U.S. 
Agency for International Development (USAID) and the United Kingdom's 
Department for International Development (DFID). International 
assistance to other actors also contributed to a successful election 
process. International organizations assisted the election authorities 
to compile and update the voter list, accredit observers and educate 
voters; prepared candidates from multiple parties to participate in 
competitive elections; and supported other civic groups to provide 
voter education and observe the elections . In particular. assistance 
funded by the United States Government was critical to enable Myanmar's 
transition to democracy.
    The 2015 elections were just a first step to full democracy in 
Myanmar. The country is pursuing an ambitious peace process to end 
conflict in the border states. Citizens have begun to seek a different 
relationship with their elected leaders, one based on respect for 
freedom of speech and other fundamental freedoms. Parliamentarians, 
most of whom have not held public office before, are learning about 
their roles and responsibilities in a democratic system. Civil society 
is finding ways to contribute to this democratic transition as an 
independent but constructive voice . The success of this democratic 
transition will require the full commitment of the leaders, 
institutions and citizens of Myanmar. I believe that it also will 
require the continued support and assistance of the United States 
Government and others in the international community to further empower 
those in public office and across the broad spectrum of civil society 
to fulfill our complementary roles and strengthen our country's 
democracy. The path ahead will not be easy but, with continued support, 
organizations like PACE stand ready to do our part to fulfill the dream 
of a democratic Myanmar.

            Respectfully yours,
                                    Sai Ye Kyaw Swar Myint,
                                                Executive Director.
                                 <greek-l>
                                 ______
                                 
                            Prlic Lana deg.
  Prepared Statement of Lana Prlic, VP of Social Democratic Party of 
                         Bosnia and Herzegovina
    Before I begin my story about my IRI chapter, I would like to 
briefly introduce myself and help you understand this story, a chapter 
that started in 2011 and is still going on. My name is Lana Prlic, I am 
24 years old, I have a masters degree in International Business and 
Finance and I am the Vice President of the Social Democratic Party of 
Bosnia and Herzegovina. I am also ``mixed marriage'' child, born to a 
Croatian father and a Bosniak Muslim mother. I celebrate both Christmas 
and Eid, as well as Orthodox holidays with my friends and relatives. I 
was born and still live in the beautiful city of Mostar, which holds 
the sad title of Bosnia's most divided city, politically and 
ethnically. Those divisions are ruining it day by day, and they are 
ripping its heart and soul, in a way that is difficult to imagine in 
the 21th century in Europe.
    The deep ethnic divide in my hometown is something I never learned 
to live with and I will never understand how it can be acceptable to 
anyone. For all my life, I've been taught that no ethnic group or 
nation is superior to another and that there are only good or bad 
people. This understanding is something I feed most strongly about and 
it has shaped me and all decision I have made in my adult life. Perhaps 
this is one of the reasons I have, at a very young age, developed a 
passion for politics.
    I still remember vividly my childhood days, when I was watching the 
evening news every night with my mother and my grandparents, and trying 
to grasp what is going on with undivided attention. My friends use to 
laugh at me because of this, teasing me that I surely would become a 
boring politician when I grow older.
    It didn't take long before I actually started my venture into 
politics. What prompted my decision to join the Social Democratic Party 
(SDP) in 2010, was the fact that I was going to high school in my 
hometown of Mostar, which was (and still is) a prime example of school 
segregation. It's a phenomenon called ``two schools under one roof,'' 
where children of Bosniak ethnicity and Croat ethnicity are physically 
divided in the school. This practice is truly the worst form of 
discrimination in our education system and a threat to the multi-ethnic 
society that we once had and that we should be trying to rebuild. The 
segregation of children in my hometown and in my country has motivated 
me to enter politics. Of all the issues this fragile country has, this 
is the one I feel most strongly about and I am determined to fight 
ethnic segregation until we put an end to this horrific practice.
    In 2011, I moved to Sarajevo and received a call from a party 
colleague, suggesting me to apply for IRI's 3-year professional 
development program for a group of young women with different ethnic 
and political background. The Young Women's Leadership Academy has 
shaped me and my political career in ways I could not have imagined 
when I first joined the program. I was the youngest in the group and as 
an 18-year old my political knowledge and experience was not 
impressive, to say the least. The group included 19 young women from 
all over the country. The group was as diverse as it could be and it 
proved to be our greatest strength. Throughout the 3-year program we 
learned to appreciate our differences, we openly debated political and 
social issues and learned to listen to each other. Looking back, I 
realize just how much the program enabled us to realize that we share 
the same problems and hopes for the future. We went from being program 
participants, to becoming friends.
    The program combined training programs and a mentorship program 
that allowed us to grow individually and work on our skills and address 
our weaknesses. In many ways, this program laid the foundation of our 
political careers and offered us the opportunity to learn from renowned 
trainers and leaders how to communicate, how to conduct effective 
political campaign and how to become responsive and accountable 
political leaders. We learned about fundraising, public relations, 
public opinion research and leadership. We were shown how to use our 
skills to become the progressive and reform-oriented leaders our 
country so desperately needs.
    Women are one of the most marginalized groups in Bosnian politics. 
Political parties and their leaders have systematically excluded women 
from all decisionmaking processes over the years. The value of IRI's 
program was not only in that it provided a unique opportunity to learn 
from the best and the brightest, but also that it offered us support, 
understanding and mentorship that most of us did not get from our 
political parties. It was reassuring to know that I always have someone 
to turn to, to seek advice from, knowing that they have my best 
interest in mind.
    I became fully aware of the impact the program had on me when I 
became vice-president of my party in 2014, with only 21 years I was the 
youngest VP in the party's history. Despite my very young age, I was 
praised for handling the limelight and the media scrutiny very well. I 
credit IRI's program for that. In the 3 years with IRI, I learned how 
to communicate, how to react to criticism and how to get up when 
somebody pulls you down. Most importantly, this program has steadily 
built the confidence of all 19 women who participated in it. Self-
confidence is like a muscle, you can build it up, but to do that, you 
need a support system, a partner who will provide you with the tools, 
lead you throughout this process and empower you every step of the way. 
For me, IRI was just that.
    What made this program so unique and innovative was IRI's decision 
to work with the same group of promising young women leaders for 3 
years. This allowed them to witness our development and customize their 
program to address our weaknesses over the course of these 3 years. We 
grew as individuals and we grew as leaders. I strongly believe that 
this approach produces visible results and brings about change that we 
want to see in developing countries. When I joined the program, I was a 
young party activist. When I completed the program, I was holding the 
position of VP of one of the strongest political parties in the 
country.
    The war in Bosnia and Herzegovina ended 22 years ago, but the scars 
it left are still visible. The country is deeply divided, the youth 
unemployment rate at almost 60 percent is the biggest in the world, and 
the political stalemate has seriously affected the country's prospects 
of joining the EU and NATO. It is a very fertile ground for corruption 
and certain political elites have an interest in maintaining this 
situation as it is. Only a new generation of reform-oriented, 
progressive and accountable leaders can rebuild this war-torn country, 
regain the trust of its citizens and provide much-needed economic 
security and prosperity. IRI's programs are aimed at exactly those 
young people, who are capable of leading Bosnia and Herzegovina into a 
better future. Thousands of young, educated people have already left 
the country and thousands more are planning on leaving in the near 
future. I believe we owe it to this generation, and future generations, 
to build a strong state, to respect the rule of law, to create a 
prosperous society in which everyone can accomplish their goals and to 
have responsive leaders whom we can trust. Having said that, I am fully 
aware of the obstacles everyone who has tried to do that is facing. IRI 
has been a champion of advancing democracy in this country.
    A great number of young leaders have emerged from IRI's programs 
and they are now holding key positions in the parliaments and in 
government institutions, working tirelessly on political and economic 
reforms. IRI's work in Bosnia and Herzegovina is having an important 
and positive impact. I will forever appreciate and cherish my 
experience with IRI and the incredible support I have received. In 
today's world, IRI's work around the world, and particularly in 
vulnerable countries such as mine, remains as important as ever.
                                 ______
                                 
   Prepared Statement of the Red Latinoamericana y del Caribe por la 
                               Democracia
    The Red Latinoamericana y del Caribe por la Democracia (Redlad) is 
a network that brings together more than 400 organizations and 
activists from the region who work to strengthen their countries' 
democracy and to promote and defend human rights. Redlad emerged as a 
regional initiative of the World Movement for Democracy and has been 
supported by the National Endowment for Democracy since its inception 
in 2008.
    In its almost 10 years of existence, Redlad has reached more than 
50,000 beneficiaries in more than 40 workshops and 10 courses, offered 
approximately 100 meetings in defense of the Inter-American Human 
Rights System, gathered more than 2,000 attendees in meetings and 
events, and produced nearly 200 alerts received by at least 13,000 
people. Redlad has been able to defend activists at risk as well as 
organizations that have been threatened or attacked by authoritarian 
regimes. Redlad has denounced setbacks in civil society's enabling 
environment in the region and, in alliance with global networks and 
movements, publicized the threats faced by activists in the region. In 
addition, Redlad has strengthened the capacity of civil society to 
influence public policy and to act in a coordinated manner in the 
Inter-American system. NED's support to Redlad has not been only 
financial: It has served as an inspiring point of contact with hundreds 
of organizations around the world, providing mutual support to other 
relevant political actors and a means of conveying civil society's most 
urgent needs to the highest levels.
    If NED had not supported us, Redlad would not have been created or 
would have failed in its attempt to become a space for collective 
dialogue and action for civil society in the region. We would not have 
been able to defend the Inter-American human rights system, or include 
minority voices in high-level, hemisphere-wide settings. In addition, 
we would not have been able to strengthen the Venezuelan youth 
movement, give voice to unprotected communities, or fight against 
authoritarian regimes.
    Do not hesitate in contacting me if you need more information.

            Faithfully yours,
                                            Gina Romero R.,
                                                Executive Director.
                                 ______
                                 
       Prepared Statement of the Republican Party of Afghanistan
                           Secretariat Office
    Events and Achievements after the fall of Taliban.--After the fall 
of Taliban and the establishment of the United Front forces in Kabul, 
based on the United Nations demand and agreement of national 
influential figures of Afghanistan leaders of the United Front, the 
Bonn conference was held on 06/09/1380, under the supervision of United 
Nations and hosted by Germany, to determine Afghanistan's national 
cabinet. The participants of this conference were from Rome Group, the 
Cyprus Group, 11 members from the United Front led by Mohammad Yunus 
Qanooni, a delegation from Iran, the European Union, Saudi Arabia and 
others. The agreement of the Bonn conference after nine days of 
consultations was to form an interim administration for 6 months and a 
2-year interim government and convene the Loya Jirga, led by Hamid 
Karzai and five deputies.
    The important tasks that have been done since then, with the help 
of the international community, are:

  --The formation of an interim administration.
  --The formation of Loya Jirga commission for the ratification of 
        constitution law.
  --The formation of the Supreme Court as an independent body of 
        government in the country.
  --The Formation of a commission for refugees by the support of UN.
  --The Formation of a commission to supervise the candidacy process.
  --Ratification of the laws for political parties in Afghanistan.
  --The creation of electoral commissions.
  --The creation of the human rights commission.
  --Developments in education, opening of school doors for males and 
        females.
  --Developments in the health sector and establishment of health 
        centers.
  --Developments in transportation.
  --Developments in operational budget and increase in gross production 
        and increase in developments budget by the foreign support.
  --Formation of private and public banks.
  --Progress in development projects, and developments in creation of 
        electricity dams.
  --The total foreign aid to Afghanistan from 2001- 2014 reached $104 
        billion.
  --For better governance, security and poverty reduction, a conference 
        was held in London (focused on the Afghanistan National 
        Development Strategy) with the participation of 70 countries, 
        and demonstrated their commitment to Afghanistan in all sectors 
        includes self-sufficiency of Afghan National army, Afghan 
        National police forces and National Directorate for Security.
  --The 2002 Tokyo conference, 2004 Berlin conference, 2006 Paris 
        Conference, 2008 London conference in 2008, 2010 Kabul and 
        London conferences, and 2012 Bonn and Chicago conferences were 
        all held to support economic aid for Afghanistan.
  --The signing of a U.S.-Afghanistan bilateral agreement with US for 
        long term support in 2005, and declarations in 2008 and 2009 by 
        the Afghan foreign ministry and US secretary of state.
  --The signing a U.S.-Afghanistan bilateral agreement for long term 
        support in the educational sector, and the training and 
        strengthening of the security sector until 2025.
  --The signing of 12 different international conventions and accession 
        of Afghanistan into nine international conventions.
  --Afghanistan currently has unilateral and bilateral relations with 
        88 countries of the world.
  --Afghanistan has membership in regional economic organizations, 
        SARC, UNESCO, EICO, World Bank, Asian Bank, ICB and others.
  --The formation of the women affairs ministry.
  --Developments in CSOs activities and the creation of political and 
        social institutions.
  --The creation and ratification of the law of elimination of violence 
        against women.
  --The ratification of regulation on prohibiting women harassment.
  --The ratification of resolution (1325) for women rights and their 
        support.
  --The National Democratic lnstitute's (NDI) role in cohesion of 
        political parties and support for the provincial council and 
        parliamentary elections candidates.
  --The growth of democracy in Afghanistan.
  --Women's growth in commerce, politics, social and economic sectors.

Recommendations:

  --Comprehensive support on better governance and security, the 
        reduction of poverty and unemployment, and joint cooperation 
        with the international community, United Nations and the U.S. 
        on eliminating corruption.
  --Comprehensive support on maintaining security, political stability 
        and preventing neighbors from interfering In the Internal 
        Issues of Afghanistan.
  --Support in the educational sector and higher education all over the 
        country.
  --Strengthening civil society institutions, and supporting political 
        parties as an important element of democracy.
  --Comprehensive support in eliminating international terrorism, Al-
        qaida and Daesh as phenomena of violence for the whole world.
  --Comprehensive support on eliminating the cultivation and 
        trafficking of drugs.
  --Maintaining the current achievements in Afghanistan in the areas of 
        peace, political stability, citizen's immunity, the prevention 
        of foreign interference in internal matters of Afghanistan, and 
        the creation of joint understanding regionally and 
        internationally.
  --Comprehensive efforts of the international community, the United 
        Nations, and especially USA to stop Pakistan's interference in 
        internal affairs of Afghanistan, and common efforts in fighting 
        terrorists and Daesh who are operating violence against the 
        people of Afghanistan from across the border.

    [This statement was submitted by Adelah Bahram Nizami, Elected 
chief of the Republican Party and Civil Society Senior Advisor to the 
President of the Islamic Republic of Afghanistan.]
                                 <greek-l>
                                 ______
                                 
                            Sag Junaidi deg.
 Prepared Statement of Mr. Junaidi SAg MH Aceh Election Commissioner, 
                               Indonesia
    Chairman Graham, Ranking Member Leahy, and subcommittee members, 
thank you for granting me the opportunity to submit testimony for this 
important hearing. I am elected as Aceh Election Commissioner from 
2013-2018. Unlike past elections, the 2017 election was not marred by 
violence and was credible, peaceful and transparent. The success of 
this election will further stabilize and consolidate democracy in Aceh, 
positively contributing to the stability of Indonesia at-large.
    Leading up to the election, domestic and international observers 
were worried about large-scale outbreaks of violence. Aceh had a 
history of violence during past elections, particularly during local 
elections in 2006 and 2012, when as a candidate experienced electoral 
violence first-hand. The violence undermined efforts to build a 
credible democracy in Aceh, which led to larger concerns about 
instability in a region of Indonesia that was in a state of conflict 
with the central government for over than 30 years until the signing of 
the 2005 Helsinki Agreement.
    One of the reasons this election took place peacefully was that 
candidates contesting the election deployed party agent observers to 
monitor polling stations on Election Day. This was a large undertaking 
from all candidates to minimize violence and ensure a fair electoral 
process. On Election Day, candidates deployed party agents to all of 
Aceh's nearly 9,400 polling stations. These observers served as a 
strong deterrence to those who wished to disrupt and delegitimize the 
election.
    In total candidates deployed over 70,000 party agents to observe 
polling stations. While each candidate opposed each other on the 
ballot, each worked together on this endeavor because all believed it 
was important to create an environment on Election Day where voters 
could cast their ballots without fearing for their safety, and where 
all candidates contesting the election could feel confident that they 
were taking part in a credible and fair process.
    This massive party agent election observation effort would not have 
been possible without the support of the International Republican 
Institute (IRI). All candidates worked with IRI under a grant provided 
by the U.S. Department of State to train over 2,500 party agent 
trainers, who subsequently went on to train thousands more. IRI played 
a vital role in not only teaching party agents how to perform their 
duties on Election Day, but also in convening opposing campaigns in a 
manner that built trust and enabled us to work together to ensure a 
peaceful and stable electoral environment.
    Without support from IRI and the Department of State, the number of 
party agents present at polling stations would have been much lower, 
reducing their collective ability to serve as a deterrence to electoral 
violence. An outbreak of violence would have called the credibility of 
the election into question, potentially destabilized Aceh, with 
troubling ramifications for greater Indonesia, the Southeast Asia 
region and beyond.
    The support provided by IRI and the Department of State not only 
had a positive impact on this election, but will have a lasting impact 
as Indonesia moves toward national elections in 2019. These elections 
will be an important indicator of the status of democracy and stability 
in Indonesia, and continued investment from international donors will 
keep Indonesia moving in the right direction.
    Mr. Chairman, Aceh has come a long way since the signing of the 
Helsinki Accords and the 2006 election. I am proud to have worked with 
IRI to promote stability in Aceh, and hope there will continue to be 
opportunities to do so in the future. Thank you again for granting me 
the opportunity to submit testimony on this important matter.
                                 ______
                                 
                      Prepared Statement of SILAKA
    Since its founding in 1993, SILAKA has committed itself to the 
cause of Cambodian democracy. We believe equitable economic 
development, environmental protections, and social justice can only 
come from a free and fair democratic system. This vision of democracy 
has often been clouded by the heavy restrictions on the opposition and 
civil society in Cambodia, but we have yet to lose sight of our goal. 
This may not have been the case if it were not for the reliable 
commitment and support of the United States.
    The United States has partnered with SILAKA from its very first 
days to build the capacity of Cambodian individuals and organizations 
to advocate for change. USAID support, provided through NDI, has 
allowed us to prepare agents of the two major parties to train 
committed and talented women candidates for the upcoming commune 
council election. The outcomes of the project go far beyond the 
critically important goal of electing women to local office. Our 
trainings for officials on both sides strengthen the ability of their 
parties to communicate their policy position to voters.
    To me, however, the most significant achievement of the program is 
the bipartisan collaboration fostered between incumbent and opposition 
leadership, from curriculum development to training day. U.S. 
assistance has allowed us to develop this example of bipartisan, 
solution-oriented democracy, with the hope of its spread throughout the 
country.
    Ensuring that the voice of every Cambodian is heard in government 
is essential to the development of our country. U.S. assistance through 
NDI has not only supported our advocacy for democracy; it has supported 
our advocacy on behalf of the marginalized. Women and youth have an 
unprecedented chance at greater representation in the upcoming 
election. This representation is critically important in a country as 
young as Cambodia. Continued U.S. support, putting our shared values to 
action, can help realize the just, equitable democracy we envision.

    [This statement was submitted by Thida Khus, Executive Director, 
SILAKA, Phnom Penh, Cambodia.)
                                 <greek-l>
                                 ______
                                 
                           Silva Ulisses deg.
           Prepared Statement of Jose Ulisses Correia e Silva
                        Republica de Cabo Verde
                            primeir0-minisro
                                          Praia, 28th April , 2017.

Mr. Ken Wollack, President,
National Democratic Institute (NDI),
455 Massachusetts Ave, NW,
Washington, DC 20001.

Excellency,

    I am writing to you today to demonstrate my support for and 
appreciation of the importance of assistance to democratic development 
in Africa, particularly in Cabo Verde, by the National Democratic 
Institute.
    Cabo Verde is recognized as one of Africa's success stories in 
promoting democracy and I believe this was only possible with the help 
from organizations like NDI. In recent years, Cabo Verde-NDI relations 
have reached extraordinary levels and, through NDI, Cabo Verde has been 
able to share and export its knowledge of democratic development to 
other countries in the region and the world.
    Cabo Verde was a one-party state until democracy was introduced in 
1991 when, for the first time, a multi-party election was organized. 
The democratic system in Cabo Verde is now recognized as successful and 
stable. With a democratic system in place, Cape Verde introduced major 
economic, political and social reforms leading to an increase and 
diversification in the country's trade and commercial development with 
other countries.
    In the most recent parliamentary elections held March 20, 2016, I 
was elected Prime Minister ending 15 years of PAICV-ruled government. 
When I took office, I announced the following priorities: economic 
expansion and job growth; poverty reduction; infrastructure and 
business environment enhancements; expanded foreign direct investment 
(FDI); crime reduction measures; government transparency; 
accountability; and national security with a focus on combating drug 
trafficking.
    With the return to power by my MPD party after 15 years in 
opposition, it was very important to collaborate with institutions such 
as NDI to assist with the transition of power. NDI support was vital to 
insure that the transition was accomplished in a peaceful and effective 
manner. As a result, Cabo Verde strengthened its reputation as a model 
of democratic governance. Now with the help of NDI, we have been able 
to share our experiences through a regional conference on Democracy 
Transfer hosted in Praia, Cabo Verde and, most recently, with a mission 
led by our Cabo Verde Ambassador in Washington, DC to Gambia for an 
assessment trip to assist the Gambian new administration in the 
transition of its own authority.
    Such collaboration between Cabo Verde and NDI is an outstanding 
example to show that the democratic system can work. In today's world, 
I know that many people still doubt in the effectiveness of democracy 
but our experience in Cabo Verde proves the opposite. With NDl's 
support, Cabo Verde can take a leading role in demonstrating that 
despite challenges, democracy works and we can do this by sharing our 
knowledge and experience in our region and beyond.

    Please accept the assurances of my highest consideration.
                                 <greek-l>
                                 ______
                                 
                        Stanowski Krzysztof deg.
Prepared Statement of Krzysztof Stanowski, Former Director, Polish Fund 
                      for International Solidarity
    In the 1980s NED brings hope and provide assistance to democracy 
activists and human rights defenders in Eastern Europe. In the 1990s by 
supporting cross-border programs, NED has played a crucial role in 
establishing relations between civil society and independent media 
leaders from Eastern Europe and Central Asia. Finally, NED encouraged 
us and support to provide solidarity with partners from Eastern Europe, 
Central Asia, and Mongolia. Establishing World Movement for Democracy 
provide a unique platform to exchange experiences with partners from 
other regions.
    NED was important as a model in debate on supporting democracy on 
behalf of the EU. During Polish Presidency of EU Council European 
Endowment for Democracy was established to promote the European values 
of freedom and democracy and assist pro-democratic civil society 
organizations, movements and individual activists in the EU 
Neighbourhood. In the same year, Poland established Solidarity Fund 
PL--Polish democracy support agency.
                                 <greek-l>
                                 ______
                                 
                            Stroe Ionut deg.
   Prepared Statement of Ionut Stroe, Member of Parliament of Romania
    IRI's partnership with the National Liberal Party (PNL) and lately 
with Save Romania Union (USR) political parties has been one of the 
most challenging but at the same time rewarding experiences I have had 
as a politician in my country. In the context of a very turbulent 
political situation in Romania over the past few years, the journey we, 
Romanian politicians, are going through is as compelling as it is 
challenging--and organizations such as IRI have been key in helping us 
reform ourselves to adapt to this changing situation. Looking at the 
details of my personal experience, the relationship between IRI and my 
party, the (PNL) has two important aspects: party work and political 
training, and also the need to address transparency as one of the most 
important lines in political behavior.
    Political Work: Together with IRI, PNL has been working hard to try 
and understand current political and sociological evolutions in my 
country and a new conundrum that is not so dissimilar to the United 
States. With help from IRI, we have been fed with ideas on how to adapt 
to new trends and to act as a stabilizing force in Romanian politics--
with the idea to help convince politicians to force their structures to 
modernize and open up to the new society emerging from the ashes of the 
financial, economic and social crisis of the past decade. Such 
assistance includes one-on-one meetings with leadership and key 
political actors of PNL, trainings with campaign specialists for PNL 
candidates in the last legislative elections, and participation of the 
PNL leadership in IRI's democracy summits over the past 2 years, 
including a general summit with all players to agree on the causes of 
the current democratic distress (and consequent vulnerability to 
Russian influence) on our continent, and the other one this year 
dedicated to maximize our opposition work in a constructive, 
constitutional and positive way for our nation. Together, we have 
identified plenty of debate points and issues we need to address as a 
result of our meetings--in this sense, IRI has helped us move forward 
in a way no other organization could have. For instance, one of the 
main concerns in our discussion was the need to find solutions in order 
to achieve political stability facing extremist threats, or the 
radicalization of public or political speeches. Moreover, we have 
established that one way of fighting against these types of political 
behavior could be only by implementing transparency in political 
decisionmaking so that extremist forces can be stopped from getting 
more power.
    Without encroaching on our own sovereignty, organizations such as 
IRI encourage a debate held among us as Romanian MPs and decision 
makers within PNL that is both healthy and in the end very comforting 
because we understand that, disregarding a certain state of 
disappointment from public opinion and provided we do what we believe 
is the right job, we can counter real extremist parties that want to 
harm our quest for freedom, and can find solutions to counter or re-
center politicians that tend to radicalize their public outlook taking 
advantage of the social situation.
    Transparency: With regard to transparency, Romania has a firm 
legislative background, but needs political will to tackle the issue, 
and organizations like IRI help us strengthen the latter, a quite 
unique skill I have to say. In Romania there is a tendency of governing 
through emergency ordinance. Our relationship with IRI helps us re-
think our action so that we can be more connected with good practices 
and cement our integration into the western world through a trustful, 
fruitful bilateral relationship.
    IRI has been pushing hard with the help of politicians and partners 
across Romania for a healthy debate on transparency that would include 
all actors, may it be government, party politicians (something that is 
very often absent in the Romanian public debate) and civil society, in 
order to push for a consensus for more transparent practices in the 
public sphere. Such efforts include a multiparty Romanian Transparency 
conference organized in September 2016, as well as exchanges with 
politicians from the Dacian Ciolos government in 2016 and party 
politicians, notably from PNL and USR, on the how to constructively 
push for more transparency reforms in Romania.
    Unfortunately, in U.S.A., Romania is often associated with images 
of poverty and corruption. And although these two images are cliches 
that do not necessarily reflect reality. What is less known is that 
there is a drive from parties such as PNL to tackle poverty and 
corruption, and in some cases we have shown great success in improving 
transparency. Thanks to the IRI-organized roundtable in Romania, in 
partnership with some NGO's and the political partners, we were able, 
in a politically neutral context, to remind ourselves of the good work 
done, but also of the challenges ahead.
    We have received a lot of good feedback from our partners, speakers 
and participants who took part in our common activity and expressed 
surprise at seeing important personalities actually publically talking 
to each other--one of them even mentioned the ``tour de force'' of 
having all parties represented in a roundtable only 3 months before 
legislative elections, discussing their respective roles in making 
Romania more transparent in a co-operative mode.
    All political actors in Romania agreed to the formation of a 
technocratic government that has done much to promote more transparency 
in the administration and beyond. This was partly due to the unique 
position of an apolitical government comprised of technocrats, CSO 
representatives, and party politicians being united to reinsert trust 
in the political system, which is exactly the kind of political work 
that IRI, through their politically-savvy but yet cross-party approach, 
encourage. Unfortunately, as recent legislative elections and their 
aftermath have shown, the political game and its traditional divisions 
have re-emerged, putting further progress on anti-corruption on the 
backburner, and we need more than ever the discrete, though extremely 
helpful and constructive facilitation that organizations like IRI 
provide.
    IRI's work to promote transparency, epitomized in the conference on 
``transparency and integrity in the Romanian public sphere,'' is a step 
forward not only because it puts all the relevant actors together for 
dialogue, but also because it pushes them to talk and listen to one 
another without devolving into the all-too-common habit of trying to 
point fingers at each other. Without encroaching upon our sovereign 
rights as MPs and political actors of our country, IRI thereby pushes 
us to go forward with reforms and make our system more transparent, and 
more business friendly. I believe this is good for our own business, 
because it makes it more attractive to foreign investment, but it is 
also good for American business, because it makes us all more alike, 
and our common business more predictable.
    Young Politicians: One of the most compelling themes in our 
discussions with IRI is to empower young and emerging politicians. IRI 
representatives have been a real force in supporting youth to enter in 
politics and to take more political responsibility. In PNL there is a 
rejuvenation process, with a lot of young, refreshing people who went 
through IRI's trainings and activities and were elected as MPs in the 
December 2016 elections, who help us in our re-questioning of 
ourselves, and I believe will be the key to our adapting to the 
emerging new world. IRI is training youth who are politically 
conscious, politically active, but the problem encountered in Romania 
is that youth in general is much more cynical than it used to be. There 
is less political participation in general, and much more cynicism 
about politics in general than there used to be--if nothing is done, I 
fear that this cynicism we inherited from Communism will prevail again, 
pushing Romania in new dark ages. After almost 30 years since the fall 
of the Ceausescu regime, I guess we can try to sort this problem on our 
own--and I still think ultimately we will prevail. But having the 
support and help from our American friends to continue in the path that 
I believe is positive for each of us would be even better.
                                 ______
                                 
Prepared Statement of the Supporting Organization for Afghanistan Civil 
                                Society
    Dear Senator Graham: My name is Khalil Parsa; I survived an 
assassination attempt last September because of my efforts combatting 
corruption in Afghanistan. I lead a nonprofit organization, Supporting 
Organization for Afghanistan Civil Society (SOACS), promoting good 
governance in Herat province, West Afghanistan. I am deeply honored and 
looking forward to receive the NED's Democracy Award on June 7. 
Currently I am a Reagan Fascell Democracy fellow at NED.
    On behalf of my community and colleagues at SOACS, I thank you for 
your strong support to the NED, which backed our campaign for 
transparency and accountability of local governments in my hometown of 
Herat, where citizens can directly call and report corruption. Our 
campaign made local officials responsive and mindful of SOACS as a 
civic watchdog. Recently, SOACS received a written complaint about a 
powerful official, the Chairman of Herat Provincial Council, who was 
involved in bribes and drug trade. We referred his case to our Rule of 
Law Committee chaired by the governor of Herat who informed local 
security officials and officials in Kabul accordingly. The case became 
public and led to the imprisonment of the said official. Such corrupt 
officials who cover up for criminal networks threaten our freedom. I 
was gunned down on September 24, 2016 by two masked gunmen on a 
motorbike and had seven bullets. I survived miraculously. The attempt 
on my life will not stop our fight. We will continue our efforts and 
ask for yours and NED's continued assistance in promoting good 
governance and accountability in Afghanistan.
    Allow me to share a few details on how we combat corruption. We 
maintain a grassroots advocacy campaign, encouraging public 
participation, including petitioning. NED was the first to recognize 
and support our campaign. With NED support, we launched a hotline for 
citizens to report on bribes and other forms of corruption, installed 
complaint boxes on main neighborhoods where citizens safely report 
incidents of corruption and fraud. We trained our own investigators and 
representatives from 30 other civil society groups and launched 
committees to review and verify allegations of corruption. We also 
built bridges with state and government bodies and advocated for 
redress and necessary reforms.
    We know that combatting corruption in Afghanistan is an uphill 
struggle. Surely, with persistence and increased awareness we will 
triumph. Today, we collaborate with local media, radio and TV, we have 
banners and billboards throughout Herat on citizens' rights, and we 
receive and follow up on hundreds of complaints, reporting bribes. One 
good story is that of Gholam Hossein. He is a local farmer who reached 
out to us asking for help on a land dispute issue where a judge asked 
him to pay a large bribe. He refused. SOACS investigated his claim, 
found it credible, and referred his case to our rule of law committee, 
on which a prominent judge and police chief sit. The committee verified 
the facts filed charges, and the police chief arrested the corrupt 
judge. This and many other cases testify to the effectiveness of our 
footprint in combating corruption in my hometown. We would have not 
been able to do any of this work had it not been for the NED's 
continued support.
    I want you to know that NED's assistance is a lifeline for civil 
society groups like us that raise awareness on good governance and on 
daily basis fight the rampant corruption, which is a lethal threat to 
Afghanistan' s security and political stability.

            Thank you,
                                              Khalil Parsa,
                                                Executive Director.
                                 ______
                                 
                    Prepared Statement of Tounissiet
    Since the 2011 revolution in Tunisia, local civil society has 
played a key role in the development of democracy and democratic 
institutions. One such organization is our association Tounissiet, 
founded in 2011 on the eve of the revolution, and focuses on advocating 
women's rights and gender equality. Our association received its grant 
from the National Endowment for Democracy (NED), which has allowed us 
to develop institutionally by acquiring permanent headquarters and 
staff, solidifying our vision, and opening additional new branches in 
Gabes, Bousalem, and Beni Kheir.
    Since then, additional support from NED has enabled our association 
to rapidly expand its scope and activities that include:

  --Establishing robust partnerships with international organizations 
        such as the United Nations Women's Fund, the International 
        Center for Transitional Justice, the United Nations High 
        Commissioner for Human Rights, the United Nations Development 
        Fund, and the Carter Center for Democracy and the Center for 
        Reports.
  --Capacity building for partner associations in multiple regions of 
        Tunisia on national issues related to women.
  --Attracting additional international donors.
  --Participating in hearing sessions with local councils on laws 
        pertaining to women and women's rights, including draft laws 
        aiming to eradicate violence against women and create gender 
        equality in inheritance.
  --Publishing a 50-page report on the views and recommendations of our 
        Association and its proposals on the anti-violence draft law to 
        the parliament.
  --Contributing to the discussions and activities of constitutional 
        bodies, including the Truth and Dignity Commission and the 
        Anti-Corruption Commission.

    NED funding has allowed our association to develop into a 
sophisticated NGO that is a force in local Tunisian issues and 
positioned well to be reactive to social shifts within Tunisian 
society. Without NED funding, our association would be forced to 
considerably shrink the scope of its activities, which would hurt the 
quality of its programs and its impact on democratic consolidation in 
Tunisia.
                                 ______
                                 
   Prepared Statement of Transparency International, Cambodia (TI-C)
    The United States has been a crucial ally to democratic actors in 
Cambodia since the early 1990s. By connecting Cambodian civil society 
organizations with internationally-acclaimed expertise, United States 
support has helped Cambodia navigate a tense post-conflict period to an 
institutional framework suited for democracy and in support of the 
implementation of the democratic roadmap stipulated in the 1991 Paris 
Peace Accords signed by all Cambodian leaders and factions.
    Our democracy, however, has yet to be consolidated. An increasingly 
restrictive space for opposition politics and civil society activities 
has threatened the momentum behind emerging civic values in our 
country. This is where U.S. assistance becomes crucial: U.S. support 
for voter education has prepared the next generation for political 
leadership in our multi-party system. Civic engagement programs have 
equipped women candidates with the skills necessary for elected 
leadership, while youth activist trainings have imparted the critical 
value of government accountability. The democratic mindset adopted by 
Cambodian youth is in part owed to the U.S. commitment to 
representative government, a commitment we are proud to share.
    Transparency International Cambodia, the organization I lead, has 
partnered with U.S. organizations to take our shared commitment to 
democracy from theory to practice in the observation of Cambodia's 
upcoming elections. U.S. material and technical assistance has prepared 
hundreds of observers, mostly youth, to monitor polling stations in 
both 2017's local election and the crucial 2018 national poll. In the 
previous cycle, the evidence of irregularities uncovered by U.S.-
supported observation efforts empowered civil society to successfully 
lobby for electoral reform. If similar irregularities occur in the 
current electoral cycle, we'll be there to report them, thanks to 
continuing U.S. assistance for organizations with shared values 
overseas.
    Cambodia may be on the verge of a monumental transition in its 
history. The opportunity presented by the upcoming elections is rare 
chance for our country to become the democratic example of Southeast 
Asia. Since Cambodian advocacy began, U.S. assistance has been multi-
faceted, wide-reaching, and crucially important to the realization of 
Cambodian democracy. It will only become more so in the aftermath of 
our elections, regardless of their result.
    We strongly appeal to the American people and her Government to 
continue supporting Cambodia in this noble democratic path until key 
pillars and foundation for democracy and good governance are built and 
are irreversible.

    [This statement was submitted by Kol Preap, Executive Director.]
                                 <greek-l>
                                 ______
                                 
                         Usupashvili David deg.
   Prepared Statement of the Hon. David Usupashvili, Speaker of the 
                  Parliament of Georgia from 2012-2016
    It is no doubt rare for representatives of any U.S. assistance 
recipient country to say that ``we no longer need your financial and 
technical support, because you have many other domestic needs and we 
can find support elsewhere.'' Initially I feared that my statement 
could be almost meaningless for the distinguished Senators. However, 
when I looked to the issue from the other angle, as a representative of 
a strategic partner of the United States, I realized that I had a duty 
to write.
    I strongly believe that the world can become better for everybody 
only if the U.S. continues its leadership in promoting democracy, peace 
and prosperity around the globe. This leadership is at its most 
effective when less democratic, less peaceful and less prosperous 
nations, who are truly applying their own resources to the same tasks, 
are treated as long term partners. The demonstrated successes of such 
countries can better initiate increased demand for change in other 
closed and non-democratic societies than anything else.
    From my practical experience of more than 20 years, the work of IRI 
and NDI in Georgia is not just about providing needed assistance, but 
also about building and strengthening the strategic partnership between 
our countries. This model of mutually beneficial, well established 
partnership, has become possible due to two decades of hard work from 
both sides. This must be protected, promoted and shared. When NDI 
opened its first office in Tbilisi in the early 1990s, I was among the 
Georgians who were assisting them, personally teaching the Americans 
how to turn on handmade heaters and power generators in their offices 
and apartments, which in those days did not have electricity, gas or 
water supply.
    That early team was later joined by the current President of 
Georgia, Giorgi Margvelashvili. The changes in my country since then--
not only in utility services, but also good governance, rule of law, 
media freedom, civil society, multiparty democracy, judicial 
independence, parliamentary openness, and self-governance--would not 
have been possible without the help of our American friends and 
advisors. This fact is well recognized across the political spectrum 
and, most importantly, by the ordinary people.
    Georgia was lucky to have extraordinary people serving in both IRI 
and NDI offices for years. We never felt that they were foreigners 
looking to fulfill contractual obligations. The impression was and is 
that they are de-facto citizens of Georgia, caring about it, being 
proud of its success, and feeling its pain in difficult moments. For 
this reason, our government and people have metaphorically 
``nationalized'' IRI and NDI (along with a few others), as we feel that 
they are as much ``ours'' as they are ``yours''. Their presence is much 
greater than their projects.
    If they are closed or their presence visibly reduced, I believe 
Russia will interpret it in only one way--as a green light for 
expanding its ``backyard.'' This will also be a dangerous signal to the 
segment of society, who hear Russian propaganda and long for the Soviet 
past, causing them to question Georgia's Euro-Atlantic orientation. Let 
me be less diplomatic and share the public comment of one popular 
Georgian politician following U.S. Ambassador Ian Kelly's remarks on 
the importance of independent media: ``Can anybody explain to this guy 
that things have changed? Did not he hear about the policy of his own 
new president about restraining from involvement of other countries 
domestic affairs?''
    This is how certain things are understood and interpreted these 
days. The battle between the light and dark is taking on new dimensions 
in post-soviet countries, and the U.S. should be thinking about 
increasing engagement and cooperation with countries like Georgia. This 
is the same message of today's events in Tbilisi. As the countries of 
the Former Soviet Union celebrate Victory Day over Nazi Germany, 
Georgia is also privileged to also celebrate the 25th anniversary of 
the U.S.-Georgia strategic partnership, with the attendance of the 
President and Prime Minister of Georgia and four former U.S. 
Ambassadors to Georgia.
                                 <greek-l>
                                 ______
                                 
                             Vejjajiva deg.
   Prepared Statement of Abhisit Vejjajiva, Former Prime Minister of 
                                Thailand
    Throughout the years, the NDI has been involved in capacity 
building work for politicians and staff in a number of areas, notably 
women and youth issues, as well as engagement with local communities. 
They have done this in partnership with political parties, foundations, 
academics and non-governmental organizations.
    Such work has contributed significantly to the development of 
democracy in Thailand. By broadening the experience of political 
stakeholders in a tangible manner, not only does the work of the NDI 
strengthen the soft infrastructure for a maturing democracy, but also 
adds another dimension to the U.S.--Thai relations at the people-to-
people level.
                                 ______
                                 
         Prepared Statement of the Youth for Youth Association
                  with ned support, hope is possible!
    Through collaboration with the National Endowment for Democracy 
(NED), our association Youth for Youth Association (AJJ) has 
strengthened its position as one of the emerging initiatives of 
democratic youth movement that aspires to build a Morocco that is 
accommodating to all, entrench democratic reform, and be reactive and 
vigilant to any backsliding to democracy in the country.
    Through NED support, we were able to contribute to the 
constitutional reforms by submitting recommendations to the committee 
tasked with drafting the 2011 constitution. In addition to this, NED-
funding allowed us to achieve the following:

  --Cement our organization's national role as one of the national 
        leaders for the youth movement that promotes democratic values 
        and advocates political reform in Morocco.
  --Maintain our ongoing transformation into a national level 
        organization that works on initiatives to improve youth 
        political participation and giving them a role in influencing 
        public policy process in Morocco.
  --Develop the ``Tamkeen-Empowerment'' program as an initiative that 
        enabled youth to track and evaluate policies specific to their 
        issues and participate side by side with government 
        representatives in drafting the National Integrated Youth 
        Strategy 2015-2030.
  --Play a critical role in advocating youth rights through the 
        establishment of a coalition of 150 non-governmental youth 
        organizations.

    In addition to this, NED funding has allowed our association to 
grow institutionally and develop strategic partnerships with various 
organizations and donors. Case in point is the partnership with the 
World Bank and the Ministry of Youth and Sport, to lead a socio-
economic empowerment program that targeted over 400 vulnerable and 
marginalized youth.
    NED support also provided us credibility and visibility that 
offered our association an opportunity to receive recognition from 
international organizations, including the Mediterranean Youth Network 
of UNESCO, and the Education and Youth Sector of the Council of Europe 
to list just few.
    Through NED-funded ``Eye on the budget'' project, our association 
developed a model for a participatory process for youth inclusion in 
the municipal budget planning in the city of Larache in the North of 
Morocco. This project has helped create bridges of dialogue for youth 
to participate and advocate good governance practices, keep up with 
institutional changes, and participate in local decisionmaking process.
    While our association is a capable organization, NED support has 
made a significant difference in allowing us to lead effective 
initiatives, professionalize our work, and leverage partnerships. 
Without NED initial support, our association could not have become a 
prominent actor in promoting democratic ideas, advocating good 
governance and accountability, and influencing the public policy 
process.
                                 ______
                                 
   Prepared Statement of the Youth Initiative for Advocacy, Growth & 
                      Advancement (YIAGA)--Nigeria
    With any iota of doubt, NED is the most youth friendly and 
supportive organization we have worked since YIAGA was established in 
2007. Our first grant was given to us by NED to mobilize youth voices 
for electoral reforms and active citizenship. The foundation of YIAGA 
is strongly built on NED's support. Today YIAGA has grown as one of the 
most respected civil society organizations promoting democracy in 
Nigeria. Beyond promoting institutional reform through the provision of 
technical assistance, NED's support also contributed to peaceful 
democratic transition in Nigeria. NED's grant to YIAGA has been and 
will continue to be grant with the highest level of impact. NED's 
consistency is phenomenal and the technical support provided alongside 
the provision of funds is remarkable.
    NED's support has contributed to building a movement of active 
citizens demanding accountability at the state and national level. One 
significant difference is the area of raising citizens awareness on 
democratic principles and mobilizing them to take action in defense of 
democracy. This enhanced the competitive nature of politics in Nigeria 
as citizens demands has kept public leaders and politicians on their 
toes.
    NED's support has transformed the capacity of local groups to 
engage in democratic processes. YIAGA technical capacity has been 
enhanced leading to organizational growth and development. YIAGA 
engages in high level policy engagement with state institutions. The 
current Nigerian Youth Policy has been reviewed with inputs from NED 
support engagements. NED's supported Youth Organizing School laid the 
foundation for the evolution of the Not Too Young To Run global 
movement.
    NED's support has promoted solidarity amongst civic actors and 
cross boarder collaboration. This has improved the quality of democracy 
in Nigeria and other countries within the region where YIAGA is 
currently working. The opportunities created by NED's support for peer 
learning and experience sharing has made a huge difference. Beyond 
expanding our horizon and scope of impact it has led to the evolution 
of a youth movement, African Movement for Democracy.
    Without NED, YIAGA won't be existing today and the leadership role 
we are playing wouldn't have been possible. At a time where there was 
no support for youth organizations or startups, NED rose to the 
occasion to provide support thereby closing that huge gap. We would 
have lost faith in democracy but for NED's support which gives us hope 
that we can change our society. There would have been no Not Too Young 
To Run movement today or the Young Legislators Forum in the national 
parliament if NED's support was not provided to YIAGA at the material 
time the support was received.

    [This statement was submitted by Samson Itodo, Head of Research, 
Policy and Advocacy.]
                                 <greek-l>
                                 ______
                                 
                            Yunas Leyla deg.
 Prepared Statement of Dr. Leyla Yunas in Support for Civil Society in 
                               Azerbaijan
               Preserves Hope for Democratic Development
    I began my human rights work in the Soviet Union as a member of the 
underground movement ``National Minorities Enslaved by the Bolsheviks'' 
and in the 1980s became a correspondent for the first human rights 
samizdat newspaper Ekspress-Khronika. I also became one of the founders 
of the Popular Front of Azerbaijan and one of authors of the party's 
program which sought to establish an independent and democratic 
Azerbaijan. I have been compiling lists of political prisoners in 
Azerbaijan since 1988 and in 1995 I founded the Institute for Peace and 
Democracy (IPD), the most prominent and respected independent human 
rights organization in Azerbaijan. I have conducted numerous studies 
and reports about conditions in Azerbaijan--including reports about 
political prisoners, illegal seizures of property, human trafficking, 
and corruption and abuses by top government officials. In the summer of 
2014 in retaliation for this lifetime of human rights activism, I was 
arrested along with my husband Arif Yunus on false charges of state 
treason. We spent nearly 2 years in prison and were released thanks 
only to persistent international pressure. Currently, we are continuing 
the IPD's work from the Netherlands.
    Looking back at the many years of work and all the different 
programs that we have undertaken, NED stands out as a reliable, 
knowledgeable, and flexible partner that seeks to accommodate the needs 
of civil society in authoritarian settings. As Azerbaijan and other 
states throughout Eurasia become even more repressive, the civil 
society requires even greater American support and solidarity. Over the 
last decade, the problems in our region have multiplied but the funding 
from foreign donors has declined. To respond adequately to the growing 
challenges, the U.S. Congress should not only sustain but expand the 
work of NED and other U.S. funded programs to support civil society in 
Azerbaijan and other authoritarian countries.
    With support of the National Endowment for Democracy (NED), IPD has 
undertaken a variety of human rights programs as well as important 
research projects. Azerbaijani citizens approached our independent 
organization for help defending their rights, including their property 
rights. We conducted research into crimes and corruption within a 
variety of ministries, and the government's illegal seizure of the 
property of over 100,000 Baku residents. Even before September 11, 
2001, IPD began researching the rise of Islam in Azerbaijan. From 2004 
to 2013, IPD published three books, which explored in detail the rise 
of Shia Islam, with the financial support of Iran as well as the growth 
of Arab and Turkish forms of Sunni Islam in Azerbaijan. By working with 
religious communities and promoting tolerance among confessions, civil 
society promotes peace and stability and counteracts the spread of 
extremism.
    In authoritarian countries like Azerbaijan, where there is no 
separation of powers between the executive, legislative, and judicial 
branches of government, where election results are falsified and the 
courts lack independence--civil society are the only truly independent 
actors. In authoritarian settings NGOs and media organizations must 
rely on foreign assistance from U.S. and European donors. By avoiding 
financial dependence on Azerbaijan's mafia-like and clan-based 
political authorities, NGOs are the only institutions that protect the 
population from abuses, which can serve the public good, and provide 
examples of ethical, democratic behavior. NGOs are incubators of 
democratic norms and processes in authoritarian settings.
    If permitted to flourish, with both diplomatic and material support 
from U.S. and Europe, civil society holds out hope for a better more 
stable and free future for everyone.

            Sincerely,

Dr. Leyla Yunus,
Director of Institute for Peace and Democracy
Chevalier of the French Legion of Honor
Winner of International Theodore Hacker Award
Winner of Polish Sergio Vieira de Mello Award
Winner of Battle of Crete Award
Sakharov Prize for Freedom of Thought of the European Parliament 
Finalist

 
     OUTSIDE WITNESS TESTIMONY SUBMITTED SUBSEQUENT TO THE HEARING

                              ----------                              

 Prepared Statement of the Center for International Private Enterprise

                        Democracy Pays Dividends

   cipe democracy support programs create jobs and reduce corruption
    CIPE has more than 100 projects in over 50 countries that are 
impacting democratic and economic development in some of the world's 
most challenging regions. CIPE's projects ensure that business people 
are active participants in the democratic process through their 
engagement with local and national governments. These programs have had 
a significant impact on local communities by providing economic 
opportunities and thereby enhancing the quality of life throughout the 
society.

  --In Afghanistan, CIPE and the local Afghan business community 
        developed an initiative that is helping spur economic growth 
        and create jobs in the provincial areas of the country 
        particularly hard hit by the reduction in international 
        development spending. Public-private dialogue between the local 
        business community and provincial governments is a key element 
        in the democratic process and essential for building economic 
        growth. Recent impacts of this dialogue include Afghan 
        Government investment in an industrial park in Kandahar that is 
        expected to provide 3,900 jobs. Entrepreneurship in the 
        province has also been boosted through the issue of 960 new 
        licenses to shopkeepers. In Nangarhar province, increased 
        access to land, electricity and security at an industrial park 
        has enabled 23 factories to open, creating over 2,500 new jobs. 
        These are locally-driven reforms that are the result of CIPE- 
        supported advocacy by the local business community.
  --In recent years, women-owned businesses have driven women's 
        economic empowerment in Bangladesh. CIPE has worked with the 
        Bangladesh Women's Chamber of Commerce and Industry on an 
        initiative to increase access to credit by women entrepreneurs. 
        Through engaging businesswomen in policy development and 
        advocacy, the program ensures women are a key part of the 
        democratic process. As a result of the program, $93 million in 
        loans to small and medium enterprises have been provided to 
        almost 10,000 women, helping create tens of thousands of new 
        jobs. Overall, the proportion of women entrepreneurs in the 
        country receiving commercial bank loans has increased from 19 
        percent in 2007 to over 50 percent today. More than 65 percent 
        of the country's banks now have dedicated desks for female 
        borrowers, staffed with personnel trained to cater to 
        businesswomen's needs.
  --Endemic corruption is undermining democracy in Cambodia. A CIPE 
        program is tackling corruption at the provincial level by 
        training local citizens in public procurement monitoring. The 
        program has assembled a coalition of local non-profits, 
        businesses, and village leaders to function as an anti-
        corruption watchdog. The group monitors public procurement and 
        publicizes its findings. The project has improved transparency 
        and government accountability, and increased citizen engagement 
        with public policy as evidenced by increased attendance at 
        public dialogues. The more competitive tender process has also 
        resulted in an average 50 percent reduction in the cost of 
        contracts, greatly increasing the amount of projects and 
        services that can be provided by local governments. This 
        program is now being replicated and extended to other 
        communities in Cambodia.
                                 ______
                                 
 Prepared Statement of the Chamber of Commerce of the United States of 
                                America
                                                       May 9, 2017.


 
 
 
Hon. Lindsey Graham, Chairman,       Hon. Patrick Leahy, Ranking Member,
Subcommittee on State, Foreign       Subcommittee on State, Foreign
 Operations, and Related Programs,    Operations, and Related Programs,
Committee on Appropriations,         Committee on Appropriations,
United States Senate,                United States Senate,
Washington, DC 20510.                Washington, DC 20510.
 


Chairman Graham and Ranking Member Leahy:

    The U.S. Chamber of Commerce supports the continued funding for 
democracy programming by the Federal Government through the National 
Endowment for Democracy (NED), of which the Chamber's non-profit 
affiliate, the Center for International Private Enterprise (CIPE), is a 
core institute, and appreciates the Subcommittee holding today's 
hearing.
    U.S. foreign assistance programs in support of democracy, rights, 
and governance abroad provide technical assistance to partners in 
developing countries, helping them build stronger political, economic, 
and legal policy regimes. At a time when export opportunities represent 
such critical growth potential to the U.S. economy and domestic job 
creation, these programs are a valuable contribution to creating 
competitive markets for American businesses throughout the world.
    The work of the NED and its four core institutes is an essential 
element of American soft power, as these organizations help our friends 
build stable and peaceful democracies, often in extremely complex or 
repressive environments. Consequently, the NED enjoys widespread 
support from the U.S. business community because it is a cost effective 
investment that advances national security and economic interests. 
This, in turn, enables an organization, such as CIPE, to assist the 
business community in emerging market countries to advocate effectively 
for the economic reforms that are necessary to improve their own 
commercial and social environment.
    As detailed in the attachment, the Endowment is especially 
important because it funds programs in countries that Federal 
Government agencies often cannot effectively reach. In fully funding 
NED, the United States supports an important institution that advances 
America's fundamental values and interests.
    Thank you again for holding today's hearing highlighting the 
importance of democracy programs in advancing U.S. interests abroad.

            Sincerely,
                                           Neil L. Bradley,
                      Senior Vice President & Chief Policy Officer.
                                 ______
                                 
   Prepared Statement of the International Foundation for Electoral 
                                Systems
    As Chairman of the Board of the International Foundation for 
Electoral Systems (IFES), a former Ohio Secretary of State responsible 
for election administration, and a former U.S. Ambassador to the United 
Nations Human Rights Commission, I respectfully urge this subcommittee 
and the U.S. Congress to continue its tradition of bipartisan support 
for democracy, rights and governance (DRG). Relatively small, strategic 
investments in electoral assistance will continue to contribute to a 
more prosperous, secure America.
    To support the DRG sector, we ask that in fiscal year 2018, 
Congress provide $2,308,517,000 for democracy programs under Title VII 
General Provisions, including ``shall'' language that protects DRG 
funding from reprogramming to other sectors, and $210,500,000 for the 
Democracy Fund under Title III Bilateral Economic Assistance.
                 about ifes: ``a vote for every voice''
    For 30 years, IFES--a 501(c)3 nonpartisan nonprofit--has worked in 
over 145 countries to support citizens' right to participate in free 
and fair elections. Credible elections are the cornerstone of a healthy 
democracy and enable all persons to exercise their basic human right to 
have a say in how they are governed.\1\ In many emerging democracies, a 
transparent and accurate election is the best evidence to citizens that 
their government can fairly deliver a public service to the entire 
nation.
---------------------------------------------------------------------------
    \1\ Article 21, The United Nations Universal Declaration of Human 
Rights.
---------------------------------------------------------------------------
    Currently, IFES works in nearly 30 countries to build capacity and 
strengthen democratic processes across the electoral cycle. 
International norms and best practices inform our programming, and our 
work with both state and non-state actors enhances trust between 
citizens and government officials, supports the power of citizens to 
democratically sanction or remove government officials for 
unsatisfactory performance, and promotes systems and processes that 
provide the purest expression of citizen will.
    IFES' core service lines include the long-term capacity building of 
election commissions; the broadening of citizen participation and 
inclusion; the empowerment of marginalized groups; and research and 
surveys that inform our work and further the DRG discipline. IFES 
achieves its goals by providing targeted technical assistance to local 
partners on electoral frameworks; election dispute resolution; fraud 
and malpractice mitigation; political finance regulation; civic and 
voter education; leadership and advocacy; electoral security; the 
constructive relationship between the media and electoral stakeholders; 
innovative technology; and codes of conduct that support 
professionalism and high standards of ethical behavior.
    In 2016 alone, IFES trained 5,791 election offices; reached over 
7,000,000 individuals through voter and civic education; produced 244 
electoral recommendations through collaboration and advice; and trained 
4,402 stakeholders on electoral and political processes.
        electoral assistance: a long-term development commitment
    No team makes it to a championship without hard work in the pre- 
and regular seasons, as well as some intense post-season analysis and 
rebuilding. Similarly, although Election Day may be the ``Super Bowl'' 
of the electoral cycle (see Figure 1), it is simply one event in a long 
process.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Figure 1. The Electoral Cycle, International IDEA (Institute for 
                  Democracy and Electoral Assistance)

    To this end, effective electoral assistance demands investment 
several years in advance of an election date and in the period between 
elections. At the heart of a strong electoral cycle is the 
professionalism of the electoral management body (EMB) and an empowered 
civil society.
    Consistent, long-term support throughout the electoral cycle also 
enhances stability during uncertain democracy building processes. 
Shorter term or immediate assistance does not allow for capacity 
building, the introduction of technology (or the training and public 
education necessitated by it), or strategic planning.
            electoral assistance advances american interests
    Stable democracies make for better trading partners, provide new 
market opportunities, improve global health outcomes, and promote 
economic freedom and regional security.

    For example:

  --IFES' technical support ensured Guatemala's fall 2015 elections 
        were conducted in a peaceful and transparent manner. IFES 
        helped implement the Inter-Institutional Security Committee, 
        through which electoral authorities and other government 
        agencies monitored and coordinated a prompt and adequate 
        response to electoral violence. Credible elections contribute 
        to a more stable Guatemala, removing incentives for its 
        citizens to emigrate north.
  --Nigeria's watershed 2015 elections--despite taking place at the 
        height of the Boko Haram insurgency--ensured stability through 
        the first democratic transfer of power in the country's history 
        and its continuation as one of the United States' largest 
        African trading partners.\2\
---------------------------------------------------------------------------
    \2\ The USG role in the elections' success was acknowledged by 
President Muhammadu Buhari in July 2015: ``The contributions of the 
IRI, NDI and IFES to the success of the 2015 general elections in 
Nigeria are well documented. I would like to use this opportunity to 
thank them for their partnership and support to the democratization 
process in Nigeria.''
---------------------------------------------------------------------------
  --Tunisia, a bright spot in a rough neighborhood, has held three 
        credible elections to date with U.S. Agency for International 
        Development (USAID)-supported IFES technical assistance, and 
        continues to welcome IFES support as it prepares for local 
        elections in 2017. With USG assistance, Tunisia has resisted 
        authoritarianism and failed statehood, and is a reliable 
        partner in the fight against Daesh and violent extremism.
  --Myanmar's historic 2015 general elections saw a landslide victory 
        of Aung San Suu Kyi's National League for Democracy (NLD) and 
        ushered in a new era of democratic process. Much of its success 
        was due to USG assistance--as stated by the Chairman of the 
        Union Election Commission after Election Day, ``We wouldn't be 
        standing here if not for IFES.'' Not only has Myanmar's 
        democratic transition helped open space for improved human 
        rights, but will enhance U.S.-Myanmar cooperation on such 
        international security issues as nuclear nonproliferation and 
        North Korean arms sales.
Syria: Preparing for the Inevitable Political Transition
    No matter how or when the Syria crisis begins to resolve, Syrian 
citizens must prepare for the inevitable political and electoral 
transition. Since 2013, IFES was worked to enhance the capacity of 
government and political leaders, civil society actors, women's groups, 
and citizens at the grassroots level to support the establishment of 
inclusive and effective democratic processes and institutions in Syria.
    IFES engages with local partners, including a network of civil 
society organizations and other stakeholders that IFES helped to 
establish, to share information about international standards and 
practices with the wider Syrian community and create opportunities for 
discussion about principles of democracy and governance, human rights, 
and conflict management. IFES also works with local partners on 
conflict mitigation, civic education and civil society capacity 
building efforts, while preparing government-level stakeholders to 
address critical governance issues and collaborate with key groups and 
organizations. Additionally, IFES engages with the Syrian diaspora to 
create linkages between citizens, non-governmental stakeholders, and 
government institutions to encourage the establishment of inclusive and 
effective democratic processes and institutions in Syria.
    IFES' recent work in Syria has focused on displaced Syrian youth, a 
group at risk for radicalization--young Syrians have few avenues to 
express their desperation and even fewer platforms for civic 
engagement. In 2016, IFES assisted Syrian organizations based in 
Gaziantep, Turkey to found Musharaka, a forum to encourage civic 
engagement of Syrians living in Gaziantep. In its first year, Musharaka 
has reached over 1,060 Syrian youth in Gaziantep, an astounding 48 
percent of whom have been young women. The popularity of the Youth 
Forum has led to the creation of a distinct Adolescents' Forum, 
designed to meet the unique needs and worldview of this youngest 
segment of Syrian activists. Today, the Youth and Adolescents' Forums 
are engaged in a leadership development program that focuses on 
fostering critical skills for young activists by placing them in 
leadership roles. Both the Youth and Adolescents' Forums have elected 
representatives from among their ranks to engage with Syrian opposition 
leaders and Turkish officials on a variety of issues, including the 
crisis of education facing young Syrians in Turkey. Through the 
Musharaka Forum, IFES and its local partners have established a beacon 
of hope and optimism where few others have realized success and 
meaningful impact.
             electoral assistance advances american values
    In addition to the tangible benefits, DRG also promotes American 
values. For example, electoral assistance helps such traditionally 
marginalized groups as youth, women, and persons with disabilities gain 
equal access to public institutions, win economic and political self-
determination, and fully realize their individual rights. Inclusion and 
empowerment activities also help strengthen the credibility and 
stability of democracies more broadly, as democratic institutions 
flourish when all groups of society are represented.
    IFES works to strengthen political participation and inclusion by 
conducting civic and voter education activities via diverse media, 
including face-to-face, radio, social media, creative print mediums 
(such as comic books), and street theater; providing technical 
assistance to government officials on how to implement international 
standards; empowering civil society organizations; and assisting 
citizen-led efforts to define best practices.
Combatting Violence Against Women in Elections
    In every country where IFES works, women represent the largest pool 
of potential voters. Violence against women in elections is a threat to 
the integrity of the electoral process--violence or the threat of 
violence can affect women's participation as voters, candidates, 
election officials, activists, and political party leaders, and it 
undermines the free, fair, and inclusive democratic process. To better 
understand and address the ways in which electoral violence creates a 
barrier to women's participation, IFES developed the Violence Against 
Women in Elections (VAWIE) Framework to specifically identify and 
address the unique issues related to gender-based election violence. 
Through analysis and program implementation focused on increasing 
women's participation and leadership in democracy assistance, the VAWIE 
Framework makes narratives of violence against women in elections in 
their homes, political arenas and public spaces more visible.
Empowering Persons with Disabilities
    IFES seeks to empower civil society to sustainably advocate for 
equal rights. The General Election Network for Disability Access 
(AGENDA)--currently funded by the Australian Department of Foreign 
Affairs and Trade, but by initiated with USAID funding from 2011 to 
2013--was established as a forum to improve access to political and 
electoral opportunities for persons with disabilities in Southeast Asia 
through increased public awareness and advocacy for change. AGENDA is a 
creative partnership between IFES, disabled persons organizations, 
election-focused civil society organizations, and EMBs. The AGENDA 
network's principal objectives have been to promote election access in 
Southeast Asia and ensure that access to disability-inclusive political 
processes is on the human rights agenda of regional bodies, especially 
the Association of Southeast Asian Nations (ASEAN).
    In the first phase of the AGENDA network, with USAID support, the 
project expanded its network to seven countries; conducted research in 
five countries to publish the ``Accessible Elections for Persons with 
Disabilities in the Southeast Asian Countries'' handbook; created the 
first ever checklist for monitoring election accessibility; and 
developed a training module for election administrators to increase 
awareness regarding electoral issues impacting the inclusion of persons 
with disabilities. IFES has leveraged USAID's initial investment in the 
development of the election access observation checklist, conducting a 
total of 10 observations in four countries using the tool.
    The AGENDA network has established a strong reputation among key 
stakeholders, including organizations focusing on politics and human 
rights, election commissions, the ASEAN Intergovernmental Commission on 
Human Rights, and other ASEAN and Asia-Pacific officials. The AGENDA 
partnership is now considered the lead Southeast Asian regional actor 
promoting the political rights of persons with disabilities.
              case study: electoral assistance in georgia
    Georgia--squeezed between Russia and Turkey--is, quite literally, 
in a tough neighborhood. Despite its challenging geography, as well as 
continued encroachments by Russia on its territory, Georgia continues 
to be a vital trading partner and security ally of the United States.
    Georgia and the United States belong to a number of the same 
international organizations, including the United Nations, Euro-
Atlantic Partnership Council, Organization for Security and Cooperation 
in Europe, International Monetary Fund, World Bank, and World Trade 
Organization. Georgia also is an observer to the Organization of 
American States, a participant in the North Atlantic Treaty 
Organization's (NATO) Partnership for Peace program, and a partner 
legislature of the House Democracy Partnership.
    Additionally, Georgia is the largest non-NATO and largest per 
capita contributor to the war in Afghanistan. As Georgia's border with 
Russia links it to Chechnya and Dagestan, this ally serves as an 
essential barrier to the flow of foreign jihadists from Russia to the 
Middle East.
    Given its strategic importance to the United States, as well as its 
dedication to strengthening its still-evolving democracy, IFES has been 
honored to play a pivotal, multifaceted role in Georgia's elections 
since 1995. For example, IFES' partnership has been key to the Central 
Election Commission (CEC), as the two organizations cooperated on a 
broad sphere of work which led to successive, peaceful elections and 
the first change of power to an opposition political party, a watershed 
event in Georgia's post-Soviet history.
Police Partnership Piloted
    Of particular significance in preparations for Georgia's October 
2016 parliamentary elections was IFES' assistance in strengthening 
electoral security by establishing new procedures and clear 
responsibilities of the CEC and Ministry of Internal Affairs (MIA). 
This took the form of training for the CEC and development of strict 
protocols through which EMBs and law enforcement interact. Electoral 
security is a new area of work for IFES in Georgia, and the assistance 
delivered had a positive impact by creating an electoral security 
coordination body between the CEC and MIA to discuss security threats 
and share information. This also led to the signing of a Memorandum of 
Understanding between the CEC and MIA outlining improved coordination 
and delineation of roles and responsibilities for addressing security 
on Election Day. The effects of this closer coordination were realized 
on Election Day in 2016, when a Provincial Election Commission and law 
enforcement in the city of Marneuli worked effectively together to 
prevent an attack on a polling station, ensure the safety of voters and 
ballots, and raise the level of confidence in the election management 
bodies.
Civic Education for Youth
    To build the foundation for sustained civic and political 
engagement, IFES works with educational institutions and other youth-
serving organizations around the world to provide both school-based and 
non-school based civic education for young people. In Georgia, IFES has 
partnered with 27 institutions of higher learning to implement a fully 
accredited university-level civic education course; there are more than 
7,000 course alumni throughout the country. The curriculum requires 
students to apply the theoretical knowledge gained through classroom 
work to real-world situations in their communities, analyzing their 
communities and then designing and implementing projects to address 
identified issues. Student projects have focused on a broad array of 
topics including peer-to-peer voter education in ethnic minority 
regions and youth actions to promote disability rights throughout the 
country.
Adoption of Management Plan
    IFES has worked intensively with the Georgian CEC to finalize and 
implement an Electoral Integrity Management Plan. This project started 
with an Electoral Integrity Assessment and has included collaboration 
between IFES experts, CEC Chairperson Tamar Zhvania, CEC members and 
other key stakeholders on the development of a comprehensive plan to 
support electoral integrity. Through IFES assistance, the CEC served as 
host and made key presentations at an annual conference of 
international EMBs, and has emerged as a leader in adhering to the 
highest standards of electoral integrity by planning for and addressing 
areas of vulnerability within the electoral process. Other IFES 
assistance to the CEC is ongoing in the lead up to the 2018 local 
elections, including: improving efficient and effective election 
administration at all levels through development of learning modules 
and direct training; providing support and training to the commission 
on public relations; assisting in outreach to persons with 
disabilities, women and representatives of ethnic minority communities 
to improve electoral enfranchisement; organizing Building Resources in 
Democracy, Governance and Elections (BRIDGE) trainings for all 365 
District Election Commission (DEC) members; supporting finalization of 
accessibility adaptations to the CEC's website; supporting CEC civic 
education initiatives in ethnic minority and remote areas; and planning 
joint IFES-CEC training for CEC and DEC representatives to improve 
their written legal products.
  the case for electoral support: strengthening the american ``brand''
    IFES' nonpartisan and technical approach allows us to work in some 
of democracy's most challenging environments. However, our ability to 
make an impact is also thanks to America's democratic ``brand.'' 
Historically, champions for democracy around the world have held the 
United States as a model in electoral security, transparency, and 
accessibility.
    It is important to maintain and strengthen this reputation, which 
has shown some signs of weakening. Each national American election, 
IFES holds its United States Election Program (USEP). In 2016, the USEP 
united 501 participants from 90 countries to witness American democracy 
in action. The focal point of the USEP is the polling tour, which takes 
participants to polling stations throughout the District of Columbia, 
Maryland, and Virginia. At these polling stations, participants ask 
questions of voting precinct personnel, voters, and members of Congress 
and congressional candidates.
    In the 20 years that IFES has hosted the USEP, participants have 
been deeply impressed by the American political culture of trust. 
However, in 2016, participants' common refrain was ``You Americans 
don't put your money where your mouth is,'' as electoral equipment and 
technical support did not match the recommendations provided by IFES 
and other democracy organizations or reflect American values of 
accessibility, sanctity of the ballot, and transparency of results.
    I respectfully urge the President to uphold the American ``brand'' 
by promoting credible elections both at home and abroad. Supporting DRG 
funding is one such way to honor America's long tradition of electoral 
authority.
         key accounts and recommendations for fiscal year 2018
    I thank the Congress--and particularly this subcommittee--for its 
continued support of DRG in even the most challenging budget 
environments. In the Consolidated Appropriations Acts of both 2016 and 
2017, Congress mandated that the administration spend no less than $2.3 
billion on democracy programs. Congress' provision of a funding floor 
protects critical programming. For example, actual spending on all DRG 
programming was only $2.087 billion for fiscal year 2014--27 percent 
less than Congress enacted. The full funding of DRG programs is 
necessary to properly address democratic backsliding, to consolidate 
gains from economic development efforts, and to contribute to a more 
stable and prosperous world. We ask for Congress to continue funding 
DRG at existing levels.
Development Assistance
    Development Assistance funds help further USAID's goal of promoting 
resilient, democratic societies. DRG assistance supports new and 
fragile democracies by helping them develop policies and practices to 
build effective, transparent, and accountable governments that can 
deliver political and socioeconomic benefits to their citizens.
    Unfortunately, the leaked, draft administration budget document 
obtained by Foreign Policy \3\ eliminates entirely the Development 
Assistance account. This would severely restrict the United States' 
ability to achieve its longer-term development goals.
---------------------------------------------------------------------------
    \3\ http://foreignpolicy.com/2017/04/24/u-s-agency-for-
international-development-foreign-aid-state-department-trump-slash-
foreign-funding/.
---------------------------------------------------------------------------
Economic Support Funds
    Through the Economic Support Funds (ESF), the U.S. Department of 
State and USAID help partner countries meet short- and long-term 
political and economic needs so that they can transition to developed 
economies. Programs address the economic despair and lack of political 
participation that violent extremist groups exploit among youth, the 
unemployed, and marginalized members of society. DRG assistance 
empowers citizens to ensure broad-based participation; strengthens the 
rule of law; mitigates conflict; and cultivates respect for the 
democratic process.
    ESF support many of IFES' programs both directly and through 
USAID's Elections and Political Transitions (EPT) Leader with 
Associates award. The EPT--held by IFES, the International Republic 
Institute (IRI), and the National Democratic Institute (NDI)--is a pre-
competed mechanism that allows USAID Missions to respond rapidly to 
urgent needs across the globe.
    We support robust funding for ESF, particularly to help address the 
alienation of youth and the unemployed who are targeted by violent 
extremism, build local capacity to conduct credible elections, and 
strengthen civil society.
Democracy Fund
    Through the Democracy Fund, State's Bureau of Democracy, Human 
Rights and Labor and USAID's Bureau for Democracy, Conflict and 
Humanitarian Assistance support democracy activists worldwide, minimize 
human rights abuses, including human trafficking, open political space, 
and enable positive transnational change.
    The Democracy Fund allocates specific amounts for State and USAID. 
In recent years, increasing amounts have been shifted to State and away 
from USAID. I respectfully encourage Congress to split the Fund evenly 
between the two agencies, to ensure each agency's unique approach and 
priorities are honored.
Assistance for Europe, Eurasia, and Central Asia (AEECA)
    This account--discontinued at the administration's request in 
fiscal year 2013 and reinstated in fiscal year 2016--was also ``zeroed 
out'' in the April 2017 leaked administration document. The AEECA is 
critical to strengthening our allies in the region (including Georgia), 
particularly via DRG.
National Endowment for Democracy
    The National Endowment for Democracy (NED) is a critical component 
of the USG's foreign aid strategy. However, the vast majority of its 
funding is reserved for its four core institutes, and does not support 
many critical organizations, like IFES, that have emerged in the more 
than three decades since its initial legislative establishment. To this 
end, it is vital that the other accounts for DRG remain amply funded.
       looking ahead: the continued need for electoral assistance
    With the continued support of the U.S. Congress, DRG will further 
promote American interests and values abroad. Investment in electoral 
assistance simply cannot wait, and must be advanced in fiscal year 
2018. Such pressing challenges include Yemen's civil war (to which U.S. 
Defense Secretary Jim Mattis has called for a political solution \4\); 
Kenya's August 2017 national elections; 2018 elections in Georgia, 
Mali, and Pakistan; and Indonesia's 2019 presidential elections 
(Indonesia is the world's largest Muslim democracy and holds the 
largest single-day elections in the world).
---------------------------------------------------------------------------
    \4\ http://www.upi.com/Top_News/World-News/2017/04/18/Mattis-calls-
on-UN-brokered-end-to-Yemen-civil-war/7751492529467/.
---------------------------------------------------------------------------
    DRG funding is also critical to global migration crisis, which 
could prove to be both a humanitarian and democratic disaster. IFES is 
at the forefront of promoting the electoral rights of internally 
displaced persons (IDPs), of which there are over 40 million worldwide. 
For instance, IFES has begun reviewing electoral laws concerning the 
rights of displaced persons. If political solutions through the ballot 
box are critical to the reestablishment of political legitimacy and 
future governments in countries ranging from Ukraine to Iraq and Syria, 
then the rights of displaced voters require serious examination. This 
process parallels with work already underway with many election 
commissions mandated to conduct overseas diaspora voting.
    Again, I thank the subcommittee for its continued dedication to 
DRG.

    [This statement was submitted by Hon. J. Kenneth Blackwell.]


</pre></body></html>
